<html>
<title> - MISCELLANEOUS PUBLIC LANDS AND FOREST BILLS</title>
<body><pre>[Senate Hearing 107-762]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-762
 
                      MISCELLANEOUS PUBLIC LANDS 
                            AND FOREST BILLS
=======================================================================


                                HEARING

                               before the

                SUBCOMMITTEE ON PUBLIC LANDS AND FORESTS

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   on
                                     

                 S. 198                                S. 2222

                 S. 1846                               S. 2471

                 S. 1879                               S. 2482


                                     
                               __________

                             JUNE 18, 2002


                       Printed for the use of the
               Committee on Energy and Natural Resources








                          U.S. GOVERNMENT PRINTING OFFICE
82-883                             WASHINGTON : 2002
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001














               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman
DANIEL K. AKAKA, Hawaii              FRANK H. MURKOWSKI, Alaska
BYRON L. DORGAN, North Dakota        PETE V. DOMENICI, New Mexico
BOB GRAHAM, Florida                  DON NICKLES, Oklahoma
RON WYDEN, Oregon                    LARRY E. CRAIG, Idaho
TIM JOHNSON, South Dakota            BEN NIGHTHORSE CAMPBELL, Colorado
MARY L. LANDRIEU, Louisiana          CRAIG THOMAS, Wyoming
EVAN BAYH, Indiana                   RICHARD C. SHELBY, Alabama
DIANNE FEINSTEIN, California         CONRAD BURNS, Montana
CHARLES E. SCHUMER, New York         JON KYL, Arizona
MARIA CANTWELL, Washington           CHUCK HAGEL, Nebraska
THOMAS R. CARPER, Delaware           GORDON SMITH, Oregon

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               Brian P. Malnak, Republican Staff Director
               James P. Beirne, Republican Chief Counsel
                                 ------                                

                Subcommittee on Public Lands and Forests

                      RON WYDEN, Oregon, Chairman
DANIEL K. AKAKA, Hawaii              LARRY E. CRAIG, Idaho
BYRON L. DORGAN, North Dakota        CONRAD BURNS, Montana
TIM JOHNSON, South Dakota            PETE V. DOMENICI, New Mexico
MARY L. LANDRIEU, Louisiana          DON NICKLES, Oklahoma
EVAN BAYH, Indiana                   GORDON SMITH, Oregon
DIANNE FEINSTEIN, California         CRAIG THOMAS, Wyoming
CHARLES E. SCHUMER, New York         JON KYL, Arizona
MARIA CANTWELL, Washington           RICHARD C. SHELBY, Alabama

  Jeff Bingaman and Frank H. Murkowski are Ex Officio Members of the 
                              Subcommittee

                         Kira Finkler, Counsel
                Frank Gladics, Professional Staff Member















                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Allen, David, Alaska Regional Director, U.S. Fish and Wildlife 
  Service, Department of the Interior............................    25
Anderson, Bob, Deputy Assistant Director, Minerals, Realty and 
  Resource Protection, Bureau of Land Management, Department of 
  the Interior...................................................    28
Baucus, Hon. Max, U.S. Senator from Montana......................     4
Cantwell, Hon. Maria, U.S. Senator from Washington...............    10
Clinton, Hon. Hillary Rodham, U.S. Senator from New York.........     3
Craig, Hon. Larry E., U.S. Senator from Idaho....................  4, 7
Klundt, Scott, Esq., Associate Director of Federal Lands, 
  National Cattlemen's Beef Association and Associate Director, 
  Public Lands Council...........................................    51
Lindekugel, Buck, Conservation Director, Southeast Alaska 
  Conservation Council, Juneau, AK...............................    43
Marrs, Carl H., President, Cook Inlet Region, Inc., Anchorage, AK    49
Murkowski, Hon. Frank H., U.S. Senator from Alaska...............     8
Schumer, Hon. Charles E., U.S. Senator from New York.............    12
Secrist, Glen, Bureau Chief, Vegetation Management, Idaho State 
  Department of Agriculture, Boise, ID...........................    40
Shields, Richard, Chairman, Cape Fox Corporation, Ketchikan, AK, 
  accompanied by Peter Gigante, Chief Executive Officer, Cape Fox 
  Corporation....................................................    36
Smith, Hon. Gordon H., U.S. Senator from Oregon..................     2
Tate, Dr. James, Jr., Science Advisor, Department of the Interior    19
Thompson, Tom, Deputy Chief, National Forest System, Forest 
  Service, Department of Agriculture.............................    14
Wyden, Hon. Ron, U.S. Senator from Oregon........................     1

                                APPENDIX

Additional material submitted for the record.....................    61














              MISCELLANEOUS PUBLIC LANDS AND FOREST BILLS

                              ----------                              


                         TUESDAY, JUNE 18, 2002

                               U.S. Senate,
          Subcommittee on Public Lands and Forests,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:33 p.m., in 
room SD-366, Dirksen Senate Office Building, Hon. Ron Wyden 
presiding.

       OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR 
                          FROM OREGON

    Senator Wyden. The Subcommittee on Public Lands and Forests 
will come to order.
    The purpose of this afternoon's hearing of this 
subcommittee is to receive testimony on several public lands 
and national forest bills. As chair of the subcommittee, it has 
been my goal to find constructive and creative responses to 
issues arising on our public lands, considering in all 
instances environmental, economic, and human concerns. Our 
subcommittee most recently held a field hearing in Redmond, 
Oregon to address the impact of public land management 
decisions on rural economies and I look forward, in particular, 
to working with the ranking minority member of this 
subcommittee, Senator Craig, on important legislation that can 
address forest health concerns.
    Today, however, we are going to address proposed solutions 
to public land management issues across the country, looking at 
a number of bills.
    First, S. 198, to require the Secretary of the Interior to 
establish a program to provide assistance through States to 
eligible weed management entities to control or eradicate 
harmful, non-native weeds on public and private lands.
    Also, S. 1846, which would prohibit oil and gas drilling in 
the Finger Lakes National Forest in the State of New York.
    S. 1879, to resolve the claims of Cook Inlet Region, Inc., 
to lands adjacent to the Russian River in the State of Alaska.
    S. 2222, to resolve certain conveyances and provide for 
alternative land selections under the Alaska Native Claims 
Settlement Act related to the Cape Fox Corporation and Sealaska 
Corporation.
    S. 2471, to provide for the independent investigation of 
Federal wildland firefighter fatalities.
    And S. 2482, to direct the Secretary of the Interior to 
grant to Deschutes and Crook Counties in Oregon a right-of-way 
to the West Butte Road.
    I have particular interest in this legislation as it is 
designed to bring jobs to a very hard-hit rural community in my 
home State. S. 2482 would be of immense benefit to the town of 
Prineville which currently suffers from 15 percent 
unemployment. Connecting the community to U.S. 20 via the West 
Butte Road would efficiently direct traffic to the Prineville/
Crook County industrial parks. These areas are set aside for 
the sole purpose of promoting industrial diversification within 
Crook County, and city officials say the increasing traffic to 
the parks will greatly improve opportunities to retain major 
employers, increase occupancy, and provide new jobs for local 
residents.
    We also believe that there would be significant 
environmental benefits as well and look forward to the 
testimony of the witnesses.
    This community has waited a great time for this particular 
road. To wait on the Bureau of Land Management to issue a 
right-of-way would take another 4 to 6 years. This is a 
community that needs help now, and that is why it has received 
the endorsement not just of the cities and counties, but from 
the Oregon Department of Transportation. We look forward to 
moving this legislation expeditiously.
    Before we call our witnesses, I do want to recognize my 
friend and colleague, Senator Craig, for any opening statement 
he would like to make.
    [The prepared statements of Senators Smith and Clinton 
follow:]
  Prepared Statement of Hon. Gordon H. Smith, U.S. Senator From Oregon
    Mr. Chairman, I appreciate the opportunity to have this hearing 
today on S. 2482, which addresses a significant economic development 
issue for Central Oregon. I have cosponsored S. 2482 and have also 
suggested some minor modification that I hope will be incorporated 
during mark-up.
    Like the vast majority of Oregon-specific legislation that we have 
worked on together, Mr. Chairman, this bill's goal is to improve the 
economic viability of a rural community heavily impacted by the 
presence of federal land. This condition is particularly pronounced in 
Central Oregon, which is the fastest growing region in Oregon, and most 
of the communities there are located adjacent to BLM-managed lands. 
Consequently, the future development of the region is closely 
intertwined with the federal land management process.
    What we hope to accomplish with this legislation is a closer 
synchronization of the economic needs of the local community with the 
management process and decisions of the BLM. In that same vein, I also 
want to remind the Bureau of Land Management of an outstanding issue of 
equal importance to Central Oregon--one that I fear may be jeopardized 
by the length of the bureaucratic process. With the rapid growth of the 
Bend-Redmond area in recent years, one of the key issues for the region 
is to alleviate the increasing traffic along the U.S. Highway 97 
corridor. The 19th Street extension would help alleviate traffic on 
U.S. Highway 97 headed to the nearby Deschutes County Fairgrounds area. 
Like the Millican Road issue, completion of this project is currently 
pending implementation of the Upper Deschutes Resource Management Plan.
    In April of this year, I wrote to Director Clarke on both the 19th 
Street extension and the Millican Road issues. While we are pursuing a 
legislative resolution to the latter, I fully expect the BLM to 
accelerate its efforts to ensure that the 19th Street extension is not 
jeopardized by an increasingly lengthy bureaucratic process. This may 
mean working with local stakeholders to consider alternative processes, 
such as the possibility of putting key transportation projects into a 
separate, less comprehensive planning process.
    Mr. Chairman, thank you again for holding today's hearing and I 
look forward to continue working with you to have this legislation 
passed by the end of this Congress.
                                 ______
                                 
          Prepared Statement of Hon. Hillary Rodham Clinton, 
                       U.S. Senator From New York
    I want to thank the Chairman and the Ranking Member for holding 
today's hearing on S. 1846, to prohibit oil and gas drilling in the 
Finger Lakes National Forest of New York State. And I want to thank my 
colleague, Senator Charles Schumer, for his leadership on this issue. I 
am pleased to co-sponsor this legislation with him, which would 
permanently protect the only national forest in New York State, and the 
smallest national forest in the country, from oil and gas drilling.
    Northwest of Ithaca, between Lakes Cayuga and Seneca, lies the 
16,000 acre Finger Lakes National Forest--just a little bigger than the 
size of Manhattan. This small natural treasure draws some 46,000 
recreational visitors every year, who come to enjoy the Forest's scenic 
beauty and unlimited recreation opportunities any season of the year. 
The Finger Lakes National Forest provides its visitors with ample 
opportunities to hike, ski, camp, and generally enjoy the great 
outdoors.
    Yet, in addition to being a popular recreational destination, the 
Finger Lakes National Forest has also been a proposed drilling site for 
oil and gas since 1998. At that time, a joint proposal was made by two 
out-of-state firms to lease land in the forest for the purpose of 
drilling.
    Last year, the United States Forest Service sought public comment 
on a draft environmental impact statement (EIS) on the proposal to 
lease 13,000 acres of the forest. Among the consequences of the 
proposed drilling action identified in the Forest Service's draft EIS 
were soil erosion and contamination at or near well sites due to the 
construction of access roads, well pads and pipelines, and the use of 
trucks and heavy equipment in drilling activities.
    The draft EIS predicted that construction associated with the 
proposal could require several acres of vegetation clearing, including 
tree cutting. The quality of local waterways would be put at risk as a 
result of these activities. Loss of habitat for forest dwellers such as 
the Northern Goshawk and the Indiana bat were also recognized in the 
Forest Service draft EIS as impacts of the proposed drilling action. In 
addition, thousands of forest visitors from across New York State and 
around the country would come to the forest only to encounter conflicts 
with recreation uses due to higher noise, visual obstruction, and 
traffic related to drilling activities.
    In other words, drilling in the Finger Lakes National Forest could 
have potentially dire environmental consequences, without any 
significant energy benefits. The amount of energy secured by drilling 
in the Forest would not contribute significantly to meeting the 
nation's or the state's energy needs.
    That is why Senator Schumer and I, along with Governor Pataki, 
other elected officials, and many other New Yorkers, feel that drilling 
in the Finger Lakes National Forest is simply inappropriate and 
unnecessary. Representative Jim Walsh has introduced companion 
legislation to S. 1846 in the House, which is co-sponsored by 29 
representatives from New York and around the country.
    It is not just the New York Senators, other New York officials, and 
many other New Yorkers in general that think drilling in the Finger 
Lakes National Forest is a bad idea. Last year, in its Final 
Environmental Impact Statement, the U.S. Department of Agriculture 
(USDA) recommended the no action alternative. In other words, even the 
USDA does not currently support proposed drilling activities in the 
Finger Lakes National Forest. This could change in the future, however.
    It is our collective responsibility to protect our precious natural 
resources and to permanently prevent oil and natural gas drilling in 
the Finger Lakes National Forest. That is why last year, Senator 
Schumer and I worked to add an amendment to the Senate Energy and Water 
Appropriations bill to do just that. While we were successful in our 
effort to add this provision to the bill, it was scaled back in 
conference to a one-year moratorium ending on September 30, 2002. We 
have introduced the legislation that is under consideration before this 
Subcommittee today to make certain that this drilling moratorium is 
made permanent.
    The bottom line is that drilling in the Finger Lakes National 
Forest is not sensible energy policy, and it is not sound environmental 
policy.
    I want to thank Senator Bingaman, Senator Murkowski, and others on 
the Committee for their willingness to work with us on this important 
piece of legislation. It is my sincere hope that the Committee will 
support Senator Schumer and I in this matter of great importance to our 
New York constituency, and pass this legislation to permanently ban oil 
and gas drilling in the Finger Lakes National Forest.

        STATEMENT OF HON. LARRY E. CRAIG, U.S. SENATOR 
                           FROM IDAHO

    Senator Craig. Well, Mr. Chairman, thank you and thank you 
for convening our public lands and forestry subcommittee and 
moving some of these issues that are important.
    Let me ask unanimous consent a statement by Senator Max 
Baucus become a part of the record.
    Senator Wyden. Without objection, so ordered.
    [The prepared statement of Senator Baucus follows:]
    Prepared Statement of Hon. Max Baucus, U.S. Senator From Montana
    Severe drought across the United States has devastated farm lands, 
ranches, wilderness areas, fisheries and forests, and at the present 
time, catastrophic wildfires rip across the West. Not unlike these 
natural disasters, the spread of non-native weeds is playing a key role 
in taking valuable land out of production, in degrading wildlife 
habitat and contributing to increased fire danger.
    Non-native weeds are a serious problem on both public and private 
lands across the nation. They are particularly troublesome in the West 
where much of our land is entrusted to the management of the federal 
government. Non-native weeds are a threat to those who rely on land as 
a source of income and to wildlife, including endangered and threatened 
species. In some areas, spotted knapweed grows so quickly and so thick 
that it rapidly chokes off native vegetation and forces wildlife out of 
their preferred habitat to search for a new food source.
    These noxious weeds are quickly taking over federal lands in the 
Western United States. Currently, 70 million acres of land are covered 
by these non-native weeds and they are spreading at an astronomical 
rate of 4,600 acres a day. The cost of these noxious weeds is quickly 
adding up. The federal government is spending $2.8 million to control 
or eliminate noxious weeds on federal lands in Montana. This amount is 
not adequate and does not include what the state must spend to control 
weeds on their lands, or the millions of dollars that farmers and 
ranchers have already spent on weed prevention. Montana currently 
spends approximately $14 million to control weeds. If our weed needs 
were to be met fully, it would require $44 million. Leafy spurge has an 
economic impact of more than $100 million annually. This includes cost 
of control, damage to property value, and other factors. Our response 
is not adequate for seriousness of the situation. We must work together 
to find common sense solutions.
    The first step that the federal government must take to stop 
further disaster due to uncontrollable weed growth is to ensure that 
non-native weeds do not become established in the country. Also, it is 
imperative that action be taken to control the weeds that have already 
spread, and that continue to spread, across our farms, ranches, and 
public lands. This bill has the potential to provide assistance on the 
local level, where producers will be able to work together to fight the 
further spread of weeds. Through the Secretary of the Interior, funding 
will be provided to eligible weed management entities to control the 
expanding disaster caused by non-native weeds. This bill clearly 
outlines how funds will be allocated to the states and how the funds 
will be used within those states.
    Noxious weeds are not only a problem for farmers and ranchers, but 
a hazard to our environment, hunting and fishing opportunities, and our 
economy--particularly rural economics--and communities in Montana and 
the West, and for the country as a whole. The Harmful Non-native Weed 
Control Act is an important step in taking control over the noxious 
weed growth across the United States and reclaiming our beneficial 
lands.
    The Harmful Non-native Weed Control Act is a good step in 
addressing our weed crisis. However, a comprehensive approach must be 
taken if we are to be successful. We must continue to support projects 
such as the Montana Sheep Institute which is set up to develop and 
implement non-traditional adjustment strategies to increase the 
competitiveness of Montana's sheep industry. One of the benefits of 
this Institute is that they are expanding the methods that sheep are 
used for innovative, efficient, and effective management of noxious, 
non-native plants.
    Noxious weeds do not recognize property boundaries, so if we want 
to beat weeds, we must be fighting at the federal, state, local, and 
individual levels. If we work together at all levels of government and 
throughout our communities, we can protect our land, livelihood, and 
environment. It is only common sense to do everything in our power to 
rid our lands of noxious weeds and protect our Montana way of life. We 
must reclaim our lands for native species.

    Senator Craig. I will speak lastly about S. 198, the 
Harmful Non-native Weed Control Act, and in doing so, let me 
recognize Mr. Glen Secrist who is with us who will be one of 
our witnesses. Glen is Bureau Chief of Vegetation Management 
for the State of Idaho Department of Agriculture. I have worked 
with Glen over the years on issues of weeds and weed 
management. If there is an expert in the West, Glen has to be 
one of those if not the expert, and I have always appreciated 
his advice.
    Let me start with S. 1846, Senator Schumer and Senator 
Clinton's proposal to outlaw gas and oil drilling on the Finger 
Lake National Forest. I have two basic concerns with this 
proposal.
    First, it is very similar, Mr. Chairman, to S. 2450 which 
was recently introduced by Senators Schumer and Clinton. S. 
2450 would outlaw not only oil and gas drilling, but also any 
geothermal development and any withdrawals for other minerals 
such as sand, gravel, or other materials utilized by local 
counties for road development and maintenance. Mr. Chairman, I 
think we need to clearly understand which version of this 
legislation will be pursued and exactly what the Senators hope 
to accomplish.
    I also want to try to clarify whether or not this proposal 
will impact the private lands within the boundaries of the 
Finger Lakes National Forest. As I read S. 1846, those lands 
would be included in the moratorium, and under S. 2450, the 
private lands within the boundaries of the national forest, Mr. 
Chairman, might not be impacted. Again, some clarification of 
the goals of this legislation would be very important.
    The second proposal I want to mention is S. 2471, Ms. 
Cantwell's legislation to require an independent investigation 
by the Office of the Inspector General be undertaken and a 
report submitted to Congress after every fire fatality. I 
understand Senator Cantwell's initial frustration with the time 
it takes to complete these investigations. I also understand 
her fears that no one would ever be held responsible for the 
Thirtymile Fire tragedy.
    Given the fact that both the Forest Service and OSHA 
independently investigated the Thirtymile Fire and that the 
Forest Service took unprecedented disciplinary actions against 
some of its employees who worked on the fire, I have to wonder 
what purpose S. 2471 now serves. The agency recently terminated 
three employees, furloughed seven other employees for between 5 
to 30 days each in response to its investigation of this fire.
    I am also troubled by the requirement to transmit these 
investigations to the Senate. I do not understand what our 
committee and Congress would do with the reports. It seems to 
me that the responsibility of disciplinary actions rests with 
the agency and the Department and we have never had difficulty 
getting the agency to share such reports with our committees in 
the past.
    All of you know my longstanding concern about improving 
accountability in the U.S. Forest Service. I would be willing 
to work on broader legislation to improve the accountability of 
our resource agencies across all programs, but I have real 
difficulty passing specific legislation related to an incident 
that, for the most part, in my opinion has been resolved.
    I want to spend my remaining time on the issue that I think 
is of enormous economic and resource magnitude in every State 
in this country, and that is non-native weeds threatening fully 
two-thirds of all endangered species and are now considered by 
some experts to be the second most important threat to 
biodiversity. I was talking with Glen Secrist a few moments 
ago. In an area, Mr. Chairman, that I ranched less than a 
decade ago, a very extensive public land grazing area in Idaho, 
I am told by ranchers out there today that much of that land 
has been totally compromised in less than 10 years by rush 
skeleton weed. That is a type of weed that not only do domestic 
livestock not penetrate, but neither do wildlife, deer or other 
animals. Of course, that is really part of the issue that we 
are about here.
    Stopping the spread of noxious weeds requires I think a 
two-pronged effort. First, we must prevent new non-native weed 
species from becoming established in the United States, which 
was the focus of the Plant Protection Act, which we passed in 
the 106th Congress. Second, we must stop or slow the spread of 
the non-native weeds we already have, which is the focus of S. 
198.
    This bill establishes, in the Office of the Secretary of 
the Interior, a program to provide assistance through States to 
eligible weed management entities. The Secretary of the 
Interior will appoint an advisory committee of 10 individuals 
to make recommendations regarding the annual allocation of 
these funds. The Secretary, in consultation with the advisory 
committee, will allocate funds to States to provide funding to 
eligible weed management entities to carry out projects 
approved by States to control or eradicate harmful, non-native 
weeds on public and private lands. Funds will be allocated 
based on several factors including, but not limited to, 
seriousness of the problem in the State; the extent to which 
the Federal funds will be used to leverage non-Federal funds to 
address the problem; and the extent to which the State has 
already made progress in addressing it.
    The bill directs that the States use 25 percent of their 
allocation to make base payments and 75 percent for financial 
awards to eligible weed management entities to carry out.
    Well, let me ask unanimous consent that the balance of my 
statement become a part of the record.
    Senator Wyden. Without objection, so ordered.
    Senator Craig. Mr. Chairman, in closing, I flew into Denver 
last night and south of Denver, you could still see the smoke 
rolling up out of the mountain valleys in which those fires are 
now ravaging the resources of that area.
    Several years ago, a good many of the weed experts of the 
West, and I included, likened noxious weeds to a slow-burning 
wildfire that literally took the land over and rendered it 
useless for a variety of purposes. But because there are not 
large smoke clouds or people endangered or homes endangered, 
somehow weeds have been ignored well too long. Across the West 
today, we literally have millions and millions of acres of land 
that are of little to no value even to wildlife and for 
wildlife purposes because weeds that are not compatible with 
them now dominate those landscapes in such form that the land 
is rendered useless.
    We have sat idly by, either in the name of the environment 
or in some other compromised fashion or because the Federal 
Government just did not care or were very bad stewards of the 
land, and allowed this to happen. Of course, States and private 
property owners, while they have attempted to fight these 
problems on their own properties, found it nearly impossible 
because their neighbor, the Federal Government, simply became a 
passive land manager in many instances.
    No smoke clouds are arising today out of the weed patches 
of the West, but tragically enough without any effort or 
program, many of these stand-altering and climate-altering 
fires of the kind we are seeing now are the prelude to weed 
patches to come because oftentimes the only thing that grows 
after these very dramatic, very intense fires, fed by 
unprecedented fuels on our forest floors, are weeds themselves.
    So, those are our concerns. That is why I am so pleased you 
have brought this bill for a hearing, and ultimately we hope to 
go to markup, move this bill, and make it public policy and get 
at the business of managing these lands in a way that will deal 
with this issue. Thank you, Mr. Chairman.
    [The prepared statement of Senator Craig follows:]
   Prepared Statement of Hon. Larry E. Craig, U.S. Senator From Idaho
    Mr. Chairman, I want to thank you for holding this hearing. We are 
assembled to discuss a number of legislative proposals that are very 
important to my State and I suspect to each of the witnesses here 
today. Before I speak to S. 198, the Harmful Non-native Weed Control 
Act I want to briefly discuss two of the other legislative proposals on 
our agenda. But first I would like to thank Mr. Glen Secrist, Bureau 
Chief for Vegetation Management for the State of Idaho's Department of 
Agriculture. Welcome to Washington Glen.
    Let me start with S. 1846--Senator Schumer's and Senator Clinton's 
proposal to outlaw oil and gas drilling on the Finger Lake National 
Forest. I have two basic concerns with this proposal. First, it is very 
similar to S. 2450 which was recently introduced by Senators Schumer 
and Clinton. S. 2450 would outlaw not only oil and gas drilling, but 
also any geothermal development and any withdrawals for other minerals 
such as sand, gravel, and other materials utilized by the local 
counties for road development and maintenance. Mr. Chairman, I think we 
need to clearly understand which version of this legislation will be 
pursued and exactly what Senators Schumer and Clinton hope to 
accomplish.
    I also want to try and clarify whether or not this proposal will 
impact the private lands within the boundaries of the Finger Lakes 
National Forest. As I read S. 1846 those lands would be included in the 
moratorium and under S. 2450 the private lands within the boundaries of 
the National Forest might not be impacted. Again, some clarification of 
the goals of this legislation would be very helpful.
    The second proposal I want to mention is S. 2471, Ms. Cantwell's 
legislation to require an independent investigation by the office of 
Inspector General be undertaken and a report submitted to Congress 
after every fire fatality. I understand Senator Cantwell's initial 
frustration with the time it takes to complete these investigations. I 
also understand her fears that no one would ever be held responsible 
for the 30 Mile Fire tragedy.
    Given the fact that both the Forest Service and OSHA independently 
investigated the 30 Mile Fire and that the Forest Service took 
unprecedented disciplinary actions against some of its employees who 
worked on this fire, I have to wonder what purpose S. 2471 now serves. 
The agency recently terminated three employees, furloughed seven other 
employees for between 5 to 30 days each in response to its 
investigation of this fire. I am also troubled by the requirement to 
transmit these investigations to the Senate. I don't understand what 
our Committee and Congress would do with such reports. It seems to me 
that the responsibility for disciplinary actions rests within the 
Agency and the Department and we have never had difficulty getting the 
agency to share such reports with our Committees in the past.
    All of you know my long standing concerns about improving 
accountability within the Forest Service. I would be willing to work on 
broader legislation to improve the accountability of our resource 
agencies across all programs, but I have real difficulty passing 
specific legislation related to an incident, that for the most part, 
has been resolved.
    I want to expend my remaining time on an issue of enormous economic 
and resource magnitude to every State in this country. Non-native weeds 
threaten fully two-thirds of all endangered species and are now 
considered by some experts to be the second most important threat to 
bio-diversity. In some areas, spotted knapweed grows so thick that big 
game, like deer, will move out of the area to find edible plants. 
Noxious weeds also increase soil erosion, and prevent recreationists 
from accessing lands as they are infested with these poisonous plants.
    Stopping the spread of noxious weeds requires a two pronged effort. 
First, we must prevent new non-native weed species from becoming 
established in the United States, which was the focus of the Plant 
Protection Act which we passed in the 106th Congress. Second, we must 
stop or slow the spread of the non-native weeds we already have, which 
is the focus of S. 198.
    This bill establishes, in the Office of the Secretary of the 
Interior, a program to provide assistance through States to eligible 
weed management entities. The Secretary of the Interior will appoint an 
Advisory Committee of ten individuals to make recommendations regarding 
the annual allocation of these funds. The Secretary, in consultation 
with the Advisory Committee, will allocate funds to States to provide 
funding to eligible weed management entities to carry out projects 
approved by States to control or eradicate harmful, non-native weeds on 
public and private lands. Funds will be allocated based on several 
factors including, but not limited to: the seriousness of the problem 
in the State; the extent to which the federal funds will be used to 
leverage non-federal funds to address the problem; and the extent to 
which the State has already made progress in addressing the problems.
    The bill directs that the States use 25 percent of their allocation 
to make base payments and 75 percent for financial awards to eligible 
weed management entities for carrying out projects relating to the 
control or eradication of harmful, non-native weeds on public or 
private lands. A 50 percent non-federal match is required to receive 
these grants.
    As I have said before, non-native weeds are a serious problem on 
both public and private lands across the nation. They are particularly 
troublesome in the lands entrusted to the management of the federal 
government. Like a ``slow burning wildfire,'' noxious weeds take land 
out of production, force native species off the land, and interrupt the 
commerce and activities of all those who rely on the land for their 
livelihoods--including farmers, ranchers, recreationists, and the 
endangered species that inhabit these lands.
    Mr. Chairman, noxious weeds do not recognize property boundaries, 
so if we want to win this war on weeds, we must be fighting it at the 
federal, state, local, and individual levels. S. 198 is an important 
step to ensure we are diligent in stopping the spread of these weeds. I 
am confident that if we work together at all levels of government and 
throughout our communities, we can protect our land, livelihood, and 
the environment.
    As this legislation moves down the track I expect some changes will 
be made, indeed I expect to propose a few technical changes to the bill 
as I work with my colleagues who join me in this effort.
    Mr. Chairman, I ask unanimous consent that my written statement be 
made a part of the record of this hearing.

    Senator Wyden. I thank my colleague. I am very pleased to 
be a cosponsor of your legislation, Senator Craig. In my view 
these non-native weeds are literally gobbling up the West, and 
the fact of the matter is a strong program to deal with the 
eradication of these non-native weeds is something that 
improves the environment and strengthens the economy. And that 
is what you and I have tried to do, and I very appreciate your 
pushing this legislation.
    Senator Murkowski.

      STATEMENT OF HON. FRANK H. MURKOWSKI, U.S. SENATOR 
                          FROM ALASKA

    Senator Murkowski. Thank you very much, Senator Wyden.
    I am not going to comment at great length on what Senator 
Craig has indicated is a problem in the West relative to the 
Western States. Alaska is a little different.
    But one of the things that I find so frustrating--I have 
been on this committee a long time--is that our land managers 
seem to have lost their vision of advocacy. They have a 
responsibility to do what is in the best interest of the 
stewardship of the land, and I think they have been beaten back 
by environmentalists. They have been beaten back by the 
Endangered Species Act. They have been beaten back on the basis 
of not having support to make decisions on sound land 
management.
    How different it is, as we look at our farmers that are 
stewards of private land, and leased land, who make decisions 
that are in the best interest of the renewability of the 
agriculture economy of this Nation. They do not have those same 
kind of problems. But when we try and manage public land with a 
town hall meeting concept that takes into no consideration in 
reality how to combat bug infestation, it is clear, 
professionally from a land management status, you remove the 
diseased timber so it does not spread. It does not spread by 
the air and so forth.
    Until we come back and recognize that when you have forest 
health, you get the best professionals to make the decisions 
and you assist them and back those decisions. You certainly do 
not go for a public hearing that simply addresses the 
aesthetics at a given time. You have to look at the long-range 
application.
    Mr. Chairman, we have two Alaska bills on the agenda today. 
They are very different but represent the pressing needs of 
southcentral as well as southeastern Alaska. You agreed to hold 
these hearings some time ago and I appreciate that.
    The first is S. 1879 which provides for a land exchange at 
the mouth of the Russian River and will resolve a longstanding 
problem for the indigenous people in the Kenai Peninsula. The 
Native Claims Settlement Act of 1971 promised conveyance to 
Alaska's natives in important burial and cultural locations 
throughout the State. In the case of the Russian River area, 
the location has become important to many people as a world-
class recreational fishing area. S. 1879 will ratify an 
agreement that was painstakingly worked out between the native 
people, the Fish and Wildlife Service and the Forest Service, 
and it accommodates I think quite well the competing interests.
    Also before us today is S. 2222. This one advocates a 
longstanding inequity for the Cape Fox Village Corporation near 
Ketchikan. It authorizes an exchange that also resolves an 
important matter affecting the management in the Tongass 
National Forest. Approximately 9,000 acres in the Tongass where 
the subsurface rights are privately owned would revert to full 
ownership by the United States if we succeed in passing the 
bill. This is a matter of longstanding concern to the agency. 
In addition, the bill will consolidate private landholdings in 
southeastern Alaska, allow the Forest Service to square up its 
boundaries and secure an important recreation right-of-way 
trail in the Tongass.
    I am also aware that the Forest Service and the Department 
of the Interior have raised some issues with regard to specific 
language in the bill. The staff has been working with the 
agencies to address these concerns, and I am hopeful that we 
can work out those concerns within the next few days and 
hopefully that has been accomplished now.
    I certainly appreciate the willingness of the chairman to 
bring these up.
    I have one more comment. I would also like to make a few 
comments on the Finger Lakes bill, seeing the Senator from New 
York is with us, and I appreciate Senator Schumer's willingness 
to take this bill through the proper committee process.
    In general, I want to reiterate my sensitivity of issues 
that affect an individual State when both Senators from that 
State support the measures.
    On the other hand, I want to make it clear that what we are 
doing here--and as I have stated many other times, my concern 
about America's lack of energy independence. I have said it 
time and time again. Where are we going to get the energy if 
you are not going to get it from States that want to develop 
the energy, that both Senators from that State support it? We 
have eliminated deep water drilling off Florida. We have 
limited oil and gas development in the Great Lakes. There is 
talk of no further exploration in California.
    If the two Senators from New York do not want oil and gas 
developed in a particular part of their State, that is fine. I 
think we need to be sensitive to their concerns, but by the 
same token, when both Senators from Alaska support oil and gas 
development in our State, I think we deserve the same 
consideration.
    At some point we are going to have to decide that we are 
going to produce energy in this country or we are going to 
continue to increase our dependence on imports. Conservation 
measures aside, we are going to need that energy and my State 
stands ready to make substantial contributions if allowed.
    Mr. Chairman, I would like to introduce Mr. Richard 
Shields, chairman of the Cape Fox Corporation, who is with us 
today. Please stand up, sir. Thank you. And Mr. Carl Marrs, 
president and chairman of the Cook Inlet Region, Inc., from 
Anchorage, in the back.
    Thank you very much.
    Senator Wyden. I thank my colleague.
    Senator Cantwell.

        STATEMENT OF HON. MARIA CANTWELL, U.S. SENATOR 
                        FROM WASHINGTON

    Senator Cantwell. Thank you, Mr. Chairman. Thank you for 
holding this important hearing.
    I too want to join in comments of support of S. 198 dealing 
with the weed management program that would be established here 
at the Federal level. I am a co-sponsor of the bill and I thank 
the Senator from Idaho for sponsoring this very important 
legislation.
    I would like to comment on the Thirtymile Fire and the 
other legislation that is on the schedule today. I would be 
more than happy to discuss with the Senator from Idaho the 
particulars of this situation and look forward to his comments 
and input.
    The issue for us in the State of Washington is really that 
the Thirtymile Fire took the lives of four courageous young 
firefighters and that the hardship on those families is still 
fresh in our minds.
    Thankfully, in the State of Washington right now, the 
drought has subsided, and with the precipitation at 90 to 130 
percent of normal throughout the State, we are not in the same 
dangerous situation as other parts of the country.
    So, I believe that the situation that we are seeing in 
Denver now is just another reminder about how dangerous fires 
can be and how dangerous this is to those who are fighting 
those fires, and I think the Federal Government has the 
responsibility to do everything within its power to protect 
these brave men and women who engage in fighting these fires. 
And I think accountability is critically important.
    At Thirtymile Fire last July, things did go wrong and many 
of the Forest Service's most basic guidelines were ignored. In 
the words of the Forest Service's own report on the Thirtymile 
incident, this tragedy could have been prevented.
    We all recognize the courage and commitment of the men and 
women who fight wildland fires and the important work that the 
Forest Service and Department of the Interior do on our behalf. 
We know that firefighting is a dangerous profession, but while 
it is true that firefighting is inherently risky, the loss of 
firefighter lives which could have been prevented is 
unacceptable.
    During the Thirtymile Fire hearing in the subcommittee last 
November, the Forest Service testified that the tragedy at 
Thirtymile resulted not from faulty safety rules, but rather 
the failure to abide by these rules. After all, commanders of 
the Thirtymile Fire ignored all 10 standing fire orders and 10 
of the 18 watch-out situations, the Forest Service's most basic 
safety guidelines.
    The Forest Service agrees that if the standing fire orders 
were followed, firefighters' lives should never be lost. Mr. 
Chairman, as you know, the Senate farm bill required an 
independent investigation when the Forest Service firefighters 
are killed in the line of duty, and we passed that out of the 
Senate, and it ended up being a part of a political 
disagreement on the forestry title of the ag bill.
    I think it is still important that we move forward because 
today the legislation that we are discussing, S. 2471, 
represents really an effort to bring accountability within an 
agency, and accountability to particular instances when loss of 
life occurs. I think the public deserves to know that an 
investigation has been done--and not by an agency that is 
investigating itself. Practically every newspaper in the 
Northwest has struggled with trying to understand how it is 
that the Forest Service can investigate itself and then give a 
report, sometimes leaving the public much in the dark.
    We have, Mr. Chairman, asked for much of the redacted 
information from that report on the disciplinary action that 
was taken at Thirtymile Fire and ask that this committee, at 
least, have access to the redacted information so we can 
understand exactly what is going on and this process will 
conclude.
    I think this legislation is important because it contains a 
simple provision for the Department of the Interior, which is 
home to the four Federal agencies that employ wildland fire 
fighters, to have that accountability, which I think is very 
important.
    Congress frequently mandates that the Inspector General 
pursue specific investigations. Often we do this on an annual 
basis with specific deadlines. For example, Congress has asked 
the IG of the EPA to conduct an annual audit and report on the 
registration of pesticides. We have required the Department of 
Defense IG to perform investigations of allegations regarding 
retaliatory personnel actions. We have also required the 
Defense IG to conduct no fewer than 10 audits a year to ensure 
our military installations are in compliance with the Armed 
Forces Voting Assistance Program, and we have even asked the IG 
of the Department of State to conduct periodic audits of the 
Department's emergency expenditures, something that is 
submitted to Congress in an annual report.
    In fulfilling these requirements, the IG's office is 
helping Congress meet its constitutional goals and to make sure 
that the responsibilities that we have granted to these 
agencies are fulfilled. So, that is why I think that this is so 
important.
    The need for an independent investigation was reinforced, I 
believe, by an OSHA investigation released in February that 
found that the Forest Service had committed two serious and 
three willful violations of employee safety policy during the 
Thirtymile Fire, even stronger citations than those handed down 
after the 1994 Storm King Fire in which 14 Federal firefighters 
died. It is hard for people in the State of Washington to 
understand how large businesses have to comply with OSHA 
mandates, and yet OSHA reports are given to the Forest Service 
and OSHA has no enforcement authority over the agency.
    I believe the Federal Government must embrace the reform of 
its institutions in a manner that will better help firefighters 
do their jobs safely. This includes an independent 
investigation, instilling accountability within the agencies, 
and improving firefighter management and training.
    Requiring an independent investigation of firefighter 
fatalities, I believe, is a step in the right direction. And it 
will give the public, in critical times when lives are lost, 
the certainty that agencies are not just investigating 
themselves. An Inspector General can give us answers about 
whether the right procedures have been followed and what we can 
do to improve this system.
    I thank the chairman for his time.
    Senator Wyden. I thank my colleague.
    The Senator from New York.

      STATEMENT OF HON. CHARLES E. SCHUMER, U.S. SENATOR 
                         FROM NEW YORK

    Senator Schumer. Thank you and I thank you, Mr. Chairman, 
as well as ranking member Murkowski, for holding this hearing 
on S. 1846, one of the bills being considered, and that is, as 
Senator Murkowski mentioned, legislation introduced by Senator 
Clinton and myself to ban oil and gas drilling in the Finger 
Lakes National Forest.
    First, to just inform people who do not know, the Finger 
Lakes National Forest is located in central New York in one of 
the most beautiful parts of our State, the Finger Lake region. 
It is our only national forest. It is the smallest national 
forest in the country, and it spans about 16,000 acres. That is 
about the size of Manhattan.
    In 1998, two out-of-State firms offered a joint proposal to 
the U.S. Forest Service to lease the land for drilling, and 
subsequently the Forest Service conducted an EIS on the 
proposed drilling plan. And the record of decision, released 
last December, states that no land in the Finger Lakes can be 
offered for oil and gas leasing at this time. Those were their 
words. It was the Bush administration that did that.
    Paul Brewster, who is the Forest Service supervisor up 
there in the Finger Lakes, said the following about the strong 
public input they received during the EIS process. ``Many 
citizens stated that public lands, such as those on the Finger 
Lakes National Forest, are scarce in the region. They point to 
its uniqueness as New York's only national forest and its small 
size, and they feel that the need for oil and gas should not 
outweigh other resource values such as recreation, grazing, 
sustainable timber harvesting, and wildlife. They believe that 
this development would disrupt balance of the uses that had 
previously been struck on this national forest.''
    Mr. Chairman, I have 26 letters addressed to the committee 
expressing the sentiment of the area's residents, not only 
letters from environmental organizations, but some stalwart 
conservative groups like the Seneca Chamber of Commerce and the 
Town of Hector in which part of the forest resides. I ask 
unanimous consent to make those letters part of the record.
    Senator Wyden. Without objection, so ordered.
    Senator Schumer. In addition, just about every elected 
official in the area has come out against drilling in the 
forest, including our Governor, Governor Pataki. This is not 
just the two State Senators. State Senator Nozzolio, a leading 
Republican Senator from the area, and the three Congress 
members who at least as of now represent the area. I do not 
remember what happens in redistricting, but Senators Hinchey, 
Walsh, and Slaughter have expressed opposition, and I would ask 
unanimous consent that their letters be added to the record as 
well.
    So, there is pretty much unanimous view in the area that 
this would be the wrong thing at the wrong time. Unlike ANWR, 
the amount of oil and gas is--it is going to be gas I guess--is 
going to be small. The need for an open space in our beautiful 
State is large. This is our only forest, and to have 130-foot 
rigs drill in the Finger Lakes, whose economy has just come 
back because of tourism, because of wineries, I think would be 
a serious, serious mistake and that is just not my view but the 
view of the overwhelming consensus in the area. In fact, this 
never would have happened had not these two companies said, 
well, we would like to drill, and they were not, as best I 
know, indigenous companies.
    Other consequences that were identified if we drilled in 
the Forest Service statement were soil erosion, contamination 
at or near well sites. The report predicts that construction 
could require several acres of vegetation clearing, including 
tree cutting, and surface waters would be at risk for erosion 
and sedimentation as a result of these activities.
    Our bill, the bill that is here before us--and let me just 
go over the history there. Congress passed a 1-year ban on 
drilling in the Finger Lakes in the energy and water 
appropriations bill last year. That is in effect right now, the 
1-year ban. I remember Senator Murkowski said, do not go for 
the permanent ban. It should go through the committee process. 
And I respected that wish and that is why we are here today. 
Senator Clinton and I have introduced S. 1846 to permanently 
ban drilling in the forest.
    We have also introduced another bill, S. 2450. That is a 
more formal version of S. 1846 because it is drafted under the 
mineral leasing laws, but that went to the Agriculture 
Committee instead of the Energy Committee. So, if we pass this 
bill out of committee, we will amend it to be just like S. 2450 
and it will be then somewhat narrower because some people have 
stated the parts of the bill are too broad.
    The bottom line is I would ask this committee to adhere not 
simply to the wishes of the two Senators, but of virtually the 
entire community in the Finger Lakes National Forest area. If 
you visited the area, you would see how inappropriate it is for 
oil and gas drilling. The amounts estimated are very, very 
small, and I would urge that we adopt this legislation and 
enact a permanent ban.
    Senator Wyden. I thank my colleague.
    We will go to the witnesses.
    I also want to direct the clerk to put in a number of 
statements into the hearing record at this point for S. 2482, 
the legislation that my constituents care about so much.
    We will go right now to our witnesses: Mr. Tom Thompson, 
Deputy Chief of the National Forest System of the Forest 
Service; Mr. David Allen, Alaska Region Director, Fish and 
Wildlife, Department of the Interior; Dr. James Tate, Science 
Advisor to the Secretary of the Department of the Interior; and 
Mr. Bob Anderson, Deputy Assistant Director of Minerals, Realty 
and Resource Protection of the Bureau of Land Management. If 
you four will come forward.
    Senator Murkowski. Mr. Chairman, I wonder if in your good 
graces--I have got a markup in Finance at 3:15. If the 
witnesses could comment on the two Alaska bills, I would 
particularly appreciate it, if it would be workable.
    Senator Wyden. All right. Would it be helpful to you, 
Frank, to begin with Mr. David Allen? Would that be helpful as 
well?
    We are going to keep our witnesses to 5 minutes each, and 
let us see if we can get the Alaska bills covered before 
Senator Murkowski has to leave. Mr. Thompson, why do you not 
begin?

   STATEMENT OF TOM THOMPSON, DEPUTY CHIEF, NATIONAL FOREST 
       SYSTEM, FOREST SERVICE, DEPARTMENT OF AGRICULTURE

    Mr. Thompson. Mr. Chairman and members of the subcommittee, 
thank you for this opportunity to appear before you today. I am 
Tom Thompson, Deputy Chief of the National Forest System, USDA 
Forest Service.
    I am here to provide the Department's views on four bills: 
S. 1846, S. 2222, S. 1879, and S. 2471. I will summarize my 
comments if that would be acceptable.
    First, S. 1846, which is to prohibit oil and gas drilling 
on the Finger Lakes National Forest. S. 1846 would prohibit the 
issuance of any Federal permit or lease for oil and gas 
drilling in Finger Lakes National Forest, the State of New 
York. Although the Department does not oppose enactment of S. 
1846, the measure does raise a number of questions for the 
Department. The Department would like to work with the 
committee in more detail to address leasing in times of 
national emergency or in response to unforeseen events. We have 
some questions about valid existing rights and other issues 
with regard to compensatory royalty agreements.
    S. 2222, which is the Cape Fox Land Entitlement Adjustment 
Act of 2002. This bill, as introduced, provides for an 
additional 99 acres of Alaska Native Claims Settlement Act 
selection area for Cape Fox and Sealaska Corporations at Clover 
Passage on Revillagigedo Island. It also requires the Forest 
Service to offer a land exchange and, if accepted by Cape Fox, 
complete that land exchange with Cape Fox and Sealaska. The 
Department of Agriculture could support enactment of S. 2222 
with changes that we have already suggested.
    Recently the Forest Service has been working with sponsors 
of the bill, as well as the Cape Fox and Sealaska Corporations 
to clarify and improve the language. Some areas that we have 
agreed to in concept include an intent to add to the total land 
entitlement acreage available to Cape Fox or Sealaska 
Corporations under ANCSA, that lands be exchanged with equal 
value, that Federal lands conveyed to Cape Fox and Sealaska 
shall be subject to reservation right-of-ways for public 
access, that there be an additional funding mechanism for the 
Secretary of the Interior to conduct required surveys, value 
estimates, and related costs of exchanging the lands.
    We will continue to clarify and seek agreement with both 
Cape Fox and Sealaska Corporations in several areas on 
reservation of rights-of-way for national forest purposes, on 
establishing the value of the trail easement, which the Forest 
Service acquires, a road rehabilitation category that needs to 
be added to section 8, and hazardous materials certification 
language which would be helpful; also, developing of a 
mechanism to guide the exchange in the event that Cape Fox and 
Sealaska lands to be exchanged do not equal the value of the 
other exchanged lands.
    Moving to S. 1879, Russian River Land Act. If enacted, this 
would resolve a longstanding conflict of land selection rights 
and management of public activities at the junction of the 
Russian and Kenai Rivers. The public lands at the junction of 
these rivers were withdrawn from disposal by the Forest Service 
under public land laws and set aside for a specific management 
purpose. This withdrawal created a conflict with historic site 
selection filed by Cook Inlet Region, Incorporated under 
14(h)(1) of the Alaska Native Claims Settlement Act.
    The Forest Service and the Fish and Wildlife Service have 
been working together to address the legal concerns and 
management objectives of all parties. The Department of 
Agriculture supports enactment of S. 1879, if amended, to 
address concerns with the waiver in section 3(b) that could 
exempt activities under the agreement from current law. The 
bill would also ratify the selection agreement, which has 
already been agreed to by the three parties.
    We appreciate the efforts by Senator Murkowski to sponsor 
1879.
    The last bill, S. 2471, which is the independent 
investigation of Federal wildland firefighter fatalities. This 
year's already intense fire season again reminds us of the 
safety of agency employees and the public is one of the highest 
priorities for the Forest Service.
    S. 2471 would require the USDA Inspector General to conduct 
an investigation of any fatality of a firefighter employed by 
the Forest Service that occurs due to wildlife entrapment or 
burnover. In these cases, the Inspector General would be 
required to conduct an investigation in a manner that does not 
rely upon and is completely independent of any investigation 
conducted by the Forest Service. The Inspector General would be 
required to submit to the Department of Agriculture and the 
Congress a report on the investigation.
    The administration did not object to this proposal when 
considered during the farm bill, and we do not object to this 
measure today.
    There is an ongoing need for the Forest Service and the 
Department of the Interior bureaus to conduct investigations of 
accidents, whether fatal or nonfatal, from a programmatic point 
of view. These investigations provide an essential factual 
basis to make improvements or refinements in the delivery or 
our programs. Neither the Forest Service nor the Department 
interprets S. 2417 to preclude these investigations.
    This concludes a summary of my statement, and I would be 
happy to answer any questions that you might have.
    [The prepared statement of Mr. Thompson follows:]
   Prepared Statement of Tom Thompson, Deputy Chief, National Forest 
           System, Forest Service, Department of Agriculture
    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear before you today. I am Tom Thompson, Deputy Chief 
for the National Forest System, USDA Forest Service. I am here today to 
provide the Department's views on four bills: S. 1846, to prohibit oil 
and gas drilling on the Finger Lakes National Forest; S. 2222, to 
resolve certain conveyances and provide for alternative land selections 
under the Alaska Native Claims Settlement Act related to Cape Fox 
Corporation and Sealaska Corporation, and for other purposes; S. 1879, 
to resolve claims of Cook Inlet Region, Inc. to land adjacent to the 
Russian River; and S. 2471, to provide for the independent 
investigation of Federal wildland firefighter fatalities.
s. 1846--to prohibit oil and gas drilling on the finger lakes national 
                                 forest
    S. 1846 would prohibit the issuance of any Federal permit or lease 
for oil or gas drilling in Finger Lakes National Forest in the State of 
New York. Although the Department does not oppose enactment of S. 1846, 
the measure does raise a number of questions for USDA. The Department 
would like to work with the Committee in more detail to address leasing 
in times of national emergency or in response to unforeseen events.
    The December, 2001 revision of the Finger Lakes National Forest 
Land and Resource Management Plan provided that oil and gas resources 
would not be available for leasing. This decision reflected the opinion 
of a vast majority of those responding to the draft revision who were 
strongly against any leasing of federal oil and gas resources on the 
Finger Lakes National Forest. A broad group of elected officials at the 
local, state, and federal levels affirmed these opinions. The Record of 
Decision stated that the Forest Service will not consent to lease 
federal oil and gas resources until new information becomes available 
that would prompt the Forest Service to initiate a new analysis. An 
example of new information would include a change in public attitude 
toward the need to access oil and natural gas under the Finger Lakes 
National Forest. This may be in the form of domestic energy crisis or 
other unforeseen event. It would not include a new request for leasing.
       s. 2222--cape fox land entitlement adjustment act of 2002
    This bill, as introduced, provides for an additional 99 acres of 
Alaska Native Claims Settlement Act (ANCSA) selection area for Cape Fox 
and Sealaska Corporations at Clover Passage, on Revillagigedo Island. 
It also requires the Forest Service to offer a land exchange, and if 
accepted by Cape Fox, complete a land exchange with Cape Fox and 
Sealaska Corporations. The Department of Agriculture could support the 
enactment of S. 2222 with the changes described below.
    Through this land exchange:

  <bullet> Cape Fox Corporation would receive the surface and 
        subsurface of 2,663.9 acres of national forest system (NFS) 
        lands at the Jualin Mine site near Berners Bay, north of 
        Juneau.
  <bullet> Sealaska Corporation would receive the surface and 
        subsurface of NFS lands to equalize values of Sealaska 
        subsurface lands and land interests they convey to the U.S. 
        Sealaska Corporation will select NFS lands of equal value from 
        within a 9,329-acre pool of NFS lands at the Kensington Mine, 
        also near Berners Bay.
  <bullet> The Forest Service would receive lands and land interests of 
        equal value from within: (1) a pool of approximately 3,000 
        acres and a public trail easement offered by Cape Fox (surface) 
        and Sealaska (subsurface) on Revillagigedo Island; (2) 2,506 
        acres of Sealaska split estate subsurface, located at Upper 
        Harris River and Kitkun Bay, on Prince of Wales Island; and (3) 
        2,698 acres of Sealaska subsurface land interests remaining as 
        entitlement from the Haida Land Exchange Acts and the Sealaska/
        Forest Service Split Estate Exchange Agreement of 1991. Cape 
        Fox will chose the lands to be conveyed to the United States 
        from the 3,000-acre pool in (1) above.

    Recently, the Forest Service has been working with the Committee as 
well as the Cape Fox and Sealaska Corporations to clarify and improve 
S. 2222 language. Some areas we have agreed to in concept include:

  <bullet> there is no intent to add to the total land entitlement 
        acreage available to Cape Fox or Sealaska Corporations under 
        the Alaska Native Claims Settlement Act (ANCSA).
  <bullet> lands to be exchanged will be equal in value.
  <bullet> federal lands conveyed to Cape Fox or Sealaska shall be 
        subject to the reservation of rights-of-ways for public access 
        for the Alaska Department of Transportation and Public 
        Facilities Juneau Access Project.
  <bullet> addition of a funding mechanism for the Secretary of 
        Interior to conduct required surveys, value estimates, and 
        related costs of exchanging lands specified in the Act, etc.

    The Forest Service will continue to clarify and seek agreement with 
both Cape Fox and Sealaska Corporations in five general areas related 
to S. 2222 language as outlined below:

  <bullet> land valuation standards and acceptance process.
  <bullet> time frames for completing land exchanges.
  <bullet> applicability of federal standards for title and hazardous 
        substances certification for exchanged lands.
  <bullet> the advisability of having the Forest service maintain a 
        five hundred foot buffer inland of the marine shoreline in and 
        adjacent to the waters of Berners Bay.
  <bullet> reservation of rights-of-way necessary for public access or 
        other national forest purposes for Federal lands conveyed to 
        Cape Fox or Sealaska.
                    s. 1879--russian river land act
    S. 1879, if enacted, would resolve a long-standing conflict of land 
selection rights and management of public activities at the junction of 
the Russian and Kenai Rivers in Alaska. The public lands at the 
junction of these rivers was withdrawn from disposal by the USDA Forest 
Service under public land laws and set aside for a specific management 
purpose. This withdrawal created a conflict with a historic site 
selection filed by Cook Inlet Region Incorporated (CIRI) under Section 
14(h)(1) of the Alaska Native Claims Settlement Act.
    The USDA Forest Service, U.S. Fish and Wildlife Service worked 
together to address legal concerns and management objectives of all 
parties. On July 26, 2001, the three parties reached agreement (Russian 
River Section 14(h)(1) Selection Agreement) on a solution that would 
fulfill the goals of each party. The Russian River Selection 14(h)(1) 
Selection Agreement provides consensus on the following points:

  <bullet> The public campgrounds, parking lots, and most of the land 
        in the vicinity of the confluence of the Kenai and Russian 
        Rivers remain in federal ownership.
  <bullet> The right of the public to continue fishing remains 
        unchanged from the current status.
  <bullet> The Fish and Wildlife Service will convey to CIRI all 
        archaeological and cultural resources from 502 acres of Refuge 
        lands certified by the Bureau of Indian Affairs.
  <bullet> The Forest Service will convey to CIRI fee title to a 42-
        acre parcel overlooking the confluence of the two rivers, and a 
        second parcel of about 20 acres upstream of where the Sterling 
        Highway crosses the Kenai River. The 20-acre parcel will be 
        subject to Alaska Native Claims Settlement Act (ANCSA) 14(h)(1) 
        provisions, which require protection of the cultural resources. 
        In addition, a 50-foot public easement along the bank of the 
        Kenai River will be reserved and administered by the Forest 
        Service to allow continued public fishing on the parcel.
  <bullet> With these conveyances, CIRI will relinquish all ANCSA 
        14(h)(1) claims in the Sqilantnu Archeological District.
  <bullet> The parties will pursue construction of a public visitor's 
        interpretive center for the shared use of all three parties to 
        be built on the 42-acre parcel to be conveyed to CIRI. The 
        visitor's center would provide for the interpretation of both 
        the natural and cultural resources of the Russian River area. 
        Included in the subject bill is an appropriation for the 
        construction of the proposed visitors center.
  <bullet> In conjunction with the visitor's interpretive center, the 
        parties will pursue the establishment of an archeological 
        research center and repository that will facilitate the 
        management of cultural resources in the area.
  <bullet> CIRI may develop certain visitor-oriented facilities on the 
        42-acre parcel. These facilities may include a lodge, staff 
        housing, restaurant, etc., that would include space for agency 
        personnel as well as CIRI staff.
  <bullet> The parties will enter into a Memorandum of Understanding 
        for the purpose of insuring the significant activities at 
        Russian River are carried out in a cooperative and coordinated 
        manner.
  <bullet> The agreement also authorizes, but does not require, an 
        exchange of land where CIRI would receive Kenai Refuge lands 
        adjacent to the Sterling Highway and/or Funny River Road in 
        return for FWS receiving CIRI lands of equal value near the 
        Killey River that is important brown bear habitat. This would 
        provide additional lands for CIRI development and economic 
        benefit while protecting important habitat and migration routes 
        for the Kenai brown bear.

    The Department of Agriculture supports the enactment of S. 1879 if 
amended to address concerns with the waiver in Section 3(b) that could 
exempt activities under the Agreement from current law. Legislation is 
necessary to provide authority currently lacking to convey the cultural 
resources on the Refuge, convey the two small parcels within the 
Forest, and to adjust refuge and wilderness boundaries in the potential 
exchange. The bill would also ratify the Selection Agreement already 
agreed to by the three parties.
    We appreciate efforts by Senator Murkowski to sponsor S. 1879.
    For this measure as well as S. 2222, the Department supports 
authorization of exchanges through normal public review, including 
title review and disclosure of the fiscal and environmental effects of 
the exchanges, to ensure equal value and full awareness of the 
consequences of the exchanges.
  s. 2471--independent investigation of federal wildland firefighter 
                               fatalities
    This year's already intense fire season reminds us that the safety 
of agency employees and the public is one of the highest priorities for 
the Forest Service.
    S. 2471 would require the USDA Inspector General to conduct an 
investigation of any fatality of a firefighter employed by the Forest 
Service that occurs due to wildfire entrapment or burnover. In these 
cases, the Inspector General would be required to conduct the 
investigation in a manner that does not rely upon and is completely 
independent of any investigation conducted by the USDA Forest Service. 
The Inspector General would then be required to submit to the Secretary 
of Agriculture and Congress a report on the investigation.
    The Administration did not object to this proposal when considered 
during the Farm Bill, and do not object to this measure.
    Currently, every wildland firefighter fatality of a Forest Service 
employee requires a Forest Service investigation by an Accident 
Investigation Team (AIT). The AIT prepares a Factual Report and a 
Management Evaluation Report. The Factual Report identifies the facts 
involved in the accident and develops findings from the investigation. 
The Management Evaluation Report contains an executive summary listing 
the probable causal factors that are broken into: 1) influencing 
factors and 2) significant factors. Recommendations to prevent similar 
accidents are the final products of the Management Evaluation Report. 
The final Factual and Management Evaluation Reports, together with an 
Action Plan, are in turn submitted to the approving official, the Chief 
of the Forest Service.
    There is an ongoing need for the Forest Service and DOI bureaus to 
conduct investigations of accidents, whether fatal or non-fatal, from 
this programmatic point of view. These investigations provide an 
essential, factual basis to make improvements or refinements in the 
delivery of our programs. Neither the Forest Service nor the 
Departments interprets S. 2471 to preclude these investigations.
                               conclusion
    Although the Department does not oppose enactment of S. 1846, the 
Department would like to work with the Committee in more detail to 
address oil and gas leasing in times of national emergency or as a 
result of unforeseen events. The Department of Agriculture supports the 
enactment of S. 2222. USDA also supports enactment of S. 1879 if 
amended to address concerns with Section 3(b). The Department does not 
object to enactment of S. 2471.
    This concludes my testimony. I would be happy to answer any 
questions that you may have.

    Senator Wyden. Very good.
    Dr. Tate.

 STATEMENT OF DR. JAMES TATE, JR., SCIENCE ADVISOR, DEPARTMENT 
                        OF THE INTERIOR

    Dr. Tate. Mr. Chairman and members of the committee, good 
afternoon. I am Jim Tate, Science Advisor to Secretary Gale 
Norton, Department of the Interior.
    We are here to present our testimony on S. 198, the Harmful 
Non-native Weed Control Act of 2002.
    We know that invasive plant species are expensive, but we 
do not know how expensive or how much it will cost to get them 
under control. We know invasive plants are estimated to cost 
more than $20 billion per year in economic damage. When we add 
animals and microorganisms to the cost, it is estimated to cost 
us $100 billion each year.
    We support this legislation, but we recognize that we need 
to identify how it can be funded within the context of a 
balanced budget. The National Invasive Species Council, which 
already exists, co-chaired by the Departments of the Interior, 
Commerce, and Agriculture, provides coordination on invasive 
species issues. We encourage partnership efforts to prevent and 
control invasive species. The council provides a coordinated, 
multi-stakeholder approach to all of our efforts. I would like 
to suggest recognition of the council's important role in the 
management of invasive species be recognized in the bill, S. 
198.
    In addition, S. 198 creates a new advisory committee within 
the Department of the Interior to oversee the allocation of 
funds--I bring to your attention that the Invasive Species 
Advisory Committee already exists within the Invasive Species 
Council--to provide advice to the Invasive Species Council in 
accordance with Executive Order 13112 under which it was 
created. That is administered by the Department of the 
Interior. The advisory committee consists of 32 members with 
critical expertise in invasive species, just exactly what is 
called for in S. 198. We recommend that the existing advisory 
committee be used to make recommendations to the Secretary for 
the allocation of funds rather than establishing a new advisory 
committee.
    The Department recommends that S. 198 include tribal 
governments in all sections of the bill, including those 
relating to coordinated actions and distribution of financial 
assistance. Tribes should be able to participate in projects in 
areas outside of their lands when they choose to participate in 
larger weed management entities, without their funding being 
restricted.
    The Department is concerned about the bill's prohibition on 
funding for control of submerged or floating aquatic noxious 
weeds and animal pests. We think that this operates against 
efforts to initiate an integrated, comprehensive approach to 
the growing threats of invasive species.
    We believe that S. 198 lacks a reporting requirement for 
local weed management entities that would enable the Federal-
State partners to make judgments on success. A concise and 
clear reporting requirement is necessary and it should include 
how the results relate to project selection and project renewal 
processes.
    We find little specific guidance in S. 198 on how funds 
should be allocated to the States or how they in turn are to 
allocate the funds to weed management entities. It is also 
unclear whether these funds can be allocated to Federal 
agencies for coordination activities at the State and local 
levels. We recommend that language be added to the bill that 
establishes requirements for a standard reporting and review 
system that would ensure accountability and improve 
coordination and information exchange among partners.
    Given that invasive species cover Federal as well as State, 
tribal, and private lands, and even across international 
borders, we recommend that language be included that would 
require weed management entities to coordinate and to consult 
with the Federal agencies to provide comprehensive programs 
across all affected lands. This coordinated targeting, based on 
existing capability and resources, will help concentrate 
efforts to make improvement in overall land and water health.
    The Department also has concerns about the budgetary 
implications of the legislation, whether funding for this 
program would come at the expense of Federal control efforts 
and existing programs that currently provide matching funds for 
weed control. This program could involve significant new 
funding obligations that are not now assumed in the President's 
budget.
    Our goal is to ensure that the main provisions of S. 198 
allow for the coordination of existing Federal efforts and 
local control programs so that the bill serves to strengthen 
ongoing programs and support new partnerships.
    We look forward to working with the committee in 
formulating the legislation that best reflects our mutual goal, 
assisting States, tribes, and local entities.
    Mr. Chairman, this concludes my prepared remarks. I am 
happy to answer any questions.
    [The prepared statement of Dr. Tate follows:]
      Prepared Statement of Dr. James Tate, Jr., Science Advisor, 
                       Department of the Interior
    Mr. Chairman, and Members of the Committee, my name is Jim Tate, 
and I am the Science Advisor at the Department of the Interior 
(Department). I thank you for the opportunity to appear before your 
Committee to present the Department's views on S. 198, the Harmful 
Nonnative Weed Control Act of 2000.
    The Department commends Congress for bringing attention to this 
important issue that has significant impacts on both public and private 
landowners and managers across the country. Invasive plant species are 
estimated to cause more than $20 billion per year in economic damage 
and affect millions of acres of private and public lands. In total, 
invasive plants, animals, and microorganisms are estimated to cost the 
US over $100 billion each year. We concur with the basic principles 
embodied in the legislation, specifically the recognition that a 
concerted and coordinated effort by the public and private sectors with 
requisite accountability is critical to the successful prevention, 
control, and management of invasive species. However, we need to 
identify more clearly the possible costs of this proposal and how it 
would be funded within the context of a balanced budget. We view this 
legislation as an important step toward greater engagement between 
federal and non-federal partners to manage the harmful impacts of 
invasive plants species and reduce their spread.
    The Department has identified several areas of concern with S. 198 
where textual changes could clarify the intent of the bill. I will 
outline these areas of concern briefly in this statement. I will also 
address certain concerns that are specific to the three bureaus 
affected by S. 198: the National Park Service (NPS), the U.S. Fish and 
Wildlife Service (FWS), and the Bureau of Land Management (BLM). 
Depending on the range of species that are included in the bill, 
however, the Department's Bureau of Reclamation (BOR) may also have a 
stake in this legislation. We hope to work with the Committee to ensure 
that the bill includes federal agencies as partners in developing 
coordinated efforts to manage invasive species.
    I would also like to mention the National Invasive Species Council 
(Council), which is co-chaired by the Departments of the Interior, 
Commerce and Agriculture. The Council provides coordination on invasive 
species issues, including invasive plants, and encourage partnership 
efforts to prevent and control invasive species. The Council can 
provide assistance with efforts to ensure a coordinated federal/state 
approach, and I encourage recognition of the Council's important role 
in S. 198. Finally, this statement will also touch upon the bureaus' 
programs in the areas of invasive species prevention, management, and 
eradication.
    The Department's first area of concern is the scope of the bill, 
i.e., what is covered by and excluded from the bill, both in terms of 
geography and the types of activities that are eligible for funding. 
Although the bill technically applies to the entire nation, and 
invasive plants are a problem in every state, we think it would 
currently be difficult for most of the eastern and southeastern states 
to develop ``weed management entities'' and compete with western states 
that have existing infrastructures that are likely to qualify.
    The bill also does not provide for participation by Native 
Americans. The Department recommends that S. 198 include Tribal 
governments in all sections of the bill, including those relating to 
coordinated actions and distribution of financial assistance. Tribes 
should also be able to participate in projects in areas outside their 
lands when they chose to participate in a larger weed management 
entity, without their funding being restricted.
    In addition to our concerns about the bill's scope, its prohibition 
on funding for control of submerged or floating aquatic noxious weeds 
and animal pests operates against efforts to initiate a comprehensive 
approach to these growing threats, which through our work on the 
National Invasive Species Council we have found to be the most 
effective approach to dealing with the scourge of invasive species. 
This prohibition could have a dampening effect on key coastal states 
with substantial aquatic invasive species and states with extensive 
surface distribution networks that can become infested with invasive 
aquatic weeds, discouraging them from participating in the program. 
Feral pigs, which disturb large areas of natural vegetation in Hawaii 
and elsewhere, provide an example of an excluded animal pest. The NPS 
wanted to remove invasive plant species in national parks in Hawaii, 
but feral pigs were serving as a mechanism for distributing the seeds 
of some of the invasive plants and disturbing the soil. Without removal 
of the pigs, any program to remove invasive plant species would fail. 
We recommend that the bill allow for funding that maximizes flexibility 
to the states, Tribes, and local entities to take a comprehensive 
approach to controlling all invasive species.
    I also want to highlight the many ongoing, highly successful 
partnership efforts between the public and private sectors to control 
invasive species. One example is the ``Pulling Together Initiative,'' a 
partnership between federal agencies and the National Fish and Wildlife 
Foundation. Since 1997, through cost-sharing efforts, the partners have 
supported more than 219 weed management projects in 33 states and one 
territory.
    The purpose of the ``Pulling Together Initiative'' is similar to 
the intent of this legislation--to encourage the development of weed 
management areas. These projects bring together many stakeholders, 
including federal, state, Tribal, private, and non-governmental 
organizations, to coordinate management of weeds based on an integrated 
pest management approach. Each project funded through ``Pulling 
Together'' must have a minimum 1:1 match of non-federal funds or in-
kind contributions for every dollar of federal funds requested. As a 
result, more than $6.9 million in federal dollars have leveraged more 
than $13.7 million in non-federal contributions. We recommend that 
language be included in this bill that would clarify how this 
legislation would relate to existing federal initiatives to ensure that 
significant, well-established, federal-private partnership efforts will 
continue and flourish.
    The second area of concern relates to the process established by 
the legislation and whether it provides for sufficient accountability, 
consultation, and coordination with federal efforts and quality 
assurances. The bill creates a new advisory committee within the 
Department to oversee the allocation of funds. Currently, the Invasive 
Species Advisory Committee (Advisory Committee) already exists to 
provide advice to the National Invasive Species Council in accordance 
with Executive Order 13112, and is administered by the Department of 
the Interior. The Advisory Committee consists of 32 members with 
critical expertise in many of the same interests in invasive species 
that are called for in S. 198. We recommend that the existing Advisory 
Committee be used to make recommendations to the Secretary for the 
allocation of funds, rather than establishing a new advisory committee.
    S. 198 lacks a reporting requirement for local weed management 
entities that would enable the federal-state partners to make judgments 
on success. A concise and clear reporting requirement is necessary and 
should include how the results relate to the selection and renewal 
process. Moreover, there is little specific guidance in the bill on how 
funds would be allocated to states, or how they, in turn, are to 
allocate the funds to weed management entities. In addition, it is 
unclear whether these funds can be allocated to federal agencies for 
coordination activities at the state and local levels. We recommend 
that language be added to the bill that establishes requirements for a 
standard reporting and review system that would ensure accountability 
and improve coordination and information exchange among federal 
agencies, states, and other participating entities. We also recommend 
the bill be amended to specify which state agencies have the 
responsibility for allocating funds to weed management entities to 
assure consistency from state to state.
    Moreover, except for the allocation of funds by the Secretary to 
states, S. 198 contains no requirement for consultation or coordination 
with federal agencies. Given that invasive species cover federal, as 
well as state, Tribal, and private lands, and may even cross 
international borders, we recommend that language be included that 
would require weed management entities to coordinate and consult with 
federal agencies to promote comprehensive invasive species programs 
across all affected lands. This coordinated targeting, based upon 
existing capacity and resources, will help concentrate efforts to make 
a significant improvement in overall land health.
    The Department also has concerns about the budgetary implications 
of the legislation, and whether funding for this program would come at 
the expense of federal control efforts and existing programs that 
provide matching funds for weed control. This program could involve 
significant new funding obligations that are not now assumed in the 
President's Budget. At this point, it is unclear how much funding is 
needed, and we are concerned that this program could impact existing 
agency and multi-agency programs (such as the ``Pulling Together 
Initiative'') that support local and regional weed prevention and 
control projects.
    Finally, our experiences have shown that inclusion of a matching 
funds requirement is critical to the success of such projects because 
it ensures that available federal funds are used only for projects that 
have strong support and financial backing at the regional, state, or 
local levels. Because of this, we do not believe that states should 
utilize other federal dollars as a weed management entity's non-federal 
match. S. 198 currently includes in-kind matching. In order to maximize 
the impact of federal monies available for invasive species control 
programs, we believe it is important that federal funds be used to 
leverage only non-federal funds.
                         national park service
    The principles of coordination, targeted funding, and 
accountability are fundamental aspects of the nonnative invasive 
species management strategy pursued under the NPS's five-year Natural 
Resource Challenge program. In FY 2000, the NPS identified nonnative 
invasive species as a significant component of the threat to the 
natural and cultural heritage preserved in National Park units covering 
over 83 million acres of land across the country.
    As part of the Natural Resource Challenge, a new management 
strategy for controlling harmful nonnative invasive plants, called the 
Exotic Plant Management Team (EPMT), has been implemented. Nine teams 
have been fielded to identify, treat, control, restore, and monitor 
areas of parks found to be infested with harmful exotic plants. These 
nine teams serve 95 parks, comprising 25% of national park units, in 
the Chihuahuan Desert-Shortgrass Prairie, Florida, Hawaii, National 
Capital Region, Northern Great Plains, California, Gulf Coast, Lake 
Mead, and Northern Cascades.
    The success of each EPMT derives from its ability to adapt to local 
conditions and needs. Each team sets work priorities based on a number 
of factors including: severity of threat to high-quality natural areas 
and rare species; extent of targeted infestation; probability of 
successful control and potential for restoration; and opportunities for 
public involvement. In addition, the President's budget for fiscal year 
2003 includes a funding request for seven additional EPMTs. Funding of 
these teams will raise our capacity to control invasive plants at 186 
parks, or approximately 48% of the parks in the National Park System. 
The NPS hopes that S. 198 will improve the teams' work in our park 
units by increasing collaborative efforts between public and private 
adjacent landowners.
    The EPMT of Florida provides an excellent illustration of the 
effectiveness of local partnerships. The Florida EPMT formed a 
partnership with the Upland Invasive Plant Management Program of the 
Florida Department of Environmental Protection and approximately 136 
other groups in the program to control invasive plants. Together they 
fund removal of exotic species in 11 units of the National Park System 
in Florida with the State of Florida matching the NPS contribution 
dollar for dollar.
    The NPS has many successful public and private partners in its 
efforts to control and manage invasive species, including Tribal 
governments. The NPS recognizes that effective management of invasive 
plants must be conducted on a coordinated basis involving all 
stakeholders. However, the authority for Departmental agencies, 
including NPS, to work with cooperating land managers outside the 
Department's boundaries is not clear. We recommend that language be 
included in S. 198 that would provide the federal agencies greater 
flexibility in managing invasive plants in concert with willing 
adjoining landowners where federal lands are threatened by invasions 
from adjoining lands.
    We are also concerned about the lack of definitions for many of the 
terms used in the bill. Without terms being clearly defined, their use 
in the legislation may lead to confusion or disagreements over 
terminology. We note also that the bill as currently drafted permits 
the establishment of a weed management entity solely for the purpose of 
education. We believe that education, while an important part of any 
weed management entity's role, should not be its only objective. 
Moreover, the NPS believes that substantial gains can be made through 
an education campaign at the national level so that individuals can 
learn about what efforts they can undertake to address this problem. We 
look forward to working with the Committee to address these and other 
issues.
                     u.s. fish and wildlife service
    Invasive species are one of the leading threats to fish and 
wildlife, with the potential to degrade entire ecosystems. The FWS is 
working to develop and implement aggressive programs to enhance its 
capability and leadership to respond effectively to present and future 
invasive species problems. The FWS works in cooperation with private 
groups, state agencies, other federal agencies, and other countries to 
combat invasive plant and animal species. National Wildlife Refuges 
(NWR) from Alaska to the Caribbean are affected by this problem. Based 
on national interagency estimates, over 6 million acres of the National 
Wildlife Refuge System are infested with exotic plants alone, 
interfering with crucial wildlife management objectives on over 50% of 
all refuges. Refuge field managers have identified invasive species 
problems as one of the most serious threats affecting the Refuge 
System. Nationwide, the rate of spread of invasive plants is estimated 
to be 5,400 acres per year. The Refuge System has identified over 300 
projects with an estimated cost of $120 million to combat invasive 
species.
    Among the most insidious plant invaders to fish and wildlife 
resources are salt cedar, leafy spurge, whitetop, exotic thistles, 
Brazilian pepper, purple loosestrife, Australian pine, Chinese tallow 
trees, old world climbing fern, and melaleuca. At Loxahatchee Refuge in 
Florida's Everglades, for example, the exotic melaleuca tree and the 
Old World climbing fern have infested thousands of acres of the refuge, 
out-competing native vegetation and effectively eliminating wildlife-
dependent habitat. Sevilleta and Bosque del Apache NWRs in New Mexico 
continually invest large amounts of time and operational funds in 
eradication efforts on the salt cedar. Salt cedar disrupts the 
structure and stability of native plant communities, crowding out 
native plant species, altering existing water regimes, and increasing 
soil salinity.
    In addition, the Refuge System works with private landowners to 
help them restore degraded fish and wildlife habitats on their 
property, which includes the control of invasive plants. Through the 
Partners for Fish and Wildlife Program, which provides financial and 
technical assistance, FWS helps landowners benefit from improved 
productivity of their lands by minimizing the spread of invasive 
species and improving habitat for a variety of fish and wildlife 
species. Activities included prescribed burning, integrated pest 
management techniques, physical removal, fence construction, and 
restoration of native plant communities.
    Unfortunately, the invasive species negatively affecting fish and 
wildlife resources are not solely contained within terrestrial plant 
taxa. Many refuges have significant wetland components, making aquatic 
invasive species, such as phragmites, a serious threat to these 
ecosystems. FWS programs support activities to prevent and control 
highly invasive plants and animal species such as zebra mussels, giant 
salvinia, Caulerpa taxifolia, Chinese mitten crabs, round gobies, 
Norway rats, Asian carp, nutria, Asian swamp eels, feral goats and 
pigs.
    Nutria are an exotic invasive rodent, native to South America, that 
have been introduced in 22 states nationwide, and affect over 1,000,000 
acres of the Refuge System. Among areas with high nutria populations is 
the lower Eastern Shore of Maryland, including Blackwater National 
Wildlife Refuge. Blackwater has lost over 7,000 acres of marsh since 
1933, and the rate of marsh loss has accelerated in recent years to 
approximately 200 acres per year. Although there are many contributing 
factors (e.g., sea level rise, land subsidence), nutria are a catalyst 
of marsh loss due to their habit of foraging on the below-ground 
portions of marsh plants. This activity compromises the integrity of 
the marsh root mat, facilitating erosion and leading to permanent marsh 
loss. In light of the damage caused by nutria, FWS and twenty-two other 
federal, state, and private partners joined forces in 1997 to identify 
appropriate methods for controlling nutria and restoring degraded marsh 
habitat. The Partnership prepared a 3-year pilot program proposal, 
which was subsequently approved by Congress, including authorization 
for the Secretary of the Interior to spend up to $2.9 million over 3 
years beginning in Fiscal Year 2000 (Public Law 105-322).
    The number of invasive species threats to fish and wildlife 
resources continues to increase dramatically. As noted earlier, we 
recommend that S. 198 be amended to increase its scope of coverage to 
include not only invasive terrestrial plant species, but aquatic plants 
as well. We would also recommend that invasive animal species be 
included.
                       bureau of land management
    The BLM recognizes the need for expanding on-the-ground efforts at 
controlling noxious weeds. Since the completion of the BLM's ``Partners 
Against Weeds Strategy Plan,'' the BLM has followed the plan's 
recommendation of expanding cooperative partnerships. We can attribute 
much of the BLM's success in managing invasive species through 
cooperative partnerships with federal, state, and local government 
agencies, private landowners, and industries, especially those regional 
efforts that work across state lines.
    The BLM considers public education the key to winning the war on 
weeds. Accordingly, our Partners Against Weeds Strategy focuses on 
education and outreach. BLM personnel have given over 200 weed slide 
presentations, prepared videos, produced flyers and classroom projects, 
and conducted numerous public weed field trips. The BLM has also 
developed a Weed Awareness Course that is given to each BLM employee. 
In Grand Junction, Colorado, for example, the Field Office Weed 
Coordinator has held classes for public land users at which all of the 
major grazing permittees in that field office have attended. Ranchers 
are now reporting new weed infestations and cooperating to help control 
them on private and BLM lands. As the awareness of invasive plants and 
their impacts accelerates, our efforts with the public also increase.
    Recently, the creation of new Cooperative Weed Management Areas has 
risen significantly. Because the BLM manages over 262 million acres of 
public lands, cooperative weed management efforts are essential, 
primarily in those areas where public lands are intermingled with 
state, private, and other federally-managed lands. Today more than 
ninety percent of the federal, State and private lands in Idaho and 
California are part of Cooperative Weed Management Areas. For example, 
in fiscal year 2001 the BLM treated over 300,000 acres and is involved 
in over 30 weed management areas. That figure has risen annually.
    In FY 2002, the BLM received $7.7 million for weed management, a 
majority of which went to the BLM offices for on-the-ground weed 
efforts including inventory, weed treatments, and monitoring. In states 
with smaller amounts of infested acreage, the BLM focuses funding on 
efforts to provide states with the capability to detect small weed 
infestations in high-risk areas and to treat small infestations before 
they spread. The BLM is also dedicating funding to states with larger 
infestations, focusing efforts on areas not previously inventoried, but 
at risk. In addition, in FY 2002 the BLM provided nearly $457,000 for 
the National Fish and Wildlife Foundation's Pulling Together Initiative 
for comprehensive, on-the-ground weed management, treatment, 
prevention, and control efforts. We are concerned that, as currently 
drafted, S. 198 could impact BLM's future efforts to fund this 
successful, ongoing program.
                               conclusion
    We appreciate the opportunity to appear before this Committee to 
discuss the issue of invasive species. We welcome this legislation as a 
symbol of future commitment to early detection and rapid response to 
mitigate the rampant spread of invasive plants. We, too, have 
recognized the need to work directly with private landowners and state 
and local governments. As such, we applaud the bill's recognition of 
partnerships as key to success across multiple jurisdictions of natural 
resource management.
    Our goal is to ensure that the main provisions of S. 198 allow for 
the coordination of existing federal efforts and local control programs 
so that the bill serves to strengthen ongoing invasive species programs 
and support new partnerships and initiatives. We look forward to 
working with the Committee in formulating legislation that best 
reflects our mutual goal of assisting states, Tribes, and local 
entities to prevent, control, and manage nonnative invasive species 
while recognizing and strengthening existing partnership efforts among 
all stakeholders.
    Mr. Chairman, this concludes my prepared remarks. I am happy to 
answer any questions you or other Committee members might have.

    Senator Wyden. Very good.
    Mr. Allen.

 STATEMENT OF DAVID ALLEN, ALASKA REGIONAL DIRECTOR, U.S. FISH 
            AND WILDLIFE SERVICE, DEPARTMENT OF THE 
                            INTERIOR

    Mr. Allen. Mr. Chairman, members of the committee, I am 
pleased to have the opportunity to testify today on S. 1879, a 
bill to resolve native claims to lands adjacent to the Russian 
River located on the Kenai National Wildlife Refuge and the 
Chugach National Forest. I am David Allen, Regional Director 
for the Fish and Wildlife Service in Alaska, and my oral 
comments will summarize the written testimony provided to this 
committee.
    The Department of the Interior supports S. 1879 if amended 
to address the administration's concern with section 3(b). The 
bill settles all land claims in the vicinity of the confluence 
of the Russian and Kenai Rivers, allows continued public use of 
the area, and protects the area's vast historic and cultural 
resources.
    Cook Inlet Region, Incorporated, or CIRI, an Alaska Native 
Regional corporation, selected nearly 2,000 acres at the 
confluence of the Kenai and Russian Rivers pursuant to section 
14(h)(1) of the Alaska Native Claims Settlement act. CIRI 
valued these lands as existing cemetery sites and historic 
places.
    Concern by the United States over the validity of some of 
the selections was complicated by the recreational use of the 
Russian River area, the most popular sport fishery for salmon 
in Alaska. The issues at Russian River between CIRI and the 
United States have been ongoing for nearly 20 years. Three 
years ago, the parties decided that rather than engage in 
lengthy, expensive litigation, they would negotiate a 
settlement agreement. An agreement was signed in July 2001 that 
provides consensus on the following points.
    The public campgrounds, parking lots, and most of the land 
in the vicinity of the confluence of the Kenai and Russian 
Rivers remain in Federal ownership and control.
    Public access for fishing remains unchanged.
    The Fish and Wildlife Service will convey to CIRI all 
archeological and cultural resources from 502 acres of refuge 
lands certified by the Bureau of Indian Affairs.
    The Forest Service will convey to CIRI fee title to a 42-
acre parcel overlooking the confluence of the two rivers, and a 
second parcel of about 20 acres upstream of where the Sterling 
Highway crosses the Kenai River.
    CIRI will relinquish all ANCSA 14(h)(1) claims in the area.
    On the 42-acre parcel conveyed to CIRI, the parties will 
pursue construction of a shared public visitors interpretive 
center.
    In addition, CIRI may develop certain other visitor-
oriented facilities, such as a lodge and restaurant on the 42-
acre parcel.
    In conjunction with the visitors interpretive center, the 
parties will pursue establishment of an archaeological research 
center and repository that will facilitate the management of 
cultural resources in the area.
    The parties will enter into a Memorandum of Understanding 
for the purpose of ensuring the significant activities at 
Russian River are carried out in a cooperative and coordinated 
manner.
    The agreement also authorizes, but does not require, an 
exchange of land where CIRI would receive Kenai refuge lands 
with economic development potential in return for Fish and 
Wildlife Service receiving lands from CIRI of equal value that 
are important to brown bear habitat. The Kenai brown bear is 
currently designated a species of special concern by the State 
of Alaska.
    Legislation is necessary to provide authority currently 
lacking to convey the cultural resources on the refuge, convey 
the two small parcels within the forest, and to adjust refuge 
and wilderness boundaries in the potential exchange. It would 
also ratify the Agreement selection already signed by the three 
parties.
    The administration is concerned with the waiver in section 
3(b) that could exempt activities under the agreement from 
current law. The administration supports authorization of land 
exchanges through normal public review, including title review 
and disclosure of the fiscal and environmental effects of the 
exchanges, to ensure equal value and full awareness of the 
consequences of the exchanges.
    Finally, the bill includes an authorization of 
appropriation for $13.8 million to the Department of 
Agriculture for the construction of the visitors interpretive 
center and archaeological research center.
    S. 1879, if enacted, would resolve longstanding issues of 
land ownership and land entitlement in the vicinity of the 
Kenai and Russian Rivers by ratifying the Russian River 
Selection Agreement. It would provide for the conveyance of 
land and interests in land to Cook Inlet Region, Incorporated 
for cultural preservation and economic benefit. It would 
provide for continued public use of the most popular salmon 
fishing site in the State of Alaska and continued Federal 
management of the natural resources of the area. We would 
support passage of S. 1879 if amended to address administration 
concerns with section 3(b).
    Mr. Chairman, that concludes my statement. I would be 
pleased to answer any questions.
    [The prepared statement of Mr. Allen follows:]
  Prepared Statement of David Allen, Alaska Region Director, Fish and 
              Wildlife Service, Department of the Interior
    Mr. Chairman and members of the Committee, I am pleased to have the 
opportunity to testify today on S. 1879, a bill to resolve Native 
claims to lands adjacent to the Russian River, located on the Kenai 
National Wildlife Refuge and Chugach National Forest on Alaska's Kenai 
Peninsula. The Department of the Interior supports the enactment of S. 
1879 if amended to address the Administration's concerns with Section 
3(b). The bill settles all land claims in the vicinity of the 
confluence of the Russian and Kenai Rivers, allows continued public use 
of the area, and protects the area's vast historic and cultural 
resources.
                               background
    Over time, the Cook Inlet Region, Inc. an Alaska Native Regional 
Corporation, selected nearly 2000 acres at the confluence of the Kenai 
and Russian Rivers, pursuant to Section 14(h)(1) of the Alaska Native 
Claims Settlement Act. CIRI valued these lands as existing cemetery 
sites and historical places.
    Concern by the United States over the validity of the selections 
was complicated by the recreational use of the Russian River area by 
the public. Each year over 50,000 anglers fish the confluence area, 
primarily for sockeye salmon, and additionally for rainbow trout and 
silver salmon. The economic value to Kenai Peninsula alone is estimated 
at $5.8 million annually, directly attributed to the Russian River 
fishery. It has been a high priority goal to preserve the public's 
access to these fertile fishing grounds.
    The issues at Russian River between CIRI and the United States have 
been ongoing for nearly 20 years. Three years ago the parties decided 
that rather than engage in lengthy, expensive litigation, they would 
negotiate a settlement agreement that provided each party the interest 
it deemed necessary. The Russian River Section 14(h)(1) Selection 
Agreement was signed by the three principals in July 2001. The 
Agreement provides consensus on the following points:

  <bullet> The public campgrounds, parking lots, and most of the land 
        in the vicinity of the confluence of the Kenai and Russian 
        Rivers remain in federal ownership and control.
  <bullet> The right of the public to continue fishing remains 
        unchanged from the current status.
  <bullet> The Fish and Wildlife Service will convey to CIRI all 
        archaeological and cultural resources from 502 acres of Refuge 
        lands certified by the Bureau of Indian Affairs.
  <bullet> The Forest Service will convey to CIRI fee title to a 42-
        acre parcel overlooking the confluence of the two rivers, and a 
        second parcel of about 20 acres upstream of where the Sterling 
        Highway crosses the Kenai River. The 20-acre parcel will be 
        subject to ANCSA Sec. 14(h)(1) provisions which require 
        protection of the cultural resources. In addition, a public 
        easement along the bank of the Kenai River will be reserved and 
        administered by the Forest Service to allow continued public 
        fishing on the parcel.
  <bullet> With these conveyances, CIRI will relinquish all ANCSA 
        Sec. 14(h)(1) claims in the area.
  <bullet> The parties will pursue construction of a public visitor's 
        interpretive center for the shared use of all three parties to 
        be built on the 42-acre parcel to be conveyed to CIRI. The 
        visitor's center would provide for interpretation of both the 
        natural and cultural resources of the Russian River area. 
        Included in the subject bill is an appropriation for 
        construction of the proposed visitor center.
  <bullet> In conjunction with the visitor's interpretive center, the 
        parties will pursue establishment of an archaeological research 
        center and repository that will facilitate the management of 
        the cultural resources in the area.
  <bullet> CIRI may develop certain visitor-oriented facilities on the 
        42-acre parcel. These facilities may include a lodge, staff 
        housing, restaurant, etc., which would include space for agency 
        personnel as well as CIRI staff.
  <bullet> The parties will enter into a Memorandum of Understanding 
        for the purpose of insuring the significant activities at 
        Russian River are carried out in a cooperative and coordinated 
        manner.
  <bullet> The agreement also authorizes, but does not require, an 
        exchange of land where CIRI would receive Kenai Refuge lands 
        adjacent to the Sterling Highway and/or Funny River Road in 
        return for FWS receiving CIRI lands of equal value near the 
        Killey River which are important brown bear habitat. This would 
        provide additional lands for CIRI development and economic 
        benefit while protecting important habitat and migration routes 
        for the Kenai brown bear which has been designated by the State 
        of Alaska as a species of special concern.

    Legislation is necessary to provide authority currently lacking to 
convey the cultural resources on the Refuge, convey the two small 
parcels within the Forest, and to adjust refuge and wilderness 
boundaries in the potential exchange. It would also ratify the 
Selection Agreement already agreed to by the three parties. The 
Administration is concerned with the waiver in section 3(b) that could 
exempt activities under the Agreement from current law. The 
Administration supports authorization of exchanges through normal 
public review, including title review and disclosure of the fiscal and 
environmental effects of the exchanges, to ensure equal value and full 
awareness of the consequences of the exchanges.
    Finally, the bill includes an authorization of appropriation for 
$13.8 million to the Department of Agriculture for the construction of 
the visitors interpretive center and archaeological research center.
                        summary and conclusions
    S. 1879, if enacted, would resolve long standing issues of land 
ownership and land entitlement at one of the most popular public 
recreation locations in Alaska. It would provide for the conveyance of 
land and interests in land to Cook Inlet Region, Inc., an Alaska Native 
Regional Corporation for cultural preservation and economic benefit. It 
would provide for continued public use of the most popular salmon 
fishing site in the State of Alaska, and continued federal management 
of the natural resources of the area. It would ratify the provisions of 
the Russian River Selection Agreement which provides mutual benefits 
for Alaska Natives, the general public and agencies of the United 
States. We would support passage of S. 1879 if amended to address 
Administration concerns with Section 3(b).
    Mr. Chairman, this concludes my prepared statement. I would be 
pleased to answer any questions that you or the other members may have.

    Senator Wyden. Very good.
    Mr. Anderson.

STATEMENT OF BOB ANDERSON, DEPUTY ASSISTANT DIRECTOR, MINERALS, 
                REALTY AND RESOURCE PROTECTION, 
         BUREAU OF LAND MANAGEMENT, DEPARTMENT OF THE 
                            INTERIOR

    Mr. Anderson. Mr. Chairman, members of the subcommittee, 
thank you for the opportunity to discuss S. 2482, a bill to 
direct the Secretary of the Interior to grant to Deschutes and 
Crook Counties in the State of Oregon a right-of-way to West 
Butte Road.
    We have provided each of you with a new map dated June 1 of 
the West Butte Road area for your information, and it looks 
like this. The one referenced in your S. 2482 is no longer used 
by BLM.
    The Department supports the goals of S. 2482 to grant the 
right-of-way to the Oregon counties, but we would like to work 
with the chairman and the subcommittee on amendments to the 
bill to provide a process that would include community 
involvement in addressing potential issues related to 
recreational users and wildlife concerns.
    In 1968, the State of Oregon designated Highway 27 as a 
State highway, with the understanding that a new route for the 
road would be created. It was recognized that the current 
alignment of Highway 27, the only State highway in Oregon that 
still has unpaved portions, could not be improved for economic 
reasons and physical limitations.
    The BLM's 1989 resource management plan for Prineville 
failed to anticipate issues related to rapidly growing human 
populations in Bend, Redmond, Prineville, and surrounding 
areas. This combination of changing circumstances and new 
information has created a need to revise the existing Upper 
Deschutes Resource Management Plan. And from here on out, I 
would like to refer to that plan as simply the management plan. 
The management plan is currently being prepared to address 
these issues, particularly the need to address transportation 
opportunities including the West Butte Road.
    Recognizing the importance of these issues, the BLM has 
made the management plan a priority and put it on a fast track. 
The transportation analysis component of the management plan 
could begin as early as January 2003 and be completed after the 
record of decision on the management plan is signed in the 
winter of 2004.
    The management plan utilizes a community-based 
collaborative process that helps solve important problems 
facing long-term management of the public lands. Chartered by 
Deschutes Provincial Advisory Committee, issue teams have been 
formed to represent the general public, specific interest 
groups, permit holders, other stakeholders, and relevant 
government agencies, including Crook and Deschutes Counties.
    Associated with the proposed new alignment of State Highway 
27 are a few other important issues under consideration in the 
management planning process. These include off-highway vehicle 
use and important wildlife issues.
    With regard to off-highway vehicle use, the current West 
Butte Road splits the Millican off-highway vehicle recreational 
use area down the middle, and further development of the West 
Butte Road could create safety conflicts and limit recreation 
uses in the area. The Millican off-highway vehicle trail system 
is one of the most popular in the State and represents a 
significant financial investment by the State Off-Highway 
Vehicle Committee.
    Another outstanding concern is the issue of wildlife in the 
West Butte Road corridor. Currently, the West Butte Road falls 
on the fringe of fragile sage grouse habitat and within deer 
winter range. The sage grouse populations have declined in this 
area due to a number of factors, including human disturbances. 
We must consider these potential impacts during our 
deliberations of the proposed realignment of State Highway 27 
and we have already begun to do so.
    Mr. Chairman, the Department of the Interior looks forward 
to working with the subcommittee to help address these issues 
in a way that will meet central Oregon's transportation needs. 
Thank you for the opportunity to offer this testimony and to 
share our few concerns.
    [The prepared statement of Mr. Anderson follows:]
    Prepared Statement of Bob Anderson, Deputy Assistant Director, 
 Minerals, Realty and Resource Protection, Bureau of Land Management, 
                       Department of the Interior
    Mr. Chairman and members of the Subcommittee, thank you for the 
opportunity to appear here today to discuss S. 2482, a bill ``to direct 
the Secretary of the Interior to grant to Deschutes and Crook Counties 
in the State of Oregon a right-of-way to West Butte Road.'' The bill 
also provides for the relinquishment of right-of-way interests in the 
George Millican Road (or ``Old Millican Road'').
    The Department supports the goal of S. 2482, to grant the right-of-
way to the Oregon counties, but we would like to work with the Chairman 
and the Subcommittee on amendments to the bill to provide for a process 
that would include community involvement in addressing issues related 
to conflicts with recreational uses and wildlife concerns in the area.
                               background
    The population of central Oregon has been expanding rapidly, and 
for Crook County, Oregon, one of the integral components to this growth 
is the West Butte Road. The Bureau of Land Management (BLM) constructed 
the West Butte Road in 1968. It is a fairly straight road, 
approximately 14 miles in length that has become the preferred route 
from Four Corners to Highway 20. Crook County has maintained it for 
several years under a cooperative maintenance agreement with the BLM. 
Deschutes County sees this road as a means of relieving some of the 
traffic burden from Highway 97 in the ever-growing Bend and Redmond 
communities.
    In 1968, the State of Oregon designated Highway 27, currently 
located further to the east near Prineville Reservoir, as a State 
Highway with the understanding that a new route for the road would be 
created. It was recognized that the current alignment of Highway 27--
the only State Highway in Oregon that still has unpaved portions--could 
not be improved for economic reasons and physical limitations. Later, 
both State and Federal agencies recognized the natural values of the 
Crook River Canyon, which further reduced the desirability of upgrading 
Highway 27 in its current location. Ultimately, West Butte Road became 
the most likely replacement route for Highway 27.
    The George Millican Road, meanwhile, extends from Prineville to 
Lakeview and was recognized in 1915 by Crook County as a country road. 
The northern segment of the road was converted to a right-of-way in 
1991 and is no longer a concern to the counties. However, the southern 
segment of road from Four Corners south to Highway 20, near the town of 
Millican continues to be an area of concern. The route is a single 
lane, unimproved road that occupies the original 1915 alignment. 
Currently, the BLM has several rights-of-way over this segment of the 
George Millican Road.
                upper deschutes resource management plan
    Over the last three years, the BLM has been working with Crook and 
Deschutes Counties, the Oregon Department of Transportation, and Oregon 
Department of Fish and Wildlife identifying suitable alternatives to 
State Highway 27. One of the more suitable alternative routes that has 
been considered is the combined route known as the Millican and West 
Butte Road.
    The BLM's 1989 Resource Management Plan for Prineville failed to 
anticipate issues related to the rapidly growing human population in 
Bend, Redmond, Prineville, and surrounding areas. This combination of 
changing circumstances and new information has created a need to revise 
the existing Resource Management Plan. The Upper Deschutes Resource 
Management Plan is currently being prepared to address these issues, 
particularly the need to resolve a number of transportation problems 
including the West Butte Road. Recognizing the importance of these 
issues, the BLM has made the Upper Deschutes Resource Management Plan a 
priority and put it on a fast track, with a final Record of Decision 
planned for the Winter of 2004.
    Through this process we have agreed to consider and analyze 
alternative corridors to determine the route that would be most 
suitable for future use as a State Highway. Following completion of the 
Upper Deschutes Resource Management Plan, the BLM would be able to 
issue a decision on the right-of-way, and assuming a favorable decision 
for the right-of-way, determine the final alignment of the road, and 
also determine any mitigation measures for road design.
    It is important to note that the Upper Deschutes Resource 
Management Plan provides intensive public and governmental 
collaboration. It utilizes a community-based collaborative process that 
helps solve important problems facing long-term management of the 
public lands within the planning area. It is a process that is 
deliberative and open to all. Accordingly, the BLM is using ``Issue 
Teams'' to focus on specific planning issues. Chartered by the 
Deschutes Provincial Advisory Committee, the Teams are composed of 
representatives of the general public, specific interest groups, permit 
holders, other stakeholders and relevant government agencies, including 
Crook and Deschutes Counties. Team members have been meeting since the 
Fall of 2001 and the majority of their work will involve review of 
public comments on the Draft Environmental Impact Statement for the 
Resource Management Plan near the end of 2002 or the beginning of 2003.
    Finally, the transportation analysis component of the Upper 
Deschutes Resource Management Plan could begin as early as January of 
2003, and be completed after the Record of Decision on the Resource 
Management Plan is signed in the Winter of 2004.
                                s. 2482
    The Department of the Interior supports the goal of S. 2482 
however, the Department believes the legislation would cut short the 
process currently underway to provide for greater community involvement 
in addressing issues related to final location and design of the West 
Butte Road. The Upper Deschutes Resource Management Planning process 
provides an appropriate vehicle for addressing and resolving this 
issue. The bill as currently drafted does not address the important 
issues under consideration in the Upper Deschutes Resource Management 
Planning process.
    With regard to Off-Highway Vehicle recreation use, the current West 
Butte Road splits the Millican Off-Highway Vehicle recreational use 
area down the middle and further development of the West Butte Road 
could create safety conflicts and limit these recreation uses in the 
area. The Millican Off-Highway Vehicle trail system is one of the most 
popular in the state, and represents a significant financial investment 
by the State Off-Highway Vehicle Committee, attracting riders state-
wide. Off-Highway Vehicle use in the BLM's Resource Management Plan is 
an important issue, and the BLM is currently determining, on a broad-
scale, how and where these Off-Highway Vehicle recreational uses will 
continue in the future. There is no provision in the legislation that 
provides for mitigation measures to provide for the safety of Off-
Highway Vehicle users and ensure that the recreation impacts of future 
development of the West Butte Road are minimized.
    Another outstanding concern is the issue of wildlife in the West 
Butte Road corridor. Currently, the West Butte Road falls on the fringe 
of fragile Sage Grouse habitat and within mule deer winter range. The 
Sage Grouse populations have declined in this area due to a number of 
factors, including human disturbances. There are nesting populations 
that currently migrate between the West Butte and the Millican breeding 
areas. S. 2482, as currently written, does not provide for a way to 
address the potential impacts of the development of the West Butte Road 
on the Sage Grouse and mule deer populations.
    Finally, the establishment of a State Highway in the West Butte 
Road corridor may also increase the potential for development of 
private lands that would be more easily accessed by an improved road, 
and these potential future development issues also should be 
considered.
                               conclusion
    Mr Chairman, the Department of the Interior looks forward to 
working with the Subcommittee to help address these issues in a 
meaningful way that will meet Central Oregon's transportation needs. 
Thank you for the opportunity to testify before you today. I would be 
pleased to answer any questions that you or the other members of the 
Subcommittee may have.

    Senator Wyden. All right. Thank you, gentlemen. I have a 
couple of questions and then I want to let Senator Cantwell 
take the lead on her important legislation.
    First, with respect to S. 2482, Mr. Anderson, the bill that 
is so important to rural Oregon, I appreciate you all being for 
the goals of the legislation, but we need to get this passed 
now. This community is really hurting. They have just been 
flattened in terms of their economic situation. You are talking 
about community involvement. They have been at this for 30 
years trying to get this issue resolved.
    You mentioned the environmental issues. I do not take a 
back seat to anybody in terms of environmental issues. We have 
not picked up any evidence of any environmental opposition 
whatsoever with respect to this legislation.
    Can we count on a commitment from you all to work with us? 
This is myself, Senator Smith, Congressman Walden. The entire 
community in these two rural counties is out en masse for this 
legislation. This is priority business both in terms of the 
economy and the environment because it will help to divert some 
highway traffic. Can we count on you all to work with us so we 
can get these issues resolved and move this ahead?
    Mr. Anderson. Absolutely, Senator. We would be happy to 
work very closely with you. I think we have been working with 
the special groups, or the issue teams, right along.
    Senator Wyden. You all have. We have just got to get this 
done because we cannot let this go for another 4 or 6 years.
    A question for you, Mr. Tate. I think you heard both 
Senator Craig and I talk about this non-native weeds issue. 
Literally these are essentially gobbling up the West. They are 
really taking a huge toll on Western life. Is it your position 
that the administration has existing authority to address the 
problem?
    Dr. Tate. We have some authorities. Some of the 
inefficiencies that you observed earlier are created by 
different authorities that we have, for example, the Fish and 
Wildlife Service looking at endangered species, BLM, and 
perhaps our associates from the Forest Service looking at 
multiple use objectives and different authorities. But S. 198 
would increase our ability to coordinate and continue to do 
that coordination.
    I would like to suggest that one very strong step forward 
has been the establishment of the Invasive Species Council, a 
multi-agency group that does coordinate and can give us greater 
efficiencies in coordinating the noxious weed effort.
    Senator Wyden. On the budget issue, you all expressed 
concern that this is going to be a drain on resources. I do not 
think this country and especially the West can afford not to 
make these investments. In other words, certainly there are 
going to be some costs, but the costs are going to be far 
greater both to the environment and to these communities if we 
do not make these investments. Do you feel otherwise?
    Dr. Tate. I do not feel otherwise. I agree with you 
entirely. The costs are enormous. I am not sure that we have 
properly evaluated them. They may be greater than we think.
    What we are doing is the Department of the Interior started 
this year spearheading, with our coordinating partners at the 
Invasive Species Council, a budget crosscut. That activity 
based costing will reveal to us where we are achieving 
efficiencies in what we are spending on invasive weeds at this 
moment, where we can achieve better opportunities, and where we 
see programs that are not effective, we can eliminate them and 
replace them with something that works.
    Senator Wyden. The last question deals with you, Mr. 
Thompson, with respect to S. 1846, the oil and gas leasing 
legislation. I think the reason for my question here is that it 
seems to me that you all are calling for a change that really 
could be a national precedent, and I want to make sure I 
understand exactly what is at issue here.
    You are saying that you believe that the Schumer-Clinton 
legislation ought to be amended to give your agency the 
authority to lease the area in times of national emergency or 
in response to unforeseen events. It seems to me that what you 
all are advocating--and I think this really does have 
ramifications of a national precedent--is, in effect, what has 
traditionally been a power for Congress to deal with is a power 
that you would like to see transferred back to the executive 
branch. There are millions of acres of Federal lands withdrawn 
from oil and gas leasing or for other uses for a variety of 
reasons across the country. I guess I would like to know, are 
you proposing that Congress grant this authority for other 
lands or just this land, and how would you describe the 
precedent that seems to be being set here?
    Mr. Thompson. Mr. Chairman, what I was describing was the 
difference between the existing decision that has been made by 
the forest supervisor on the Finger Lakes National Forest and 
this piece of legislation which would basically enact it. As 
far as protection of the Finger Lakes National Forest at this 
point in time from leasing, from consent to lease, that is what 
is in fact in force at this point in time.
    The forest supervisor, when he made that decision, however, 
stated that if certain conditions happened, if the public's 
opinion changed because of a national crisis or whatever, that 
he would reconsider that decision and perhaps allow consent. 
All we are doing is differentiating between this piece of 
legislation and that. He is not trying to say that this is 
asking for any precedent or even asking to amend, but to 
clarify the difference between the two pieces of action.
    Senator Wyden. But historically when those kinds of 
circumstances, the emergencies, the unforeseen events, take 
place, those judgments are made by the Congress of the United 
States and not by forest supervisors or the kind of people that 
you are talking about.
    So, we are anxious to work with you. We are going to be 
working with you on a variety of issues. Just understand that I 
have some concern on this particular point because we literally 
do have millions of acres of Federal lands withdrawn in this 
country from oil and gas leasing, and we have got to make sure 
that we are not setting precedents in my view to take power 
away from people who have election certificates to make these 
kind of tough calls.
    The Senator from Idaho.
    Senator Craig. Thank you, Mr. Chairman.
    Senator Murkowski had to step out, so let me ask a couple 
of questions in his behalf. Mr. Allen, I understand there are 
some concession issues involving activities that are currently 
contracted or permitted in the area affected by the bill. And 
we are talking about S. 1879. Are you satisfied that these 
issues have been dealt with satisfactorily with no liability 
exposure to the Government?
    Mr. Allen. Yes, sir, I am.
    Senator Craig. Mr. Thompson, we are talking about S. 2222. 
As part of this legislation, if passed, your agency will have 
the opportunity to get clear title to some 8,000 to 9,000 acres 
where you currently share a split estate with a private 
landowner. Do you consider this a substantial benefit to the 
Forest Service and to the public? If so, please explain why.
    Mr. Thompson. Yes, we would. As with any land exchange, 
there are pros and cons that need to be weighed. In this 
particular case, we would be blocking up land in one place and 
unblocking in another place. But in all, we believe it would be 
a substantial benefit.
    Senator Craig. So, you need to look at the sum of the total 
I guess.
    Mr. Thompson. The sum of the total.
    Senator Craig. I understand that the 500-foot buffer 
around, I believe it is, Berners Bay that the bill would leave 
in public ownership was originally suggested by the Forest 
Service, but now the agency would prefer to have that provision 
removed. If we take that out, does the bill simplify management 
of the Tongass by consolidating public ownership and squaring 
up national forest boundaries?
    Mr. Thompson. If that buffer provision is taken out, it 
would make it easier to manage. A narrow strip is a very 
difficult, one, to locate and, two, to really manage in a 
reasonable way.
    Senator Craig. Thank you. Thank you, Mr. Chairman.
    Senator Wyden. Gentlemen, we thank you and we will excuse 
you at this time.
    Our next panel: Mr. Richard Shields, chairman, Cape Fox 
Corporation; Mr. Glen Secrist, bureau chief, Vegetation 
Management, Idaho Department of Agriculture; Mr. Buck 
Lindekugel--gentlemen, before you leave, I just realized 
Senator Cantwell had one question. Mr. Thompson, I think we are 
going to need to keep you 1 second more. My apologies and my 
apologies to Senator Cantwell. Senator Cantwell has one 
question I know for you, Mr. Thompson. Then we will go to our 
next panel.
    Senator Cantwell.
    Senator Cantwell. Thank you, Mr. Chairman. I appreciate 
that and appreciate your attention to this issue.
    Mr. Thompson, you said in your testimony that on S. 2471 
and similar language that was part of the farm bill, that the 
agency did not object to that legislation, did not oppose that 
legislation.
    Mr. Thompson. I am sorry?
    Senator Cantwell. Your comments in your testimony said you 
did not oppose that legislation.
    Mr. Thompson. Yes.
    Senator Cantwell. Why not?
    Mr. Thompson. Why did we not oppose it?
    Senator Cantwell. Yes.
    Mr. Thompson. For the same reasons that we do not oppose it 
today, and that is that we do not think it affects our 
provisions of administratively investigating accidents as we do 
today. It would be another process but not necessarily one that 
would affect the investigation processes that we undergo today.
    Senator Cantwell. So, does that mean you support it?
    Mr. Thompson. Yes. We basically support the process of 
investigation, and our investigations we think are for the 
purposes of finding ways to improve programs, to improve what 
we can do with the program----
    Senator Cantwell. So, you support the language that is in--
--
    Mr. Thompson. We did not oppose it in the farm bill and we 
do not oppose this legislation.
    Senator Cantwell. So, you support it.
    Mr. Thompson. We do not oppose this legislation.
    Senator Cantwell. Well, a few minutes ago, you said, yes, 
you did. So, I just want to clarify for the record.
    Mr. Thompson. The administration's position is that we do 
not oppose this piece of legislation.
    Senator Cantwell. But you do not support it either. Is that 
what you are saying? I want to get the record correct because a 
few minutes ago you said yes. So, I want to make sure that I am 
understanding where the administration is because I think this 
is an important component for my colleagues who are going to, 
obviously discuss this as it moves through the process. So, not 
opposing it----
    Mr. Thompson. Let me restate our position. We did not 
object to the farm bill.
    Senator Cantwell. I got that.
    Mr. Thompson. And we do not object to this measure.
    Senator Cantwell. So, I am just trying to clarify. Does 
that mean you support this legislation?
    Mr. Thompson. That does not mean that we necessarily 
support it. We have some concerns.
    Senator Cantwell. Okay. What are those concerns?
    Mr. Thompson. The concerns principally are some that have 
already been spoken to and that is the duplication of process, 
that we already have an investigation process. It is gone 
through in a very methodical way. It is, in many cases, an 
interagency process that is not just the Department of 
Agriculture, but also the Department of the Interior. Many 
incidents in our fire program are combined and it is very 
difficult to segment out just the Department of Agriculture as 
an investigative arm. Almost every one of our investigations is 
done with an interagency team. So, to segment it out and have 
it be just the Office of the Inspector General for the 
Department of Agriculture makes it----
    Senator Cantwell. I do not think that is what the 
legislation says. It just says that they will perform an 
additional duty in the case of death.
    Mr. Thompson. I understand that. But that is one of the 
concerns, is duplication.
    Senator Cantwell. It sounds in your explanation that you 
may not support the legislation from what you just said, that 
you have concerns.
    Mr. Thompson. As I said in my testimony, we do not think 
that this legislation precludes us from continuing to do the 
investigations the way we do them for the purposes that we need 
our investigation arm. Therefore, we do not object to this. It 
will not change that process that we undertake.
    Senator Cantwell. Do you think in the case of death, in 
these instances of--basically in the private sector, OSHA 
violations would definitely come into play here on health and 
safety violations. Do you think that the Forest Service could 
benefit from having someone, as an inspector general, that is 
part of the larger umbrella agency, obviously, that oversees 
the Forest Service, having an independent look at something as 
critical as the loss of life?
    Mr. Thompson. Well, obviously, we are extremely concerned 
about doing quality investigations, doing them in a timely way. 
We are criticized for not doing them faster. We are also 
criticized for not taking longer to do them. We try to do them 
with full attention to all the factors. I believe that 
certainly having an outside look and having more than one body 
look at an investigation is important. Our process today has an 
investigation team. We have a management review board and we 
also have either a board of inquiry or an administrative review 
that follows up. In the process of Thirtymile, for example, we 
asked OSHA to participate in the review. They declined and did 
their own. And that was fine.
    Senator Cantwell. So, independent is an important element 
to this.
    Mr. Thompson. It works and certainly in the case of 
Thirtymile, I think the conclusions that were found were 
verified from report to report, and the looks that were taken 
came up with basically the same findings. And the actions that 
were taken are the result of that, and the action plan that we 
are working on.
    Senator Cantwell. Well, I will look forward to working with 
the agency on this and hopefully getting that position into a 
clear position of support of the legislation. Thank you, Mr. 
Thompson.
    Mr. Thompson. Thank you.
    Senator Cantwell. Thank you, Mr. Chairman.
    Senator Wyden. Thank you.
    All right. In addition to Mr. Shields and Mr. Secrist, let 
us have Mr. Buck Lindekugel and Mr. Carl Marrs and Mr. Scott 
Klundt.
    We welcome all of you. We are going to make your prepared 
statements a part of our hearing record in its entirety, and if 
you could just summarize your principal concerns, that would be 
very helpful. We will put your whole statement into the record 
so you do not have to read it, and it will be made a complete 
part of the record. Mr. Shields, would you like to begin?

 STATEMENT OF RICHARD SHIELDS, CHAIRMAN, CAPE FOX CORPORATION, 
 KETCHIKAN, AK, ACCOMPANIED BY PETER GIGANTE, CHIEF EXECUTIVE 
                 OFFICER, CAPE FOX CORPORATION

    Mr. Shields. Yes, thank you. Mr. Chairman and members of 
the committee, my name is Richard Shields, and I am the 
chairman of the Cape Fox Corporation Board of Directors. Let me 
begin by expressing the appreciation of the Cape Fox 
Corporation to Senator Murkowski for his support and 
introduction of this bill and to the committee for being 
invited to testify. Frankly, I never thought we would be seeing 
this day.
    As you know, Mr. Chairman, Cape Fox is a corporation formed 
for the Village of Saxman located near Ketchikan, Alaska. 
Unlike other Alaska Native corporations, however, Cape Fox 
faces unique legal and geographic challenges that have 
substantially impaired our economic success. The most 
significant and most difficult for us to understand is the 
unique restriction under section 22(l) of ANCSA that prohibits 
Cape Fox from selecting lands within a 6-mile boundary of the 
home rule city of Ketchikan.
    All other ANCSA village corporations located near first 
class or home rule cities were restricted to a 2-mile 
limitation. The effect of the unique 6-mile limit was that Cape 
Fox could not select any lands, even in the vicinity of its own 
Village of Saxman, and was excluded from all but a mountainous 
160-acre corner of its core township.
    To make things worse, some of the best land located outside 
the 6-mile limit was part of the Annette Island Indian 
Reservation and, therefore, not available for selection either.
    As a result, Cape Fox was compelled to select many acres of 
marginal timberlands, much of which had already been logged by 
the U.S. Forest Service, and was forced to forego other 
economic opportunities that would otherwise have been available 
to it had it been treated the same as other Alaska Native 
village corporations. For nearly 30 years, Cape Fox Corporation 
has sought legislation and various forms of land exchanges to 
address these problems piecemeal. We have now proposed a 
comprehensive solution, and the legislation before you is the 
first step toward achieving it.
    We have never been certain why the 6-mile limit was imposed 
in the first place, but it put Cape Fox on unequal economic 
footing relative to all other ANCSA village corporations. 
Despite our best efforts, Cape Fox has been unable to overcome 
the disadvantage the law has built into our selection 
opportunities. Last year, an independent appraisal was 
preformed in support of a comprehensive legislative solution to 
our predicament. The appraisal concluded that Cape Fox had lost 
close to $50 million in economic value as a result of this 
artificial limitation.
    In the meantime, we have harvested most of our available 
timber and, at the same time, pursued a policy of diversifying 
our investments against the time when the timber would be gone. 
Recovering the losses suffered as a result of the 6-mile limit 
has become a key to Cape Fox's ability to further diversify its 
investments and provide for its long-term capital growth.
    Over the years, we have become sadly accustomed to being 
perceived as an economic enemy of sorts within our surrounding 
community. It is as though any economic enterprise sponsored by 
Cape Fox is perceived as limiting somebody else's economic 
chances. The reality, though, is that we are not anybody's 
enemy. We are, in fact, an economic engine for Ketchikan and 
elsewhere in southeast Alaska.
    Cape Fox is really just a family business, except our 
families have been in southeast Alaska for 10,000 years. Other 
businesses have come and gone in Ketchikan's challenging 
economic environment. When timber harvests were cut back and 
prices declined, the outside timber and pulp processing 
companies closed up shop and left town. Even many family 
businesses that were long established in Ketchikan have been 
closed and their owners have retired to Arizona or some places 
outside of Alaska. But, Mr. Chairman, we have always been there 
and always will be. This is our home and this is our land, and 
for richer or poorer, we are wedded to it.
    Cape Fox has already contributed significantly to the 
diversification of the Ketchikan economy, beginning years ago 
with the construction of our beautiful hotel, the Cape Fox West 
Coast Lodge, which is also the site of the adjacent Ketchikan 
Convention Center. In addition to the timber industry, Cape Fox 
has developed a growing tourism business and has diversified 
holdings with numerous small businesses. Cape Fox is also 
seeking----
    Senator Wyden. Mr. Shields?
    Mr. Shields. Yes.
    Senator Wyden. I am very sorry. You are way over the 5 
minutes. We are going to put your prepared statement into the 
record completely. Are there any other things that you would 
like to say that you think are particularly important?
    Mr. Shields. Just that we would be willing to answer any 
questions. Peter Gigante is here with me, the CEO of Cape Fox, 
and we would like to respond to any questions, if there are 
any.
    [The prepared statements of Mr. Shields and Mr. McNeil 
follow:]
Prepared Statement of Richard Shields, Chairman, Cape Fox Corporation, 
                             Ketchikan, AK
    Mr. Chairman, members of this committee, my name is Richard 
Shields, and I am the chairman of the Cape Fox Corporation Board of 
Directors. Let me begin by expressing the appreciation of Cape Fox 
Corporation to Senator Murkowski for his support and introduction of 
this bill and to the committee for being invited to testify on it. I 
frankly never thought I would see this day. As you know, Mr. Chairman, 
Cape Fox is the corporation formed for the village of Saxman, located 
near Ketchikan, Alaska. Unlike any other Alaska native village 
corporation, however, Cape Fox has faced unique legal and geographic 
challenges that have substantially impaired our economic success. The 
most significant and most difficult for us to understand is the unique 
restriction under section 22(l) of ANCSA that prohibited Cape Fox from 
selecting any lands within six miles from the boundary of the home rule 
city of Ketchikan.
    All other ANCSA village corporations located near first class or 
home rule cities were restricted to a two mile limitation. The effect 
of the unique six mile limit was that Cape Fox could not select any 
lands--even in the vicinity of its own village of Saxman--and was 
excluded from all but a mountainous 160 acre corner of its ``core'' 
township. To make things worse, some of the best land located outside 
the six mile limit was part of the Annette Islands Indian reservation 
and therefore not available for selection either.
    As a result, Cape Fox was compelled to select many acres of 
marginal timber lands, much of which had already been logged by the 
U.S. Forest Service, and was forced to forego other economic 
opportunities that would otherwise have been available to it had it 
been treated the same as other Alaska native village corporations. For 
nearly thirty years, Cape Fox Corporation has sought legislation and 
various forms of land exchanges to address these problems piecemeal. We 
have now proposed a comprehensive solution, and the legislation before 
you is the first step toward achieving it.
    We have never been certain why the six mile limit was imposed in 
the first place, but it put cape fox on unequal economic footing 
relative to all the other ANCSA village corporations, and despite our 
best efforts, Cape Fox has been unable to overcome the disadvantage the 
law built into our selection opportunities. Last year, an independent 
appraisal was performed in support of a comprehensive legislative 
solution to our predicament. The appraisal concluded that Cape Fox had 
lost close to fifty million dollars in economic value as a result of 
this artificial limitation. In the meantime, we have harvested most of 
our available timber and at the same time pursued a policy of 
diversifying our investments against the time when the timber would be 
gone. Recovering the losses suffered as a result of the six mile limit 
has become a key to Cape Fox's ability to further diversify its 
investments and provide for its long term capital growth.
    Over the years, we have become sadly accustomed to being perceived 
as an economic ``enemy'' of sorts within our surrounding community. It 
is as though any economic enterprise sponsored by Cape Fox is perceived 
as limiting somebody else's economic chances. The reality, though, is 
that we are not anybody's enemy. We are, in fact, an economic engine 
for Ketchikan and elsewhere in southeast Alaska.
    Cape Fox is really just a family business, except our families have 
been in southeast Alaska for ten thousand years. Other businesses have 
come and gone in Ketchikan's challenging economic environment. When 
timber harvests were cut back and prices declined, the outside timber 
and pulp processing companies closed up shop and left town. Even many 
family businesses that were long established in Ketchikan have been 
sold and their owners have retired to Arizona or someplace else outside 
Alaska. But, Mr. Chairman, we have always been there and we always will 
be. This is our home and this is our land, and for richer or poorer we 
are wedded to it.
    Cape Fox has already contributed significantly to the 
diversification of the Ketchikan economy, beginning years ago with the 
construction of our beautiful hotel, the Cape Fox west coast lodge, 
which is also the site of the adjacent Ketchikan convention center. In 
addition to its timber enterprises, Cape Fox has developed a growing 
tourism business and has diversified its holdings with numerous small 
businesses. Cape Fox is also seeking to attract industrial investment 
to the area, utilizing power and water resources that are competitive 
in cost relative to alternatives outside Alaska.
    The legislation before you will further enable Cape Fox to make the 
transition from its continued dependence on timber harvest to a more 
diversified portfolio of income-producing lands. It will provide Cape 
Fox with a modest participation in the mining support economy being 
developed at the Kensington mine near Juneau. It will also serve to 
eliminate some unproductive land from Cape Fox's selections and enable 
Cape Fox to select more attractive land elsewhere.
    Separate from this legislation, Cape Fox is also seeking an 
appropriation which represents at least partial compensation for the 
real economic loss Cape Fox has suffered from the six mile limitation. 
While we hope for additional compensation in the future, this 
appropriation will enable Cape Fox to restructure its financial house 
by creating a settlement trust from which stable dividends to our 
shareholders can be paid. Simultaneously we will pay down our corporate 
debt and position our corporation to further diversify its investments, 
increase its capitalization and provide stable growth and increased 
jobs over the long term.
    In conclusion, Mr. Chairman, the Cape Fox Corporation has been 
trading and conducting business in southeast Alaska in one form or 
another for thousands of years in good times and bad. We will not leave 
our homeland just because the timber harvests and prices are reduced or 
the fish industry declines. We are not the economic enemy that our 
neighbors have sometimes feared, but are really an economic engine that 
can benefit all our Alaskan neighbors. We will always be part of the 
southeast Alaskan community, because we have no place else to go. But 
we would like to be a successful and contributing part of that 
community and of its economy forever.
    This legislation begins to correct an old injustice that has long 
plagued us, but beyond that it will help enable Cape Fox Corporation to 
not only better provide for ourselves, but also to support the 
development, growth, and most importantly, the economic diversity and 
vitality of the greater Alaskan community of which we are a part.
    Thank you again, Mr. Chairman, for the opportunity to testify and 
for your committee's support of our future.
    Peter Gigante, the CEO of Cape Fox Corporation, is also present 
with me here today to assist in responding to comments and/or 
questions. Thank you.
                                 1_____
                                 
 Prepared Statement of Chris E. McNeil, Jr., Chief Executive Officer, 
                          Sealaska Corporation
    Mr. Chairman and members of the Committee: Thank you for the 
opportunity to testify on behalf of Sealaska Corporation regarding 
Senate Bill 2222, the ``Cape Fox Land Entitlement Adjustment Act of 
2002.'' Sealaska is the Regional Native Corporation for Southeast 
Alaska under the Alaska Native Claims Settlement Act (``ANCSA'').
    Sealaska Corporation supports the enactment of S. 2222. The bill 
provides for adjustments to resolve inequities in Cape Fox's 
outstanding land entitlements under ANCSA. The adjustments to Cape Fox 
surface land and selection rights in turn require adjustments 
concerning Sealaska's title and ANCSA conveyance rights to subsurface 
lands underlying the Cape Fox lands and interests. S. 2222 provides for 
these adjustments and also measures to eliminate other areas in which 
Sealaska owns or has conveyance rights to the subsurface beneath 
Tongass National Forest surface lands. These split-estate areas present 
a continuing encumbrance and management problem for the Forest Service. 
The bill resolves the outstanding Cape Fox and related Sealaska 
entitlement issues in a fair manner that furthers the objectives of 
ANCSA, benefits Tongass National Forest management, and otherwise 
serves the public interest.
    The resolution of these issues in S. 2222 incorporates exchanges of 
Cape Fox and Sealaska lands and conveyance rights for equal value lands 
in the Kensington and Jualin mining district area on the Tongass 
National Forest. The transfer to Sealaska and Cape Fox of adjacent 
tracts in this area as provided in the bill will eliminate from the 
national forest lands that are already heavily encumbered with 
unpatented mining claims. This is an area that is already zoned under 
the Forest Plan for mining development. This area surrounds patented 
claim, private land inholdings.
    The simplification of national forest boundaries and management 
that will be achieved through the exchanges are of substantial benefit 
to Tongass management and the public. The exchanges will not have any 
significant effects on Forest resources, uses, or values. The exchanges 
do not involve any Bemers Bay LUD II lands. Any mine development in the 
area will remain subject to federal and state environmental protection 
requirements.
    The claim holders are consenting to these exchanges. The ANCSA 
conveyances to Cape Fox and Sealaska in these exchanges will remain 
fully subject to all existing mining claims, State of Alaska selections 
and rights-of-way, and other existing third-parry rights. The exchanges 
will provide Alaska Natives an opportunity to participate with the 
claim holders and gain experience in mine development and related 
enterprises, including potential jobs.
    The Sealaska/Forest Service exchange provided for in S. 2222 also 
allows Sealaska to receive conveyance to a site of historical value to 
Native shareholders in the vicinity of Slate Creek Cove. This site has 
not been eligible for selection and conveyance under Section 14(h)(1) 
of ANSCA because of the presence of mining claims. Once conveyed, 
Sealaska expects to manage this site in cooperation with the claim 
holder similar to other historical sites selected under section 
14(h)(1).
    Sealaska is confident that the parties can expeditiously reach 
agreement regarding the equal value of the particular lands to be 
specified for the exchange, as provided in S. 2222. Sealaska's 
appraiser is already working with Forest Service appraisers towards 
this end. Sealaska and the Forest Service have achieved substantial 
progress already on other elements of the Sealaska/Forest Service land 
exchange provided for in the bill.
    The Sealaska exchange in the bill can be accomplished 
administratively with the Forest Service without the need for 
legislation, as an additional modification of the existing Sealaska/
Forest Service Split Estate Exchange Agreement under Section 17 of the 
Alaska Land Status Technical Corrections Act of 1992, Pub. L. 102-415. 
However, enactment of S. 2222 will facilitate and expedite the 
exchange, and assure that the Sealaska exchange is completed in 
conjunction with the resolution of the Cape Fox entitlement issues 
incorporated in the bill.
    In conclusion, Sealaska supports prompt enactment of S. 2222 into 
law. Sealaska stands ready to actively cooperate with the Secretaries 
of Agriculture and the Interior and with Cape Fox to implement S. 2222 
once enacted.

    Senator Wyden. Very good. We thank you and we know of the 
good work that the tribe is doing, and we are very pleased that 
you could be here.
    We are going to put everybody's statement into the record 
in its entirety. I know it is almost a biological compulsion to 
just read every word that is on the paper, but we would like to 
have some time for questions.
    So, let's go to you, Mr. Secrist, and welcome.

STATEMENT OF GLEN SECRIST, BUREAU CHIEF, VEGETATION MANAGEMENT, 
        IDAHO STATE DEPARTMENT OF AGRICULTURE, BOISE, ID

    Mr. Secrist. Thank you, Mr. Chairman, members of the 
committee, for the opportunity to appear today to speak in 
support of S. 198, the Harmful Non-native Weed Control Act.
    I would be remiss if I did not thank our own Senator Craig 
for the tremendous help which he has provided for us in Idaho 
over these past few years in this struggle in dealing with 
invasive weeds.
    A couple of statistics. Idaho is made up of about 52.9 
million surface acres. Of those 52-plus million acres, 64 
percent is managed by the Federal Government. So, I hope you 
can see that it is important. It is clear that if we are going 
to be successful, then this struggle has to include and involve 
in a big way the Federal Government.
    Of those 52 million acres, we have something over 6 million 
acres that are severely impacted by one of several noxious 
weeds, one of which Senator Craig mentioned earlier, rush 
skeleton weed. This weed, like many, really has the capability 
to transform whole landscapes and we are seeing some of that. 
Yellow star thistle, leafy spurge are tough, tough weeds.
    Back in 1999, we developed a very simple strategy, which I 
hold before you, in a fairly brief, 60-something pages. But the 
centerpiece of that strategic plan was a very simple idea. We 
did not invent it. It has been around a long time, and that was 
the creation of these locally led cooperative weed management 
areas. The language in S. 198 refers to weed management 
entities. This has been a powerful tool in what success we have 
achieved to date. Indeed, this idea of locally led cooperative 
weed management areas we think is a powerful idea and one which 
many States throughout the West, at least, are duplicating.
    The idea is very simple, and that is to bring together land 
managers, landowners in a geographical area, providing them 
with the tools and resources, training, whatever they need to 
accelerate this struggle with noxious weeds.
    I would say one other thing about that and that is in 
regard to Mr. Tate's testimony earlier. These cooperative weed 
management areas do include Federal agency personnel, State 
people, county people, and so on. In fact, some of the chairmen 
of these 30 cooperative weed management areas we have in Idaho 
are, in fact, Federal agency people. So, the Federal agencies 
have been great partners in that. They have been very 
supportive of this effort to organize these 30 cooperative weed 
management areas.
    And I might add they also include counties in eastern 
Washington, western Wyoming, western Montana, and northern 
Utah. So, these are geographical in nature and not necessarily 
following administrative lines.
    The message of this strategic plan was quite simple, and 
that is simply to get organized, get a plan, get going. I am 
here to simply testify to you that the passage of S. 198 and 
funding with it would be a tremendous step forward in our 
ability to deal with some of these weeds that are on the loose 
throughout the West.
    We think that the legislation, as it is currently written, 
is very adequate. I had spoken earlier with one of Senator 
Craig's staff about concern perhaps about the 50 percent 
Federal funding limit. Some of these counties in Idaho, for 
example, Idaho County, Owyhee County are over 95 percent 
federally owned. So, simplistically our thought would be, well, 
if we have a weed problem throughout that county, the Federal 
Government ought to be putting up 90 percent of the resources. 
Now, that may be a bit of an oversimplification, but we think 
there ought to be discretion on the part of the State entities, 
the Governor, and others to modify that percentage to meet that 
situation.
    A couple of other things that I think are worth noting that 
would illustrate our ability to coordinate in Idaho. We have 
entered into an agreement with the U.S. Forest Service. We now 
have an interagency weed coordinator who works with my staff in 
strengthening training these leaders of these 30 cooperative 
weed management areas. That has been a great success and we are 
talking with BLM at present about also expanding that concept 
and basically creating a statewide noxious weed team that would 
help in supporting training these local weed management groups.
    We also have an Idaho Weed Coordinating Committee which 
includes representatives of all the State and Federal agencies, 
tribes as well. The sole purpose of that group, by and large, 
is to try to help implement the strategic plan and to remove 
those reasons for not working together at the local level.
    So, on behalf of the Idaho State Department of Agriculture, 
the Idaho Invasive Species Council, newly organized in Idaho, 
and all Idaho weed fighters I might add, we encourage, we urge 
the passage of S. 198.
    I would stand for any questions.
    [The prepared statement of Mr. Secrist follows:]
     Prepared Statement of Glen Secrist, Bureau Chief, Vegetation 
      Management, Idaho State Department of Agriculture, Boise, ID
    Thank you for the opportunity to testify in support of S. 198 
written by U.S. Senator Larry Craig of Idaho. Senator Craig, in 
partnership with the entire Idaho Delegation, has been a champion in 
the war on weeds in the West and great supporter of our efforts to 
contain the spread of noxious weeds across the lands of Idaho.
    Nearly 6 million of Idaho's 52.9 million acres are overrun with 
destructive weeds costing Idahoans nearly $300 million in out-of pocket 
costs and in lost production and diminishment of such important values 
as wildlife habitat, and watershed protection. Invasive weeds afflict 
all landowners: private, county, state, federal and tribal and all 
types of land: urban areas, forestland, rangeland, wetland and 
agricultural lands.
    Idaho is 64 percent federally owned. The federal government has a 
big stake in the outcome of this war on weeds and must be a major 
player in implementing successful strategies for stopping the spread of 
weeds and in mitigating impacts of lands already infested with these 
robbers.
    While weeds continue to be a huge economic and environmental 
problem we are experiencing some success in mobilizing our resources to 
stem the tide of harmful weeds. With the help and support of local 
officials, the State Legislature, Governor Dirk Kempthorne, Senator 
Craig and the Idaho Delegation and of course landowners, we have set in 
place what we believe to be a most effective mechanism for marshalling 
the limited human, mechanical and fiscal resources available to us. We 
now have over 30 Cooperative Weed Management Areas (CWMA) organized 
encompassing over 90 percent of the land area of Idaho.
    A CWMA is a designated area usually incorporating a watershed or 
common drainage area and led by a Steering Committee appointed by 
County Commissioners. The Steering Committee includes private, state, 
federal, and tribal landowner representatives who work cooperatively to 
develop an integrated weed management plan and then pool their 
collective resources and expertise to implement it. Each year the CWMA 
crafts an annual work plan which allocates the limited resources of the 
CWMA to the highest priority projects. This annual operating plan 
typically addresses public awareness and education, effective weed 
prevention measures, mapping and reconnaissance coupled with early 
eradication of newly discovered weeds, and control measures involving a 
wide array of herbicides, biological controls, cultural and mechanical 
practices, and ultimately restoration of weed infested lands to 
competitive perennial useful vegetation, often native species. During 
2001, ISDA provided over $2 million in cost share grants to the 30 
Idaho CWMA to supplement local resources in implementing their annual 
operating plans.
    Since 1999, the number of CWMAs has grown steadily along with the 
their capability to work cooperatively and effectively. During the 2001 
field season these 30 CWMA accomplished an amazing amount of work, and 
more importantly involved an expanding number of landowners and 
managers. I encourage you to check out the website of the Idaho State 
Department of Agriculture (ISDA at www.agri.state.id.us and see some of 
the many on-the-ground actions that were applied by the Idaho CWMAs.
    With this infrastructure in place we are positioned to greatly 
expand our work if additional funding can be acquired. Current funding 
from all sources is only about one-fourth of what is needed to really 
contain this ecological wildfire. S. 198 if passed into law and fully 
funded would provide critical resources to greatly accelerate on-the-
ground work. I also believe that S. 198 wisely recognizes the power of 
local entities to sustain an effective program in designating local 
``weed management entities'' as the recipient of fund grants that are 
to be made through state agencies like the ISDA. I believe we have 
amply demonstrated that cost share grants made to locally led CWMAs can 
provide an important incentive for landowners to work cooperatively and 
to develop and implement well-coordinated action plans.
    In states like Idaho which have this complex mix of private, state, 
and federal ownership channeling federal funds through state agencies, 
which have statutory responsibility for noxious weed, management makes 
sense. Making local weed management entities the focus for these funds 
will bring stability and bring broad acceptance by all landowners. It 
will also serve as a statement that the federal government will do its 
part in the war on weeds for the 64 percent Idaho which it owns and 
manages.
    On behalf of the Idaho State Department of Agriculture, and all 
Idaho weed fighters, we urge the support, passage, and funding of 
Senate Bill 198.

    Senator Wyden. Very good.
    Mr. Lindekugel.

STATEMENT OF BUCK LINDEKUGEL, CONSERVATION DIRECTOR, SOUTHEAST 
            ALASKA CONSERVATION COUNCIL, JUNEAU, AK

    Mr. Lindekugel. Thank you, Mr. Chairman, Senator Craig. My 
name is Buck Lindekugel and I am the conservation director for 
the Southeast Alaska Conservation Council. Thank you for 
inviting SEACC to come today to testify at this hearing.
    Founded in 1970, SEACC is a grassroots coalition of 
volunteer citizen groups, 18 groups in 14 communities in 
southeast Alaska from Ketchikan in the south to Yakutat up 
north. We are dedicated to preserving the integrity of 
southeast Alaska's unsurpassed natural environment while 
providing for balanced, sustainable use of the region's 
resources.
    SEACC opposes S. 2222 because the proposed exchange of 
nearly 12,000 acres of pristine public lands in the Slate Cove 
area of Berners Bay for private lands will threaten the 
public's access and use of the public lands for hunting, 
fishing, and recreation, frustrates the finality of the Alaska 
Native Claims Settlement Act, and invites additional land 
selection conflicts across Alaska, and fosters the private 
interest of developers of the Kensington gold mine at the 
expense of the broader interest in continued public access and 
use of Berners Bay.
    I brought two displays today. One of them is here. I did 
not want to cover the other chart. I thought Mr. Shields would 
be using it. It is an enlargement of the exhibit 1 that is 
attached to your testimony. For your orientation, the photo is 
pointed north. Slate Cove is in the foreground. In the 
background, the mountain there is Lion's Head Mountain. It is 
culturally significant to the Auk Kwaan, the original settlers 
of Juneau. They consider it a sacred mountain. And underneath 
Lion's Head Mountain, the subsurface area is the focus of the 
mining project, the Kensington gold mine.
    The latest proposal for developing the gold mine calls for 
dumping the mine waste into Slate Lake which is right below the 
yellow marker in the middle of that photograph. One of the 
purposes behind this exchange is to speed up development of 
this gold mine.
    The other display up here, to give you a little more 
perspective, is an aerial photograph of Berners Bay. Outlined 
in yellow are the 46,000 acres that Congress protected in the 
Tongass reform law of 1990 as one of the 12 legislated land use 
designations, or LUD II areas. Congress intended these areas to 
be managed in perpetuity in a wise and prudent manner in order 
to retain their wildland character. Slate Cove is to the west 
or to your left of the Berners Bay LUD II in that photo.
    The proposed bill creates a bad precedent by changing the 
land selection criteria selected by Congress in the Alaska 
Native Claims Settlement Act and invites other land selection 
conflicts across Alaska. The argument that this is needed to 
address the equity of Cape Fox's land selection is 
uncompelling. Cape Fox received the same amount of land as all 
the other native corporations in southeast Alaska, and like 
those corporations, Cape Fox received valuable timberlands 
which was a reason why their overall area of selection was 
reduced. I guess the point is that they got way ahead of some 
of the other corporations that were set up under ANCSA in the 
1972 Act.
    If I could flip this exhibit here over, you will see a map 
of the lands selected by Cape Fox under the settlement act and 
the portions that are to be substituted or exchanged here for 
the pristine wildlands at Berners Bay. The green area on the 
map is the underlying land selected by Cape Fox. The yellow 
areas have been clear cut, and the areas outlined in red are 
the areas that Cape Fox seeks to exchange for the areas over 
here in Berners Bay.
    This chart shows that most of the areas have been clear cut 
and are completely inaccessible from salt water. It is 
impossible, when you compare these two exhibits, to see how a 
value-for-value exchange could be obtained.
    Berners Bay is important to the residents of Juneau and to 
all Americans because of its high hunting, fishing, recreation 
and cultural values. Privatizing public national forest lands 
within Berners Bay would limit public access for such uses and 
harm the bay's important natural and cultural resources.
    The real problems with the Alaska Native Claims Settlement 
Act should be resolved with public input from all concerned, 
respect of all forest users, and maintain the integrity of the 
Tongass National Forest and other Federal lands. We urge the 
committee to stop S. 2222 in its tracks.
    Thank you.
    [The prepared statement of Mr. Lindekugel follows:]
     Prepared Statement of Buck Lindekugel, Conservation Director, 
           Southeast Alaska Conservation Council, Juneau, AK
    My name is Buck Lindekugel and I am the Conservation Director for 
the Southeast Alaska Conservation Council (SEACC). I would like to 
thank the Chairman and the Subcommittee for inviting us to testify. The 
following statement is submitted on behalf of SEACC. SEACC respectfully 
requests that this written statement and accompanying materials be 
entered into the official record of this Subcommittee hearing.
    Founded in 1970, SEACC is a grassroots coalition of 18 volunteer, 
non-profit conservation groups made up of local citizens in 14 
Southeast Alaska communities, from Ketchikan to Yakutat. SEACC's 
individual members include commercial fishermen, Alaskan Natives, small 
timber operators, hunters and guides, and Alaskans from all walks of 
life. SEACC is dedicated to preserving the integrity of Southeast 
Alaska's unsurpassed natural environment while providing for balanced, 
sustainable uses of our region's resources.
    SEACC opposes S. 2222 because the proposed exchange of pristine 
public lands in the Slate Cove area of Berners Bay for clearcut private 
lands is poor policy, creates dangerous precedents, and is contrary to 
the public interest. We oppose S. 2222 because it:

  <bullet> Threatens the public's access and use of these wildlands for 
        hunting, fishing, and recreation, as well as the interests of 
        the Auk Kwaan, the original settlers of the Juneau area, in 
        protecting their ancestral lands;
  <bullet> Frustrates the finality of the Alaska Native Claims 
        Settlement Act (ANSCA) and invites additional land-selection 
        conflicts across Alaska; and,
  <bullet> Facilitates the temporary and illusory benefits from private 
        development of the Kensington Gold Mine at the expense of 
        continued public access and use of Berners Bay's outstanding 
        resources.

    This ill-conceived and shortsighted bill would give Cape Fox 
Corporation and Sealaska Corporation over 2,600 and 9,300 acres, 
respectively, of Tongass National Forest lands area of Berners Bay, 40 
miles north of Juneau. See Exhibit 1.* In exchange, Cape Fox will 
exchange approximately 3,000 acres of its private lands near Ketchikan, 
Alaska that have already been clearcut and will have little if any 
wildlife habitat value for hundreds of years.\1\ Sealaska will exchange 
the subsurface estate underlying the Cape Fox exchange lands, plus the 
subsurface estate it owns underlying certain Tongass National Forest 
lands and the subsurface estate of Tongass National Forest lands 
remaining to be conveyed to it. See S. 2222, Section 6(c). Section 4(a) 
of S. 2222 also authorizes Cape Fox to select approximately 99 acres of 
Tongass National Forest lands outside Cape Fox's current exterior 
selection boundary.
---------------------------------------------------------------------------
    * The exhibits have been retained in committee files.
    \1\ See Alaback, ``A Comparison of Old-Growth Forest Structure in 
the Western Hemlock-Sitka Spruce Forests of Southeast Alaska.'' In: 
Proceedings: Fish and wildlife relationships in old growth forests. 
American Institute of Fishery Research Biologists. p. 220-21 (1984).
---------------------------------------------------------------------------
    Berners Bay is important to residents of Juneau and other Lynn 
Canal residents because of its hunting, fishing, recreation, cultural, 
and spiritual values. Privatizing pristine national forest lands here 
would limit public access to hunting, fishing and cultural resources, 
and harm important environmental resources in the bay.
    Berners Bay is a large inland bay and glacial valley complex, 
located on the mainland north of Juneau. The Berners, Lace, and Antler/
Gilkey Rivers are major anadromous fish streams flowing into the bay. 
They produce four (4) species of salmon along with rainbow, steelhead, 
cutthroat, and Dolly Varden and provide good commercial fishing values 
and sport fishing opportunities. Berners Bay's proximity to Juneau 
makes Berners Bay a very popular boating and recreation destination for 
Juneau residents. The area also provides a high quality moose hunting 
experience and supports healthy populations of wolves, brown bears, and 
black bears.
    S. 2222 would harm these uses because when conveyed to private 
corporate ownership these lands could be clearcut, resold, or otherwise 
developed to support industrial activities in Berners Bay. Native 
corporations in Southeast Alaska have a long history of clearcutting 
lands to maximize revenue with little regard for fish, wildlife, 
recreation, or other public uses. Once privatized, public access would 
be denied to lands now open to the public for fishing, hunting, and 
recreation.\2\
---------------------------------------------------------------------------
    \2\ See Letter from Berland, Lynn Canal Conservation to Senator 
Bingaman (June 14, 2002)(following up on earlier May 9, 2002 letter 
(attached))(Exhibit 2). The photo describe in the May 9th letter is the 
same photo attached to this testimony as Exhibit 1.
---------------------------------------------------------------------------
    The incredible natural values of Berners Bay astound locals and 
visitors alike each year:

          After a long Alaska winter, Berners Bay is an explosion of 
        life in the spring. Every year in late April or early May, 
        millions of hooligan arrive to spawn in the glacial rivers that 
        feed the bay. For a few short weeks, tens of thousands of 
        predators are drawn to the bay to prey on the [sardine sized] 
        oily, nutritious fish.

Woodford, Berners Bay, Juneau Empire, May 26, 2002, at C1 (Exhibit 3; 
also at http://juneauempire.com/stories/index.html). One of these 
predators is the Steller sea lion, endangered in Western Alaska, but 
whose population has remained relatively stable in Southeast Alaska. 
Local scientists have observed up to five hundred sea lions converging 
upon Berners Bay when the hooligan arrive. They theorize, ``that this 
seasonally abundant pulse of high-energy resources may provide the 
energy that is required to successfully give birth and rear young 
Steller sea lions.'' Womble, Steller sights in Southeast, Juneau 
Empire, June 28, 1998 (Exhibit 4). The hooligan also makes Berners Bay 
an important rest and fueling stop for tens of thousand of migratory 
birds each spring. The development of industrial marine facilities 
associated with mining development in Slate Cove, such as shipping 
facilities, with the resulting increase in barge traffic and risk of 
fuel spills in Berners Bay, could threaten these resources.
    Berners Bay, and the surrounding mainland, is the ancestral lands 
of the Auk Kwaan, the first settlers of the Juneau area. The Auk Kwaan 
consider Berners Bay, and the surrounding mainland, both culturally and 
spiritually important. Berners Bay was used by the Auk Kwaan as a 
source of food and Indian medicine. It also contains several old 
village sites, ``and where there were villages there are burial sites.' 
Auk Kwaan Tribal Leader Rosa Miller's Letter to the Editor, Protect 
ancestral lands from Murkowski's bill, Juneau Empire (May 1, 
2002)(Exhibit 5).
    In her June 13, 2002 letter (attached as Exhibit 6) to Peter 
Gigante, CEO of Cape Fox, Rosa Miller chastises Cape Fox Corporation 
for this breach of tradition:

          In the old days, when you traveled to someone else's 
        territory, you could not land your canoe until you got 
        permission from the clan who lived in the area. We've heard 
        absolutely nothing from Cape Fox about your intentions for our 
        lands in Berners Bay.

She goes on to remind Mr. Gigante that:

          Spirit Mountain (also known as Lionshead Mountain) (sic) is 
        sacred to us. Many times I have told the story about how our 
        ancestors are buried there including our Shaman. Shaman spirits 
        dwell in Spirit Mountain; this is a place that is important to 
        the Tlingit of the past, the Tlingit of the present, and the 
        Tlingit of the future. There are also old village sites in this 
        area.

    Miller concludes by stating her hope that ``Cape Fox Corporation, 
will do what is morally and ethically right and help to withdraw this 
harmful bill now.''
    When it passed the Tongass Reform Law in 1990, Congress identified 
46,000 acres of the Berners Bay watershed as one of 12 areas on the 
Tongass to be managed in perpetuity in accordance with Land Use 
Designation II (LUD II) (no commercial logging allowed). This area was 
chosen for special management because of its high value fisheries 
habitat and the fact that it is a very popular recreational destination 
for local residents and visitors to Alaska. Recreational activities 
include kayaking, fishing, camping and hunting. Protection for these 
special values has been recommended and supported by the Alaska 
Department of Fish and Game (ADF&G), Alaska communities, and commercial 
fishermen.\3\ By designating Berners Bay as a Legislated LUD II area, 
Congress directed the Forest Service to manage this area primarily ``in 
a roadless state to retain [its] wildland character.'' This special 
management designation requires that any permitted development, such as 
mining on patented claims, be limited in scope to be compatible with 
the area's wildland character. As noted by House Floor Manager, 
Congressman George Miller, these lands ``will require careful and 
prudent management by the Forest Service.'' \4\
---------------------------------------------------------------------------
    \3\ In 1983, ADF&G recommended that this area be ``reserve[d] 
permanently for protection of fish and wildlife.'' From 1987 to 1989, 
the communities of Juneau, Wrangell, Petersburg and Sitka supported 
protection of Berners Bay. In 1988, United Fishermen of Alaska included 
Berners Bay in a list of ``priority fish habitat areas deserving 
protection.''
    \4\ 136 CONG. REC. H12834 (Oct. 26, 1990 daily ed.)(Comments 
explaining what kind of management was required for Berners Bay and the 
other eleven designated LUD II's in the Tongass Reform Law).
---------------------------------------------------------------------------
    Although the lands proposed for exchange in the Slate Cove area 
within Berners Bay are outside the area designated by Congress as a 
Legislated LUD II area, the exchange lands are immediately adjacent to 
and inextricably connected to the ecology of this entire productive 
watershed.\5\ If this exchange is approved, the Forest Service will 
lack any control or influence over how this bloc of private lands 
directly adjacent to Congressionally designated wildlands is developed. 
The Forest Service has stated:
---------------------------------------------------------------------------
    \5\ The Alaska Department of Fish and Game has identified Slate 
Creek as important for the migration, spawning and rearing of 
anadromous fish. See Email from Schrader, ADF&G to Brown, SEACC (June 
14, 2002)(attached as Exhibit 7). Although no salmon are in Slate Lake, 
``resident Dolly Varden trout are present throughout the creek and in 
Slate Lake.'' Id.

          As acknowledged in the [Cascade Point Access Road 
        Environmental Impact Statement], the Forest Service has no 
        jurisdiction over private lands . . . and Forest Service policy 
        is to avoid regulation of private lands and to recognize the 
        rights of private land owners to reasonable access to and use 
---------------------------------------------------------------------------
        of their property . . . .

    USFS, Region 10, Recommendation of Appeal Deciding Officer on 
Appeals of the Cascade Point Access Road Project at 4 (Mar. 31, 
1999)(emphasis added).\6\
---------------------------------------------------------------------------
    \6\ The Cascade Point Access Road project refers to the 1998 
approval by the Forest Service of a road easement to Goldbelt, Inc., 
the Juneau urban Native corporation, to access its property at Cascade 
Point just south of Berners Bay. SEACC appealed this decision to the 
Forest Service because the agency had narrowed improperly the scope of 
the project and refused to consider the cumulative and synergistic 
effects of existing, presently proposed, or recently approved 
development projects on the fish, wildlife, and wildland values of 
Berners Bay.
---------------------------------------------------------------------------
    ANSCA Did Not Treat Cape Fox Unfairly. S. 2222 Would Frustrate The 
Finality Of ANSCA And Invite Additional Land-Selection Conflicts Across 
Alaska.
    S. 2222 waives ANCSA's land selection requirements, inviting 
further land-selection conflicts across Alaska. The bill inaccurately 
suggests that this congressionally-mandated land conveyance is needed 
to address inequities suffered because Congress limited the national 
forest lands from which Cape Fox could make its land selections. See 
148 CONG. REC. S. 3166-67 (April 23, 2002, daily ed.). But the argument 
that ANCSA needs to be modified as proposed in S. 2222 to address the 
equity of ANCSA's land selection criteria thirty (30) years later is 
not compelling.
    To protect the water quality of Ketchikan's watersheds, ANSCA kept 
Cape Fox from selecting lands ``within a six-mile radius of 
Ketchikan.'' See 43 U.S.C. 1621(l). These limitations, however, did not 
place Cape Fox on an unequal economic footing relative to other village 
corporations in Southeast Alaska or other parts of Alaska.
    Cape Fox received the same amount of land as every other Southeast 
village and urban corporation under ANSCA (approximately 23,000 acres). 
Constraints on the selection of lands resulted in some disparities 
between the value of timberlands conveyed to each village and urban 
corporation in Southeast Alaska. However, the economic benefits 
realized per shareholder from logging these lands were divided between 
widely varying numbers of people. Cape Fox Corporation has fewer 
original shareholders (230 shareholders) than all but one other village 
corporation.\7\ Consequently, the direct financial benefit per 
shareholder was higher for Cape Fox than nearly all village 
corporations in Southeast Alaska.\8\
---------------------------------------------------------------------------
    \7\ Only the village of Kasaan had fewer, with 119 shareholders. 
See Knapp, Native Timber Harvests in Southeast Alaska, Table 2 at p. 7, 
USDA Forest Service, PNW-GTR-284 (1992)(Exhibit 8).
    \8\ See ISER, A Study of Five Southeast Alaska Communities, at p. 
94-97 (1994).
---------------------------------------------------------------------------
    Cape Fox, like all Southeast Alaska village and urban corporations, 
is located on the water, and hence all were hindered in varying degrees 
from choosing lands from the full nine townships to which ANSCA gave 
them nominal selection rights. Yet, Cape Fox, and other Southeast 
Alaska village corporations, faired far better economically than did 
most of the other 220 Alaska Native village corporations established by 
ANSCA, because they were able to select high value timberlands. Cape 
Fox fared better, not worse, then other village corporations under 
ANSCA.
    Cape Fox, like other Southeast Alaska village and urban ANSCA 
Corporations, has cut virtually all the timber from the lands it 
selected under ANSCA in roughly 20 years. Clearly, S. 2222 sets the 
precedent that Congress will make additional grants of valuable Tongass 
National Forest lands as recompense for the unsustainable land 
management practices carried out on private lands by Cape Fox and other 
Southeast Alaska ANSCA corporations. Clearly, it would frustrate the 
finality of the ANSCA settlement. See Alaska v. Native Village of 
Venetie Tribal Govt., 522 U.S. 520, 523 (1998)(Congress enacted ANCSA 
``to settle all land claims by Alaska Natives.'')
    Moreover, forcing the Forest Service to convey pristine Tongass 
National Forest lands in exchange for stumps on clearcut, private 
corporation lands, as proposed in S. 2222, ignores the balanced 
multiple-use principles that should govern Tongass management. Such a 
legislatively mandated exchange would further deny any American 
citizen, the true owners of the Tongass National Forest, equal access 
to the use and enjoyment of its natural resources. If land exchanges 
are in the public interest, they should be conducted through the Forest 
Service's existing administrative procedures under 36 C.F.R. Part 254.
    In the past, the sponsor of this legislation has passed up 
opportunities to help Cape Fox realize economic benefits from 
developing its own existing lands. An example of such efforts, one that 
SEACC supported, was the development of the Mahoney Lake hydroelectric 
project by Cape Fox. ``[Cape Fox] selected this site under ANSCA 
primarily for its hydroelectric potential.'' See Letter from Gigante, 
Cape Fox CEO to Senator Murkowski, p.2 (Feb. 16, 2001) (Exhibit 9). But 
instead of helping Cape Fox pursue this project, the Alaska Delegation 
worked to stifle this private initiative by promoting other projects 
over the objections of Cape Fox. See Letter from Alaska Delegation to 
Boergers, FERC (Feb. 8, 2001)(Exhibit 10).\9\
---------------------------------------------------------------------------
    \9\ Part of the justification for the letter from the Alaska 
Delegation was recent passage by Congress of Pub. L. 106-511. This 
legislation authorized up to $384,000,000 dollars of taxpayer money to 
construct an industrial power grid across the Tongass National Forest, 
potentially carving rights of way through sensitive Tongass wildlands. 
See SEACC Statement Before the Senate Energy and Natural Resource 
Committee on 5.2439, the Southeast Alaska Intertie Authorization Bill 
(May 18, 2000).
---------------------------------------------------------------------------
    S. 2222 Facilitates The Temporary And Illusory Benefits From 
Private Development Of The Kensington Gold Mine At The Expense Of 
Continued Public Access And Use Of Berners Bay's Outstanding Resources.
    The proposed land exchange is directly related to plans by Coeur 
Mining Company to develop and operate the Kensington Gold Mine. See 
Inklebarger, Land swap could help open mine, Juneau Empire (April 26, 
2002)(Exhibit 11). As noted in a press release issued by Senator 
Murkowski's office on April 23, 2002 (Exhibit 12): ``The land to be 
selected near Slate Lakes, north of Berners Bay, will enable the 
proposed Kensington Gold Mine to operate totally on private land, which 
will help speed its development.'' However, the most critical factor 
slowing Coeur's development of this mine is not land ownership, but 
gold prices. See Press Release from Coeur Alaska, Kensington gold 
project moving forward (April 25, 2002)(``Falling gold prices have made 
the approved plan economically infeasible.'')(attached as Exhibit 13). 
Coeur has possessed all the permits and other approvals it needs to 
develop the mine since 1998. This latest proposal is the fourth attempt 
by Coeur to gain agency approval for design of the mine. Coeur believes 
that dumping its mine tailing waste into Slate Lake will reduce its 
waste disposal costs to a level that would presumably make the mine 
profitable to operate given projected gold prices.
    Coeur's latest proposal calls for building a dam in Slate Lake \10\ 
and dumping its mine tailing waste in the lake behind the dam. If the 
building of the dam were approved, Coeur would argue that the waters 
behind the dam are no longer ``waters of the U.S.'' and therefore are 
exempt from the Clean Water Act. It could argue that the impoundment 
behind the dam qualifies as a ``treatment works'' and thus make the 
current prohibition for discharging mine waste into ``waters of the 
U.S.'' inapplicable. If accepted by the Corps of Engineers and the 
Environmental Protection Agency, such an argument would create a new 
precedent for disposal of mine waste into ``waters of the U.S.'' much 
like mountaintop removal has. Such a position will lead to substantial 
legal controversy both inside and outside of Alaska. To further its 
mining development plans, which are expected to last only 15 years from 
start to finish, Coeur Alaska has entered into land-use agreements with 
both Cape Fox and Sealaska Corporations to use the lands proposed for 
conveyance to facilitate its development plans. See Exhibit 13 at 2.
---------------------------------------------------------------------------
    \10\ Although Coeur describes Slate Lake as a ``muskeg lake'', the 
photo in Exhibit 1 to this Statement shows otherwise.
---------------------------------------------------------------------------
    Coeur's latest proposal, which S. 2222 would speed up, is 
inconsistent with managing Berners Bay for the long-term benefit of all 
the public uses that currently exist there. Industrial mine development 
within Berners Bay will harm existing public use of the bay for 
fishing, hunting, and recreation. There are also grave risks associated 
with the proposal. If the dam collapses in the future, nothing would 
stand between the toxic sediments stored behind it and the rich marine 
resources in Berners Bay.
                             other concerns
    S. 2222 completely exempts the lands subject to this exchange from 
the requirement in Forest Service regulations for market value 
appraisals. Compare Section 7(a) of S. 2222 with 36 C.F.R. 254.9.
    In addition, S. 2222 modifies agency exchange procedures by 
mandating the conveyance of lands and interests identified by Cape Fox 
and Sealaska. Existing Forest Service regulations, however, recognize 
that land exchanges are supposed to be discretionary, voluntary real-
estate transactions and completed only if the Forest Service determines 
that the exchange will serve the public interest. Clearly, S. 2222 is a 
poor substitute for the requirements of Forest Service regulations and 
appears more intent on furthering private interests than satisfying the 
broader public interest.
                               conclusion
    Berners Bay is important to residents of Juneau and other Lynn 
Canal residents because of its hunting, fishing, recreation, and 
cultural and spiritual values. Privatizing pristine national forest 
lands here would limit public access to hunting, fishing and cultural 
resources, and harm important environmental resources in the bay.
    Real problems with ANSCA should be solved with public input from 
all concerned Alaskans, respect all forest users, and maintain the 
integrity of the Tongass National Forest and other federal lands. We 
urge the committee to stop S. 2222 in its tracks. Trades, such as 
proposed in S. 2222, should not be mandated by Congress but through 
existing administrative mechanisms, and on the basis that the greater 
public good will be served.

    Senator Wyden. Okay. Let us move next to Mr. Marrs.

STATEMENT OF CARL H. MARRS, PRESIDENT, COOK INLET REGION, INC., 
                         ANCHORAGE, AK

    Mr. Marrs. Thank you, Mr. Chairman and the committee. I am 
here to urge your approval of S. 1879, the Russian River Land 
Act, and I will summarize very quickly the testimony.
    Some 25 years ago, I made the selections as the land 
manager for CIRI, for Cook Inlet Region, in Alaska under ANCSA. 
This particular selection has been a contentious selection from 
the very beginning, mainly because of the impact of sports 
fishing in the confluence of the Russian River and Kenai River 
and the significant historic and cultural values of the 
Kenaitze Indian tribe of the area that date back thousands of 
years. There is a substantial amount of grave sites, house 
pits, and those culturally significant type areas that we are 
trying to protect, at the same time the amount of public 
impact, because this is one of the largest most impacted 
fishing areas in Alaska during the summer season.
    So, our work has been long and, quite surprisingly, I did 
not think I would be sitting in front of this committee 25 
years after the selection doing this. But we did reach 
agreement with the Forest Service and the U.S. Fish and 
Wildlife Service, which I think meets all of our criteria in 
the sense of preserving the cultural resources and maintaining 
those as this legislation so dictates.
    It also, at the same time, continues to manage the intense 
public use of the Russian River area, and we wanted to make 
sure that that burden was not shifted on CIRI.
    I believe that this is a good piece of legislation and I 
think it resolves a multitude of problems for not only the 
public, the U.S. Government, the State government, but also for 
the native people of the area and protects those cultural 
resources. So, therefore, I would urge the committee to approve 
this legislation and move it to the full Senate.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Marrs follows:]
  Prepared Statement of Carl H. Marrs, President, Cook Inlet Region, 
                          Inc., Anchorage, AK
    CIRI appreciates the opportunity to submit written testimony to the 
Senate Energy and Resources Committee today on a matter of importance 
to Cook Inlet Region, Inc. and to urge approval of the S. 1879 titled 
the ``Russian River Land Act.''
    My name is Carl Marrs. I am the President and CEO of Cook Inlet 
Region, Inc., which is often referred to as CIRI. CIRI is an Alaska 
Native Regional Corporation created under the Alaska Native Claims 
Settlement Act of 1971 (ANCSA). CIRI is owned by Alaska Native 
shareholders. I am one of those shareholders. I began my work at CIRI 
in 1972, shortly after the corporation was formed. For much of my 
career at CIRI I have been directly involved in CIRI's land entitlement 
issues.
    Twenty-five years ago I was the Land Manager at CIRI, and as part 
of my duties, I filed CIRI's ANCSA land selections at Russian River on 
the Kenai Peninsula in Alaska. At that time, I had no idea that twenty-
five years later CIRI would still be awaiting land conveyance at 
Russian River. This lack of conveyance has been a source of frustration 
to CIRI in the past, but today I am pleased to report to you that CIRI 
has moved beyond this frustration. We have moved beyond the simple, but 
justified request of outright conveyance at Russian River. CIRI now 
wishes to embark on a collaborative approach to management of the area 
with the two current federal land managing agencies.
    This collaborative approach is embodied in an agreement between 
CIRI, the Fish and Wildlife Service and the Forest Service that was 
entered into on July 26, 2001 and is titled the ``Russian River Section 
14(h)(1) Selection Agreement''. This agreement reflects three years of 
negotiations between the parties. Because certain terms contained in 
the agreement require new authority to implement, the settlement is not 
effective without ratifying legislation. S. 1879 ratifies the agreement 
reached between CIRI, the U.S. Forest Service and the U.S. Fish and 
Wildlife Service and settles the land ownership issue at Russian River 
in a way that fulfills CIRI's entitlement and protects the public's 
interest.
    Why did it take over three years to negotiate this settlement 
agreement? Why was conveyance to CIRI not easily forthcoming in the 
first place? Simply put, the area is so important to both CIRI and the 
federal agencies involved that compromise was difficult to obtain. The 
area surrounding the confluence of the Kenai and Russian Rivers is rich 
in archeological features reflecting intense Alaska Native use of the 
area--perhaps going back ten thousand years. In fact, many CIRI 
shareholders are descendents of the Outer Inlet Dena'ina who occupied 
the Russian River area in earlier times. CIRI believes it is precisely 
this kind of site that was contemplated as being available for 
selection by Alaska Native Regional Corporations under ANCSA.
    The federal agencies, representing the public, also feel strongly 
about the Russian River area because it is the site of perhaps the most 
heavily used public sports fishery in Alaska today. Because of the 
intense public use and scrutiny, the federal agencies were placed in a 
position to resist conveyance to CIRI for fear that conveyance would 
disrupt the public's enjoyment of the area.
    It was clear to the parties that without a settlement agreement, 
long and difficult litigation was likely, and the land ownership at 
Russian River would remain uncertain for years. While CIRI is no 
stranger to pursuing long and difficult litigation in order to secure 
its entitlement under ANSCA, in this case CIRI believes that it can 
best achieve what it desires at Russian River through settlement.
    In reaching settlement at Russian River, CIRI goals were threefold.
    First, CIRI desired to insure that proper management of the rich 
cultural resources is maintained and that an understanding of the 
enduring use of the area by Alaska Natives is achieved. Further, CIRI 
wished that this be achieved in a manner that provides CIRI and its 
larger family of Alaska Native organizations an opportunity to 
participate in the management of the cultural resources.
    Second, CIRI desired that federal management of the intense public 
use of the Russian River area remain in place so that burden is not 
shifted to CIRI.
    Third, CIRI wished an opportunity to develop new economic 
opportunities in tourism and recreation consistent with the cultural 
resources of the area and to promote new economic opportunity at 
Russian River for CIRI shareholders through training programs and new 
employment venues.
    I believe CIRI met its goals in reaching the Russian River Section 
14(h)(1) Selection Agreement. Through the negotiation process, CIRI has 
come to recognize the interests of the Fish and Wildlife Service and 
Forest Service at Russian River. In turn, we hope that the agencies 
have come to recognize CIRI's legitimate interests at Russian River. We 
look forward to the future where CIRI, and the Fish and Wildlife 
Service and Forest Service, together with the Kenaitze Indian Tribe, 
will work together to manage and to celebrate the past history and the 
new opportunities at Russian River.
    I would like to extend my testimony to include a summary of the 
Russian River Section 14(h)(1) Selection Agreement.
                                summary
Russian River Section 14(h)(1) Selection Agreement
    The Russian River Section 14(h)(1) Selection Agreement (Agreement) 
covers lands surrounding the confluence of the Russian and Kenai 
Rivers. The Agreement benefits the parties and the general public in 
the following ways:

  <bullet> The Forest Service campground and Fish and Wildlife ferry 
        site and most of the land at the Russian River remains in 
        federal ownership and control.
  <bullet> The right of the public to continue fishing remains 
        unchanged from the current status.
  <bullet> From Forest Service lands, CIRI is to be conveyed a 42-acre 
        parcel on the bluff overlooking the confluence of the Kenai and 
        Russian Rivers, and an approximately 20-acre parcel near where 
        the Sterling Highway crosses the Kenai River. The 20-acre 
        parcel is subject to Section 14(h)(1) restrictions. In 
        addition, a public easement managed by the Forest Service along 
        the banks of the Kenai River is reserved on the 20-acre parcel.
  <bullet> From Fish and Wildlife lands, CIRI is to be conveyed the 
        limited estate of the archeological and cultural resources in 
        approximately 502 acres. The lands are well-documented villages 
        and cultural sites. In other lands, CIRI's future rights to any 
        archeological material, if and when any of this material is 
        removed, is clarified. Thus, CIRI's ANCSA entitlement is 
        fulfilled in a manner that accommodates the public's interest.
  <bullet> With these conveyances, CIRI will relinquish its ANCSA 
        Section 14(h)(1) selections in the area, now totaling 2,010 
        acres.
  <bullet> The parties agree to pursue a public visitor's interpretive 
        center for the shared use of all three parties to be built on 
        the 42-acre parcel to be conveyed to CIRI. The visitor's center 
        would provide for interpretation of both the natural and 
        cultural resources of the Russian River area. A public joint 
        visitor's interpretive center would include interpretive 
        displays, thereby enhancing educational and cultural 
        experiences for Alaskans and tourists alike.
  <bullet> In conjunction with the visitor's interpretive center, the 
        parties agree to seek the establishment of an archeological 
        research center that will facilitate the management of the 
        cultural resources in the area.
  <bullet> CIRI seeks a $13,800,000 federal appropriation to plan, 
        design, and build the Joint Visitor's Center and the Sqilantnu 
        Archaeological Research Center that is contemplated in the 
        Agreement.
  <bullet> Certain visitor-oriented facilities may be developed by CIRI 
        on the 42-acre parcel. These facilities may include a lodge, 
        dormitory housing for staff and agency people, and a 
        restaurant. CIRI agrees to seek input from the federal agencies 
        as to their needs and desires for the area.
  <bullet> The parties commit to enter into a memorandum of 
        understanding for the purpose of ensuring the significant 
        activities at Russian River are carried out in a cooperative 
        and coordinated manner. Management of the area is enhanced 
        through the parties' commitment to address the long-term 
        protection of the natural and the cultural resources. In 
        addition, the Kenaitze Julian Tribe, the local tribal entity, 
        has been invited and has expressed interest in participating in 
        future efforts and planning at Russian River.
  <bullet> The Agreement also authorizes, but does not require, the 
        exchange of land lying adjacent to the Sterling Highway at 
        Russian River for important brown bear habitat near the Killey 
        River in the Kenai Peninsula owned by CIRI.

    Senator Wyden. Very good.
    Mr. Klundt.

STATEMENT OF SCOTT KLUNDT, ESQ., ASSOCIATE DIRECTOR OF FEDERAL 
  LANDS, NATIONAL CATTLEMEN'S BEEF ASSOCIATION AND ASSOCIATE 
                 DIRECTOR, PUBLIC LANDS COUNCIL

    Mr. Klundt. Thank you, Chairman Wyden and members of the 
Energy and Natural Resources committee. My name is Scott Klundt 
and I am the associate director of Federal Lands for the 
National Cattlemen's Beef Association and the associate 
director of the Public Lands Council. Thank you for your 
interest in my comments on S. 198.
    I have been involved with this bill for the past 2 years 
when it began with the cohesion of the Nature Conservancy, NCBA 
and PLC. Senator Craig has been very generous in his efforts 
with this bill, but more importantly, this bill is the 
culmination of those efforts and exemplifies the common good 
achieved by a common goal between different groups. It gives me 
great pride to see this bill moving forward.
    The majority of the ranchers that we represent utilize 
lands managed by the Forest Service and the Bureau of Land 
Management, and the health and sustainability of our Federal 
rangelands are very important to our farmers and ranchers. S. 
198 is very important legislation for it elevates the fight 
against non-native weeds and underscores the need for Congress 
to get more involved with this issue.
    Some experts claim we are losing up to 5,000 acres a day to 
non-native weeds. Other experts claim higher numbers, arguing 
that 100 million acres are lost each year. Now, if we put this 
in perspective, it is roughly the size of Delaware, which are 
lost each year to non-native weeds.
    They also drastically limit the biodiversity of rangelands, 
lessen recreational values, and increase soil erosion by 
competing with native plants for soil, water, and vital 
nutrients. Some non-native plants can even poison wildlife and 
livestock. They also reduce the sustainability of wildlife 
habitat leading to the propagation and increased numbers of 
threatened and endangered species.
    Without ranchers and other resident individuals' efforts to 
perform active hands-on management, much of our western 
landscapes will go through a path of unnatural plant succession 
leading in non-native plant communities and mono-cultural 
ecosystems.
    Federal Interagency Weed Committee estimates an annual 
losses to agricultural lands are somewhere around $20 billion. 
Other estimates range as high as $100 billion. Well, whatever 
the number, these losses are personal to our farmers and 
ranchers. Existing Federal sources of funding for addressing 
invasive weeds do not come close to meeting the needs of public 
and private lands.
    Let me give you an example. The Bureau of Land Management, 
the Nation's largest land manager, plans to treat 245,000 acres 
of weeds in its fiscal year 2003 budget request. This acreage 
is the same as this year, but 7,000 acres less than what was 
treated in 2001. Now, it is kind of interesting for an agency 
that is responsible for managing 264 million acres--that is 
almost one-eighth of this country's land mass--only 1 out of 
every 1,110 acres will be treated. If you put this in numbers, 
that is about less than 1 one-thousandth of 1 percent.
    For the Forest Service, that number is even more shocking. 
Only about 1 out of every 2,300 acres will be treated.
    So, Federal lands adjacent to private lands are to be 
treated with the same standard, they have to be treated with 
the same standard, otherwise local efforts to control non-
native weeds on private lands will be futile.
    S. 198 takes note of this scenario and thoughtfully 
considers the connection between public and private lands. 
Weeds do not distinguish between public, private, Federal, or 
State boundaries. They know no boundaries, nor does S. 198. S. 
198 is an outstanding piece of legislation. It establishes a 
national advisory committee, allocates funding to States, 
monitors progress, and most importantly gets funding to where 
it can be utilized the best through common sense with the local 
people who have the know-how and the ability and the time to 
get down onto the ground.
    Any program or weed control agency such as what Mr. Secrist 
had mentioned, these cooperatives, are eligible for dollars for 
this program. No matter what type of effort they extend, 
whether it is burning, spraying, biological controls, seed and 
bug harvest and removal, mechanical treatment, even good old-
fashioned hand pulling are eligible for programs and for 
funding under S. 198.
    This bill ensures distribution of funds by placing a cap on 
financial awards. It also ensures dissemination of these awards 
and the allocation is spent on weed management efforts. By 
channeling Federal funds to the local level, weed control 
groups can supply the labor and therefore at least double the 
efforts in the battle against non-native weeds.
    We support this bill and we submit that every effort needs 
to be made to provide for the efficient distribution of Federal 
funds and, at a minimum, coordination between private and State 
agencies and private landowners to ensure the maximum 
flexibility for decisions being made at the local level.
    We thank you for your support of this bill and will gladly 
answer any questions you may have.
    [The prepared statement of Mr. Klundt follows:]
Prepared Statement of Scott Klundt, Esq., Associate Director of Federal 
 Lands, National Cattlemen's Beef Association and Associate Director, 
                          Public Lands Council
    Chairman Wyden and Distinguished Members of the Senate Energy 
Natural Resources Committee:
    On behalf of the National Cattlemen's Beef Association (NCBA), the 
trade association of America's cattle farmers and ranchers, and the 
marketing organization for the largest segment of the nation's food and 
fiber industry; and on behalf of the Public Lands Council (PLC), a non-
profit organization representing approximately 26,000 federal lands 
permittees, thank you for your interest in my comments and for holding 
this hearing today concerning harmful nonnative weeds.
    I am the Associate Director of Federal Lands for the National 
Cattlemen's Beef Association and the Associate Director of the Public 
Lands Council. My work involves representing federal grazing permittees 
in the legislative, policy, litigation and regulatory arenas. Today 
brings me into the legislative arena, and more specifically, S. 189: 
``The Harmful Nonnative Weed Control Act of 2000.'' I have been 
involved with this Bill since its inception two years ago when The 
Nature Conservancy, the National Cattlemen's Beef Association and the 
Public Lands Council joined together to do something positive in the 
fight against nonnative weeds. S. 198 is the culmination of that 
effort, but more importantly it exemplifies the common good achieved by 
a common goal between completely different groups.
    NCBA's Federal Lands Committee and PLC represent ranchers and 
farmers who graze livestock on our nation's federal lands. Most of 
these ranchers and farmers utilize lands managed by the Bureau of Land 
Management (BLM) or the United States Forest Service (USFS). However, 
some graze livestock on other federal lands managed by other federal 
agencies such as the Park Service, Fish and Wildlife Service and the 
Department of Defense. Grazing occurs on a variety of federal lands 
including BLM grazing districts, national forests and grasslands, 
national monuments, wildlife refuges, recreation areas, and several 
others. Many of these permittees also utilize state leases as part of 
their grazing operations along with their own private lands.
    A major threat to the health and sustainability of the lands I just 
described are invasions by harmful nonnative weeds. S. 198 is important 
and much needed legislation, for it elevates the fight against harmful 
nonnative invasives and underscores the need for Congress to focus more 
attention on this issue. S. 198 strengthens the ability for Federal, 
State, and private entities to develop partnerships and coordinate 
activities, while providing valuable resources to battle harmful 
nonnative species. We are encouraged by the efforts of this Committee 
on S. 198 in order to provide mechanisms and funding to States for 
landowners and managers to wage the battle against harmful nonnative 
weeds.
    In the West, livestock grazing constitutes the dominate use of 
federal lands along with a large portion of private agricultural land. 
Ungulates such as cattle, horses, goats, sheep and even buffalo graze 
forage produced on federal lands via the livestock grazing permit 
system. Farmers and ranchers share the forage produced on federal lands 
with wildlife. Farmers and ranchers also share their own private land 
and forage with wildlife. In fact. most of the forage consumed by 
wildlife during winter months comes from private acreage. Many areas of 
the West are surrounded by federal land with large portions of states 
and counties falling under federal ownership. Many counties have close 
to 90 percent of federal ownership and the state of Nevada also 
approaches 90 percent in federal ownership. In these federal land 
dominant areas, ranches must rely on federal lands in order to sustain 
their operations. Many of these operations have been in the same 
families for generations and some even predate the creation of the BLM 
and USFS. Therefore, the health and sustainability of our federal 
rangelands, and federal lands in general, are very important to our 
farmers and ranchers. As such, ranchers and farmers possess a vested 
interest in what happens on their private land as well as how federal 
lands surrounding their private acreage are managed.
    One rarely recognized benefit of ranching is the economic and 
public benefit provided by the ranching industry which is the control 
of harmful nonnative weeds. On public and private land, it is the 
rancher who is out on the ground more than any other individual. A 
rancher will recognize new invasions and act accordingly by taking 
preemptive measures to combat new infestations but he must have the 
resources and tools to continue the fight against new invaders. 
Nonnative weeds seriously threaten biodiversity and all ranchers are 
allies on the front lines in the effort to control nonnative weeds. 
Ranchers have always fought nonnative weeds through spraying, 
prescribed burns, intensive short-term grazing, grabbing a shovel and 
digging up or hand pulling the new invader. Without ranchers' and other 
resident individuals' efforts to perform this active hands-on 
management, much of our western landscape will follow a path of plant 
succession that is unnatural and will ultimately lead to nonnative 
plant communities and monocultural ecosystems. We need to establish, 
emphasize and enhance partnerships with the local hard working folks in 
order to maintain and restore native, biologically diverse ecosystems.
    We are currently facing a plague that is devastating our private 
and public lands and it is not livestock grazing or over grazing or 
desertification. The plague I'm speaking of is the invasion of harmful 
nonnative weeds. Some experts claim we are losing 3,000 to 5,000 acres 
a day to invasive weeds. Other experts claim higher numbers, arguing 
that 100 million acres are lost each year to invasive alien plant 
infestations. The one sure thing is that no one can really know for 
sure how much land is lost to nonnative weeds. Considering the remote 
areas of our country combined with the lack of effective mapping, 
detection, control mechanisms and resources, millions of acres will 
continue to be lost.
    Nonnative weeds significantly limit the economic value of 
agriculture lands and grazing rangelands by competing for soil, water 
and vital nutrients. Some nonnative plants can even poison wildlife and 
livestock. Weeds lessen recreational values and increase soil erosion. 
They also reduce the sustainability of lands serving as wildlife 
habitat leading to the propagation and increased numbers of threatened 
and endangered species.
    NCBA and PLC appreciate the Committee's attention to invasive 
species issues and also appreciate the opportunity to speak to this 
Committee's on S. 198, the Species Protection and Conservation of the 
Environment Act. We have long been aware of the economic and 
environmental harm caused by invasive species and continue to urge the 
Federal Government to recognize invasive species as a priority issue 
and to develop a national effort to address the problem. However, 
existing sources of funds for addressing invasive weeds do not come 
close to addressing the needs we are facing on public and private 
lands. There currently is no existing independent federal fund to 
address these needs. I would like to illustrate for you the importance 
and need for federal funding. The nation's largest land manager, the 
Bureau of Land Management, plans on treating 24,000 acres in Fiscal 
Year 2003 according to its budget request. This acreage is the same as 
Fiscal Year 2002 and 7,000 acres less than the total number of acres 
treated in 2001. I find it interesting that for an agency responsible 
for managing 264 million acres of federal land--or nearly one-eighth of 
the country's landmass--only one acre out of about every 1,100 acres 
will be treated. This number is shocking. More federal dollars need to 
be allocated for treating more acreage. If federal lands adjacent to 
private lands are not managed to the same level, local efforts to 
control and eradicate nonnative weeds will be futile. S. 198 takes this 
scenario into consideration and thoughtfully applies to public lands as 
well as private.
    The Federal Interagency Weed Committee has estimated that annual 
losses in the productivity of agricultural lands are as much as $20 
billion. Other estimates reach as high as $100 billion but an accurate 
figure cannot be determined due to the number of nonnative species and 
enormous area affected. Whatever the cost, these losses are personal to 
livestock producers--so each rancher and farmer has a vested interest 
in the health of the land that he or she owns or manages and in 
minimizing financial impacts caused by invasive weeds. New money should 
be directed to a program that gives states maximum flexibility to 
direct funds where they can be utilized by local decision makers mast 
effectively. Federal red tape and administrative requirements must be 
minimized to ensure that the dollars are getting to the ground where 
they are needed most. One way to do this is to implement a programmatic 
environmental impact statement so the agencies can deal with all weeds 
at all times, rather than one at a time.
    We need to ask ourselves how did we get into the situation we are 
facing today? Why are we losing millions of acres a year to nonnative, 
invasive weeds? The answer to these questions can be found in one word 
in the title of the Bill: I am testifying in support of today--
nonnative. Noxious weeds are typically not a problem when in areas of 
origin. Our own native weeds do not pose the same threat as nonnative 
plants because they evolved with our beneficial native plants. That is, 
our native plants can compete with native weeds because of the role 
each plant plays in the ecosystem developed as a result of generations 
of plants adapting to each other throughout the millennia. Beneficial 
native plants develop defensive mechanisms, as well as other biological 
controls, to native weeds resulting in biologically diverse ecosystems 
and therefore preventing native weeds from completely overtaking an 
area. On the other hand, nonnative weeds can infest an area and grow in 
an explosive manner and completely overtake an ecosystem. For example, 
research indicates that spotted knapweed forms an affiliation with soil 
fungus resulting in the loss of carbon available for native plants, 
thus affecting the ability of native plants and grasses to compete with 
spotted knapweed. This same scenario holds true for nearly every 
nonnative weed. Native plants have simply not had the opportunity to 
develop the essential defensive mechanisms to tight invasions of 
nonnative weeds. That is why it is imperative that Congress pass S. 
198. S. 198 will not be the answer to all our invasive problems but it 
will provide valuable resources for the task ahead.
    Spotted knapweed is not the only harmful nonnative weed. Ranchers 
continually fight new invasions of dalmation toadflax, medusahead, 
ragweed. yellow starthistle. spotted knapweed and leafy spurge just to 
name a few and the list goes on and on. Fighting nonnative species is 
something that must be done quickly or we will lose a lot of land that 
will never be recovered. For instance, cheatgrass has out-competed 
native grasses and plants in vast areas of the West and the fight 
against cheatgrass is now a lost cause. One might as well try to empty 
the ocean with a bucket. Cheatgrass is a prime example of what can 
happen if proactive measures are not taken immediately. There are 
hundreds of nonnative invasive weeds infesting every region and state. 
The multitude of invaders and the vast acreage covered begs the 
question of what is being done about it? Weeds are a local problem and 
states and counties are constantly struggling to find the resources and 
methods to effectively ward off existing as well as new invaders. 
States and counties have developed weed and pest agencies, weed 
advisory boards, educated agriculture extension agents, developed 
relationships with universities and scientists to determine the best 
methods of attack and control, instituted new programs for generating 
revenue, hired or contracted out weed experts, and a variety of other 
initiatives and efforts.
    At the federal level, Congress passed the Plant Protection Act 
(PPA) two years ago.\1\ The Plant Protection Act consolidates and 
modernizes all major statutes pertaining to plant protection and 
quarantine such as the Federal Noxious Weed Act and the Plant 
Quarantine Act. PPA permits the Animal and Plant Health Inspection 
Service (APHIS) to manage, monitor and take efforts to control or 
eradicate weeds. PPA subjects any violators of PPA to a civil penalty 
including fines of up to $50,000 for an individual and $250,000 for 
businesses. Perhaps most importantly, PPA authorizes APHIS to take 
emergency action to address invasions of noxious weeds.
---------------------------------------------------------------------------
    \1\ 7 U.S.C. 7701. et. seq.
---------------------------------------------------------------------------
    Also, President Clinton signed Executive Order 13112 on Invasive 
Species. This Executive Order seeks to prevent the introduction of 
invasive species. E.O. 13112 also provides for the control and 
reduction of invasive species impacts through enhanced coordination of 
federal agency efforts under a National Invasive Species Management 
Plan developed by an interagency Invasive Species Council. Furthermore, 
the Order directs all federal agencies to address invasive species 
problems, including nonnative weeds, and to limit or cease any 
activities likely to increase or propagate invasive species. The 
Invasive Species Council, is also assigned the task of facilitating 
communication between agencies and to monitor invasive species impacts. 
We support the National Invasive Species Council (NISC) established by 
the Executive Order and provided input into the preparation of 
``Meeting the Invasives Species Challenge'' (the national management 
plan developed by NISC), through participation in the Invasive Species 
Advisory Council. We have also worked with Congress through the 
appropriations and other legislative processes to direct resources to, 
and focus attention on, invasive species.
    While we are greatly appreciative for laws such as PPA and 
Executive Order 13122, they provide the long-awaited and much needed 
guidance. However, they are not enough. Weeds do not distinguish 
between public, private, state or federal land. They know no boundaries 
nor do they understand legislation and civil penalties. Simply put, we 
need to get dollars to the local folks for on-the-ground efforts. S. 
198 is an outstanding piece of legislation, it establishes a national 
advisory committee, allocates funding to states, monitors progress and 
most importantly--gets funding to where it can be best utilized. Any 
program or weed control entity can be eligible for dollars for 
nonnative weed control efforts such as burning, spraying, biological 
controls, hoeing, seed and bud removal, mechanical treatment, including 
good old fashioned weed pulling, or whatever method of control and 
management the local group deems most effective.
    Section Seven of S. 198 requires dissemination of funds go to more 
than one group by limiting any award to 25 percent of that particular 
state's allocation. This requirement ensures that federal dollars are 
spread to as many weed control entities as possible. Additionally, a 
minimum of 75 percent of a state's allocation must be expended in 
financial awards to weed management efforts. This limitation will 
prevent bureaucratic wastefulness and ensures funding reaches the 
ground. These funds constitute the federal cost share of a local 
group's effort at eradicating or controlling nonnative weeds. By 
channeling federal funds to the local level, weed control groups can 
supply the labor and therefore at least double their efforts in the 
battle against non-native weeds.
    Section Seven of S. 198 also outlines eligibility requirements for 
weed management entities. Two of those requirements require plans for 
the control and eradication of nonnative weeds or to increase public 
knowledge of the need to control and eradicate harmful nonnative weeds. 
Section Seven also requires a description of the efforts or plan 
offered by a weed management group to control the invaders. Also, each 
group must report the results of each effort. By requiring feedback, 
lawmakers and decision makers will become aware of the problem and have 
the knowledge necessary for future decisions.
    Section Seven also allows funding of projects for more than just 
spraying weeds. For instance, efforts such as education, inventory and 
mapping, and monitoring may be covered under this bill. These efforts 
have, for the most part, been ignored or simply not undertaken because 
of a lack of funding and is certainly something not done extensively by 
any federal agency. Resources for fighting invasions of nonnative weeds 
are scarce with the few dollars available being used solely for on-the-
ground activities.
    Finally, Section Seven lists the criteria for an award by a state. 
These criteria include the seriousness of the problem, likelihood of 
success, and progress to name a few. With these criteria as well as the 
scope of the project, Congress can rest assured that if a serious 
problem exists, action will be at the local level by local stakeholders 
wanting results.
    The best method of fighting these invasions is to act locally. 
Currently, we have a limited amount of resources. In order to maximize 
resources, they are best utilized by those who intuitively know the 
geography and flora of an area--for instance, those who have been 
running up and down fields and ditches, like ranchers and farmers and 
other interested members of the community including members of weed 
boards and weed working groups. Furthermore, we need to have additional 
funding diverted to the local level to assist those who know best how 
to manage the land and treat the problem--whether the land is federal 
or private. We need to get resources into the hands of people at the 
local level who can apply common sense and local know-how.
    In closing, the National Cattlemen's Beef Association and the 
Public Lands Council support S. 198 and support the efforts of this 
Committee to address the harmful, nonnative weed problem. Our 
priorities for invasive species legislation are perhaps easier to 
articulate than they are to implement. Nonetheless, we submit that 
every effort needs to be made to provide a strong foundation for 
efficient distribution of federal funds, coordinate activities between 
Federal and State agencies and private landowners, and provide the 
flexibility for decisions to be made locally where the problems arise. 
We look forward to working with the Committee to ensure that our 
efforts to manage and control harmful nonnative weeds are targeted in 
the most efficient manner possible. Thank you for the opportunity to 
testify before your committee.

    Senator Wyden. Very good. Thank you. Just a couple of 
questions I am going to ask and then I am going to turn it over 
to Senator Craig and he will have some additional questions and 
we will adjourn the hearing.
    One question for you, Mr. Klundt, is the administration 
said that they would like to see the existing Invasive Species 
Advisory Committee be used rather than setting up a new 
advisory committee.
    I strongly support this legislation. I hear about it 
constantly from the Oregon cattlemen and how serious a problem 
it is. I know you all have done a lot of good work in terms of 
working with the environmental groups and the various 
constituencies.
    What do you make of this comment that they would rather use 
the existing advisory committee rather than the new one, as 
written in S. 198?
    Mr. Klundt. Well, the Invasive Species Council--we are glad 
to see them and also the Plant Protection Act. But what those 
two do is they set the guidelines for it but they do not 
provide the funding. They set the parameters for what can be 
done and how to control the invasion, but they do not do any 
on-the-ground work, and that is why we support your bill and 
Senator Craig's bill, S. 198, because it channels Federal funds 
down to the people that know how. Using the cooperatives that 
Mr. Secrist mentioned, we have got to get the local people 
involved. We support an Invasive Species Council and we think 
we have endorsed a member on there as well. But it is the upper 
tier, but we need to get down to the lower tier.
    Senator Wyden. Very good.
    One question for you, Mr. Secrist. The administration also 
says that there should be a reporting requirement as well added 
to S. 198 so that, in effect, Federal and State individuals 
could make judgments on the success of the projects. I am 
interested in your reaction. Senator Craig and I have really 
wrestled with a variety of ways to try to get accountability 
and measures and to get people to actually work together. We 
thought of one approach to the county payments bill. We are 
going to try to find some other ways in terms of forest health. 
But tell us what you think of this idea that somehow this 
reporting approach could have some accountability and you can 
measure success along the lines of what the administration is 
talking about.
    Mr. Secrist. Thank you, Mr. Chairman. I would offer that 
the idea of a multiplicity of partners is in itself a pretty 
good assurance that those monies are going to be used wisely. 
By that I mean if you have a mix of private landowners, Federal 
agency managers, tribal individuals, and groups such as the 
Nature Conservancy and others, that balancing that occurs, for 
example, at the local level is a pretty good assurance that no 
one individual is going to have their way necessarily and that 
these projects are going to be well thought out.
    Having said that, however, I recognize the need for 
accountability of public monies, which these would be. We have 
instituted, for example, at the Department of Agriculture for 
the cost share grants that we provide what we think is a 
reasonable amount of accountability, and that is that the 
groups provide to us at the end of the year an accounting of 
what projects they have accomplished, how much they spent in 
comparison to what they requested, and if carryover monies are 
available, either request to allocate them to new projects or 
to return them.
    So, yes, I do think some simple mechanism like that, but I 
think we have to be careful that the cure is not worse than the 
disease. It has certainly been a turnoff with some grants that 
we have seen. The accounting requirements are inordinate 
really.
    Senator Wyden. Well, we will work with you and Senator 
Craig has really taken the lead on this, and I am going to be 
supporting him strongly on it. We are going to turn this over 
to you, Senator Craig. I very much appreciate your adjourning 
this as well.
    Senator Craig. Thank you, Mr. Chairman.
    Glen and Scott, to all of you, thank you for your time here 
today and your testimony on these different issues.
    Glen, in those areas of Idaho that have developed the 
cooperative weed management concept, have you seen a 
significant difference in weed detection and eradication than 
in those areas that are not under a cooperative program? Or is 
it too early to tell?
    Mr. Secrist. Thank you, Senator Craig and members. No, I 
would not say it is too early to tell at all. We have seen 
tremendous improvement. For example, I was thinking of the one 
you are familiar with, the Camas Creek group. I say this 
candidly that it went from a position of the Director of the 
Department of Agriculture issuing a letter to the county saying 
they had to do something about the problem over there to what I 
think is one of the most progressive cooperative weed 
management areas in the State today. That all occurred because 
of someone at the local level who said, somebody has got to 
take responsibility for this, and found other landowners and 
Federal land managers of like feeling, and from that came a 
very good plan and a determination to implement that plan. And 
significant progress, yes.
    Senator Craig. Do you see this as probably, at least from 
your current experience with these cooperative arrangements, by 
far the better way of getting the Federal dollars to the 
ground?
    Mr. Secrist. Absolutely, Senator Craig. I would not see it 
any other way really. That provides I think the kind of support 
that you need from local landowners. I think importantly it 
provides the ability to sustain an effort like this. Anytime 
you depend on an agency, it soon turns into an agency program 
and eventually, I think, loses touch with reality in some 
regards. So, having that local steering committee where people 
come and go, where the chairmanship rotates, those things bring 
I think sustainability to what is surely a long-term problem.
    Senator Craig. Scott, you are familiar, I assume, with the 
relationship the cattle industry now has and your organization 
has with the Nature Conservancy.
    Mr. Klundt. Oh, yes.
    Senator Craig. You might explain that a little bit for the 
committee record because I believe this relationship 
demonstrates the frustration and concern that the issue of 
invasive and noxious weeds have to a broad cross section of 
both public and private groups. Those that might be considered 
environmental, those that have not been viewed as necessarily 
environmental all see a similar problem. If for the record you 
could explain that relationship. I have found it unique and 
valuable.
    Mr. Klundt. Absolutely. For those of you who do not know, 
the Nature Conservancy is a conservation organization. Each 
State has its own organization and there is a national 
organization as well.
    They are, like I said, a conservation organization, whereas 
the National Cattlemen's Beef Association and the Public Lands 
Council are commodity-based. When you look at the goals of each 
other, they sometimes conflict. And that has been the case 
between NCBA and the Nature Conservancy.
    However, on this bill, as I stated, we had a common goal 
and a common objective. Their goal is to conserve lands and 
preserve the landscapes, and our goal is to conserve the land 
and keep it in a sustainable production mode. The threat to 
both of those scenarios is non-native weeds.
    So, I think at your urging, Senator, we joined together and 
began a concept paper, floated it around, sent it out to our 
people for comments, and thus began this S. 198. So, hopefully 
that answered your question.
    Senator Craig. Well, I find that unique because I think 
whether it is the private landholder or I guess you could argue 
the Nature Conservancy is by definition a private organization 
and a holder of land, substantial acreages in many instances, 
all of them have found the responsibility of stewardship in 
this area phenomenally complicated because of the diverse 
relationships and, of course, the cooperative approach. This 
cooperative management concept that was really pioneered in 
Idaho and that we have worked into this legislation seems to 
address that. So, thank you both very much.
    Buck, I am asking this question in behalf of Senator 
Murkowski who could not stay. In your written testimony, you 
express concern for the proximity of the exchanged lands in 
Berners Bay to the LUD II area at the head of the bay. I assume 
you are aware that this bill would not convey a single square 
foot of LUD II to a private landowner.
    Are you suggesting that the Tongass Timber Reform Act or 
the Alaska Native Interest Lands Conservation Act envisioned 
the construction of a protective buffer around LUD II's or even 
around wilderness areas? Where in the Tongass Timber Reform Act 
is there that kind of extra protection envisioned? In other 
words, are you suggesting by this, in essence, a buffer, by 
your concern as to proximity?
    Mr. Lindekugel. Thank you, Senator Craig. To clarify, no. 
And the reason I brought this photo, we are concerned, because 
they are so close to each other, that affecting part of it 
affects the whole. So, even though it is not directly impacting 
the legislated LUD II lands, it will affect the uses of those 
lands and the natural resources that are produced by those 
lands. There just is an ecological whole. The bay is an 
ecological whole. In blocking off, denying access to one 
portion of that bay is going to affect use of the rest of the 
bay as well.
    Senator Craig. I see. Well, I thank you for that 
explanation.
    Gentlemen, all, thank you very much again for your time 
before the committee, and the committee will stand adjourned.
    [Whereupon, at 4:24 p.m., the hearing was adjourned.]
                                APPENDIX

              Additional Material Submitted for the Record

                              ----------                              

    [Due to the enormous amount of materials received, only a 
representative sample of statements follow. Additional 
documents and statements have been retained in subcommittee 
files.]
  Statement of Hon. Maurice Hinchey, U.S. Representative From New York
    Mr. Chairman and members of the Subcommittee, as a member of 
Congress representing an area of New York that is nearby the Finger 
Lakes National Forest I strongly support passage of S. 1846 and I want 
to commend Senators Schumer and Clinton for their hard work and 
leadership on this issue. Along with Representative Jim Walsh and 28 
other members of the House of Representatives, I am a cosponsor of 
companion legislation to permanently protect the Finger Lakes National 
Forest from oil and gas development.
    The Finger Lakes National Forest is a special resource in our state 
as it is New York's only national forest. Since its establishment by an 
Act of Congress in 1983, the Finger Lakes National Forest has become a 
popular destination for hikers, campers, horseback riders, and nature 
enthusiasts. Opportunities for hunting, fishing, skiing, and 
snowmobiling ensure that the Finger Lakes National Forest is utilized 
for recreation by residents of New York throughout the year. According 
to the Forest Service, the Finger Lakes National Forest hosts 46,000 
``recreation visitor days'' annually, attracting visitors because of 
its network of trails, easy access, and relatively undisturbed 
environment.
    In 2001, the Forest Service proposed leasing 13,000 acres of the 
16,000-acre Finger Lakes National Forest for oil and natural gas 
drilling. Oil and gas drilling in the Forest is strongly opposed by my 
constituents and would greatly diminish the many benefits New Yorkers 
enjoy when visiting it. The Forest Service's proposal was simply 
incompatible with current uses of the Forest and opposed by an 
overwhelming majority of New Yorkers. This ill-conceived proposal not 
only galvanized efforts to defeat this immediate threat but to 
permanently protect the Forest from such harmful activities in the 
future. Efforts to defeat the Forest Service's proposal were boosted by 
strong public opposition and the backing of public officials. I have no 
doubt that this opposition, along with the one-year moratorium on oil 
and gas drilling enacted in the FY 2002 Energy & Water Appropriations 
bill by Senators Clinton and Schumer, with the support of House members 
such as myself, was instrumental in convincing the Forest Service to 
ultimately abandon their pursuit of oil and gas in our Forest.
    S. 1846 is strongly supported by New Yorkers. As noted by the 
Forest Service in its Record of Decision in December of 2001, the vast 
majority of those responding to the Draft Environmental Impact 
Statement were strongly against any leasing or development of federal 
oil and gas resources. Many of the comments expressed concerns 
regarding impacts to wildlife and recreational resources. It is also 
worth noting that in many of the public comments, people expressed a 
deep personal attachment to what they considered to be a special place. 
The Finger Lakes National Forest is a unique slice of federal forest 
where many people have established personal connections with the land. 
These aesthetic and cultural values would be severely jeopardized by 
the disruption of the Forest's natural qualities.
    S. 1846 is necessary to ensure the permanent protection of the 
Finger Lakes National Forest. While oil and gas development has been 
temporarily averted, the Forest Supervisor stated in the Record of 
Decision that he was not foreclosing the prospect of future oil and gas 
leasing. With the possibility of future industrial exploitation it is 
imperative that we act now to pass this legislation to permanently 
protect our National Forest. Oil and gas drilling would severely 
compromise the character of the Forest that New Yorkers have come to 
know. This industrial development would disrupt the current uses highly 
sought by the public by adversely impacting recreation and tourism in 
the Finger Lakes National Forest through increased traffic, noise and 
fumes, damage to roads and trails, and risk associated with extracting 
and transporting oil and natural gas. Drilling activities would harm 
the ecological functions of the Forest by contaminating the water and 
soil, and diminish its undeveloped character through the construction 
of access roads, drilling pads, pipeline corridors, and other forms of 
long-lasting degradation.
    Adopting S. 1846 will ensure that the Finger Lakes National Forest 
will maintain its current character and not be degraded by drilling 
activities in the future. The Finger Lakes National Forest is a small, 
fragile forest in an area that is seeing increased encroachment from 
development activities. We should not compromise its natural functions 
for short-term financial gain. This regional asset deserves the 
permanent protection provided by S. 1846 for the benefit of its current 
and future users.
    Thank you for your consideration of this important bill.
                                 ______
                                 
  Statement of Hon. Louise M. Slaughter, U.S. Representative From New 
                                  York
    Mr. Chairman, as you consider S. 1846, I would like to take this 
opportunity express my strong support for a permanent prohibition on 
oil and gas drilling in the Finger Lakes National Forest in New York 
State. I am a proud cosponsor of H.R. 3460, the House companion bill to 
S. 1846.
    The Forest Service decided in December last year not to allow oil 
and gas leasing in the Finger Lakes National Forest at this time. While 
I was pleased with this decision, the option still exists for the 
Administration to decide to open up the area in the future for this 
controversial activity. The legislative language which passed the 
Senate last year by a vote of 97 to 2 only bans drilling in the Finger 
Lakes area in Fiscal Year 2002. A permanent legislative solution is 
needed.
    As Forest Supervisor Paul Brewster stated in his decision, even if 
environmental concerns could be mitigated through lease stipulations, 
the ``value of place'' would be compromised if oil and gas development 
was permitted. The Finger Lakes National Forest, located just east of 
Seneca Lake, is about the size of Manhattan, the only national forest 
in our state, and the second smallest national forest in the United 
States. This scarce public land in New York State should be preserved 
for the 40,000 visitors who are attracted to the area each year.
    I appreciate the attention this committee is giving to this 
important issue, and I urge the Senate to shield this national forest 
from drilling in the future.
                                 ______
                                 
     Statement of Hon. Greg Walden, U.S. Representative From Oregon
    Thank you Mr. Chairman for allowing me to submit a statement in 
support of S. 2482, a bill to direct the Secretary of the Interior to 
grant to Deschutes and Crook counties in the State of Oregon a right-
of-way to West Butte Road. Last night I introduced companion 
legislation to this bill in the House, and I look forward to working 
with you and Senator Smith in getting this important legislation 
enacted into law. This legislation will do much to improve the 
transportation and infrastructure needs of central Oregon.
    Mr. Chairman, due to the rapid population growth along the Bend-
Redmond corridor, Highway 97 has become a perpetual bottleneck. If this 
legislation passes and once the current BLM road is improved, trucks 
and other traffic will be able to utilize an alternative transportation 
route through central Oregon by way of the West-Butte Road, benefiting 
both Deschutes and Crook counties.
    For Deschutes County, passage of the legislation would provide a 
traffic ``relief valve'' for the extremely busy Highway 97. For Crook 
County, passage of the legislation would have three tangible benefits. 
Currently, the county has an unemployment rate of 10.6%, which can be 
attributed to the closure of several mills in the area. A paved 
connection to Highway 20 will induce companies to relocate to Crook 
County because of the long-term viability of its transportation 
infrastructure. This connection will also preclude companies from 
leaving Crook County due to the ever-increasing transportation 
congestion and costs of transporting products along Highway 97. A 
further benefit will be reduced travel time to recreational activities 
in the Ochoco National Forest.
    Mr. Chairman, Crook County has been hard hit by mill closures and 
loss of family wage jobs, due in part to the lack of a quality 
transportation infrastructure. Passage of this legislation will not 
solve all of Crook County's economic hardships, but it would certainly 
help eliminate some of the factors contributing to the county's 10.6% 
unemployment rate.
                                 ______
                                 
  Statement of Hon. James T. Walsh, U.S. Representative From New York
    Mr. Chairman, I welcome this opportunity to officially submit for 
the record my strong support of S. 1846, a bill to prohibit oil and gas 
drilling in Finger Lakes National Forest located in the Central New 
York. As the original sponsor of companion legislation pending 
consideration in the House, H.R. 3460, I believe a permanent ban on oil 
and gas drilling is the most effective way to prevent the drilling's 
negative effects on wildlife, recreation in the area, and tourism vital 
to the region's economy.
    This legislation is brief and straight forward. It simply states: 
``No Federal permit or lease shall be issued for oil or gas drilling in 
the Finger Lakes National Forest in New York.'' The reasons for 
preserving this valuable resource are many. The Finger Lakes National 
Forest is the smallest national forest in the country and draws 46,000 
recreational visitors each year who hunt, fish, camp, and hike on the 
16,000 acre reserve. Any drilling in the Finger Lakes National Forest, 
using standard 130 foot rigs and pipelines, will cause irreparable 
damage to the these recreational activities, the landscape and 
environment.
    In closing, my father, the Honorable William F. Walsh, represented 
this area in Congress in the 1970's. During that time, he fought hard 
to ensure this pristine wilderness area would be protected for future 
generations. This is a legacy I wish to continue.
    I join Senators Schumer and Clinton in supporting S. 1846. In our 
current attempts to construct a sound and responsible national energy 
policy, it is my hope that Congress recognizes the need for continued 
environmental stewardship to protect national treasures like the Finger 
Lakes National Forest.
                                 ______
                                 
                                         Juneau, AK, June 12, 2002.
Hon. Jeff Bingaman,
U.S. Senate, Hart Senate Building, Washington, DC.

Re: S. 2222, Cape Fox Land Entitlement Adjustment Act

    Dear Senator Bingaman: I am writing to you today in opposition to 
S. 2222, Senator Murkowski's legislation to give private, for-profit 
corporations 11,900 acres of public land in Berners Bay, Alaska in 
exchange for assorted land in southern Southeast Alaska, some of which 
has been logged.
    For over a decade, my family has enjoyed the richness of Berners 
Bay during all seasons of the year. We have boated into the Bay in the 
spring to watch humpback and minke whales pursue the eulachon, a small 
oily fish that is an incredibly important food resource for animals and 
humans alike because it arrives early in spring long before the salmon 
return. We have seen hundreds of eagles, harbor seals and Steller sea 
lions join the whales in pursuit of the eulachon. We have watched black 
bear grazing in the beach grass, and we have followed moose tracks in 
the sand at low tide. We have spent winter nights in the public-use 
Forest Service cabin in the north end of the Bay, listening to the 
silence that is so hard to find in our lives anymore.
    Berners Bay is a critically important wild area for the residents 
and visitors to Juneau, who use the area for recreation, for 
subsistence activities and for limited, commercially-guided touring. 
With 4 rivers flowing into the head of the Bay, it is one of the 
richest habitats for wildlife in Southeast Alaska.
    My family shares the concern of most Alaskans that the enjoyment of 
our life-style depends upon a healthy economy. However, we believe one 
of Alaska's greatest resources is our public lands that have not yet 
been negatively impacted by development.
    We have seen the environmental impacts that have resulted from 
development activities on lands in Southeast Alaska owned by for-profit 
corporations. We do not want to see similar impacts from mining 
development in Berners Bay that would be facilitated by this land 
exchange.
    We urge you to strongly oppose this ill-advised effort to put 
highly-valued public land into the hands of private developers.
            Sincerely,
                                                    Susan Schrader.
                                 ______
                                 
                                       Sunriver, OR, June 18, 2002.

Re: S. 2471, to provide for the independent investigation of Federal 
wildland firefighter fatalities

    Dear Senator Wyden and Honorable Committee Members: My name is 
Douglas Hoschek, I am 58 years old and my permanent residence is as 
stated Sunriver, Oregon. Our residential community of 3,000 privates 
acres is located completely inside the Deschutes National Forest. The 
closest town is Bend with a population of 50,000 citizens. Sunriver has 
a permanent population of 2,500 residents, mostly retired citizens who 
own their own homes with prices ranging from $250,000 to $850,000.
    During the summer months hundreds of thousands of citizens come to 
the area for family vacations and outdoor recreation.
    I am employed in my own textile business, Portland Woolen Mills 
(PWM). During the past two years I have been re-birthing PWM which was 
started in Portland, Oregon in 1901 and became the largest woolen mill 
west of Cleveland until 1961. After the mill closed its woolen 
production in 1961, the company turned to making synthetic fiber 
insulations for sleeping bags and outdoor clothing. In 1966, after my 
graduation from the Univ. of Montana with a BS degree in Bus Ad and 
Sociology, PWM soon became my customer while I was employed at Celanese 
Fibers Company selling Polarguard insulations for military and outdoor 
recreation sleeping bags and clothing.
    From the knowledge I acquired in non-woven fiberfill insulations 
and woolen blankets I co-developed Polarfleece with Maiden Mills. As I 
am sure you are aware Malden Mills and owner Aaron Feuerstem had a 
tragic fire that devastated 75% of the mill in 1995 where the world 
famous Polarfleece/Polartec fabrics were being produced. Fire is no 
stranger to textile mills and unfortunately far too many textile 
products they manufacture today are NOT reviewed and improved to be 
fire retardant certified.
    Except for heavy protective outer garments made of Aramid including 
a coat, shirt and pants the firefighter has little product available to 
them for protection while fighting fires, especially wildland forest 
fires.
    In earnest, I have directed myself and Portland Woolen Mills to 
address the issue of fire safety for outdoor end user recreationists, 
commonly called campers, hikers, backpackers, viewers, and 
birdwatchers. Over one hundred million American's claim to participate 
in these forms of outdoor recreation on public lands annually according 
to a joint study published in 1997 by the USDA Forest Service and the 
Sporting Goods Manufacturing Association.
    My research has shown me that little to NO understanding of what to 
do should a citizen become involved in a public lands fire, is being 
shown or taught to American citizens. Education is needed as soon as 
possible. In addition, an even more alarming fact shows that few if any 
fire safety specifications are presented in all the types of outdoor 
recreation gear and clothing used on public lands. To the best of my 
knowledge only tent floor materials required a fire retardant 
specification, leaving nylon sleeping bags, nylon backpacks, synthetic 
shoes and synthetic and cotton clothing all without fire 
specifications.
    While it would be unreasonable to expect outdoor end users to 
always wear fire protective clothing like the flame-resistant pants and 
shirts issued to firefighters, and the carry gear all made to fr 
standards, there are two definite ways to improve existing products. It 
is the purpose of this testimony to encourage this Committee to work 
towards legislation as stated in the following two points:
    1. Test all outdoor gear and clothing that are used on public 
lands, i.e., tents, sleeping bags, backpacks, clothing and shoes and 
establish a rating system of flame resistance in a general sense that 
would require each product to be labeled so that the consumer knows the 
reality of the product when it is exposed to public lands fires. This 
of course will encourage product makers to improve the fire qualities 
of their products.
    2. Legislation be passed that would require some type of fire 
protection to be carried in a vehicle used to enter public lands, i.e., 
a fire safety blanket or wrap. Furthermore, citizens, (outdoor end 
users) that walk upon, ride upon or camp upon public lands etc. be 
required to have with them some means of fire protection from clothing 
to a wrap to protect themselves. Thus, you are not entering into the 
personal dress of citizens by requiring that they only carry with them 
flame resistant protective wear of some certified flame resistant 
materials.
    Allow me now to make the following comments and observations about 
fire fighters fatalities during the past few years. I was schooled at 
the Univ. of Montana as stated from 1961-1965. At that time, U of M was 
rated as the best Forestry college in America. While I did not major in 
Forestry I did take a few Forestry courses as electives. Many of my 
best friends were Forestry majors and several were firefighters in the 
summer to earn money to stay in college. As I am sure you are aware the 
Missoula Fire Jumpers School is among the best in the world.
    A few weeks ago, May 29 to be exact, I attended a public hearing 
held by Senator Wyden in Redmond, Oregon concerning Forest Health. 
Alarming testimony was given about the severe fire dangers of public 
forest lands from years of neglected maintenance and legal conflicts 
with environmental groups.
    I must admit to you that until I came to that hearing I was very 
much in favor of ``roadless lands'' and more and more wilderness type 
designations for public lands. Senator Wyden made a turning point for 
me when he addressed all the parties involved, forest service, BLM, 
rancher, schools, rural towns, outdoor end users, environmentalists as 
``STAKEHOLDERS''. I had learned enough to know that public lands are 
defined as multiple use public lands. Yet, not until this hearing on 
May 29th did I realize how much we ALL need to work together to save 
our public lands and ourselves from fire dangers that will solve things 
for us. What good is a roadless public land if the forest floor is not 
properly maintained?
    Private lands used to farm (log) timber are easily wiped out by 
public forests that are not properly maintained through science and 
thinning of smaller trees and underbrush. Even the now popular 
purchasing of private lands and putting them into public trusts finds 
little to NO fire safety management funds for those lands from those 
wealthy donors once the lands are acquired. In reality FIRE WINS. And, 
of course, before we as citizens started expanding our boundaries to 
want to live and build communities closer and closer to public lands, 
fires were a simple act of Mother Nature.
    Reading the stories and seeing the results of all this shifting of 
living spaces and poorly managed fire safety systems that we keep 
failing to find leadership to resolve, finds the real victims are now 
the firefighters who must go and continue to keep us safe from our own 
harms ways. Colorado is all to real as I write this testimony. Not just 
the homes and citizens threatened by these wildland fires but the 
constant buildup of men and women needed to protect lives and property. 
We are beyond the simple truths that the money we are spending now to 
fight these fires should have been spent to protect the forests from 
these fires. Over one hundred years ago, much of the States of 
Wisconsin, Michigan and Minnesota burned out of control in wildfires. 
History quotes squirrels being able to run from treetop to treetop from 
state to state and never touch the ground for hundreds of miles. Today 
the press simply states fire races from treetop to treetop throughout 
87,000 acres near Denver Colorado. 540 firefighters are working round 
the clock and another 800 are needed. As fires swirl out of control 
crews are pulled off the lines. FEMA gives eleven grants to Colorado. 
Soon the reality of who gives their lives will enter. During the past 
two years over a dozen lives were lost each year fighting fires by the 
brave citizens who work as firefighters.
    I have few answers to say why these brave citizens died in the line 
of duty.
    I have just begun my own journey to try to bring new and improved 
textile fabrics to firefighters and outdoor end users of public lands. 
In contacting Andy Hayes at Missoula Smoke Jumpers and George Jackson 
at the Forest Service Development Center in Missoula I have learned 
that much can be done to improve the health and well being of fire 
fighters while they are out there saving our lands and our lives. One 
of the biggest factors for firefighters is fatigue from heat related 
stress according to the conversations I had with Mr. Jackson and Mr. 
Hayes. This was also confirmed by Richard Harter at the National 
Interagency Fire Center in Boise.
    I have within my company, Portland Woolen Mills, products with new 
fr science made from wool, that reduce heat stress and fatigue while 
providing fr protection to the wearer. The science and wool fabric 
technology have been developed by Alcoa and a mill in New Zealand named 
Alliance Textiles. These fabrics and blankets will be introduced to 
outdoor end user retailers at this summer Outdoor Retailer Show in 
August in Salt Lake City. One of the key parts to the PR 97 fabric 
system is next to the skin layers of fr fabrics that also keep you from 
overheating. It is that overheating that burns energy and causes 
fatigue. For the past twenty years myself and many others in the 
outdoor textile industry have exhausted ourselves developing synthetic 
polyester fibers to move away skin moisture (sweat) to prevent fatigue 
and wet clammy clothing.
    I was somewhat shocked to learn from the FS Development Center that 
next to skin clothing (including underwear) is considered to personal 
to become part of the fr clothing spec for fire fighters. In outdoor 
recreation the next to skin underwear layer is just as important to the 
outdoor climate control clothing system as a mid layer of Polarfleece 
and a protective shell of Goretex. In fact the next to skin layer is 
the biggest concern to comfort and protection for outdoor end users. I 
am told it will take years to get a national program for federally 
employed firefighters to have these new products and that my best shot 
is to work through field offices and sell the clothing to firefighters 
in a more direct way. While this is very good business for my 
customers, outdoor retailers like REI, Cabela's and LL Bean is it fair 
to the firefighters to have to buy their own or wait four years till 
they get one from a national government contract? A closer look will 
find an outdoor end user being rescued from a public lands firefighter 
with the citizen wearing better protective clothing than the fire 
fighter who is rescuing them. The fatigue from several rescues along 
with a full shift of fighting the real fire easily could overcome the 
firefighter and in his fatigued state he or she could lose their life. 
Many firefighters get little to no rest in a 24 hour period.
    No road is an easy road in America today. My journey to stay in the 
textile business in America has led me to New Zealand to find the 
quality of wool and woolen fabrics I want to bring to my customers. To 
accomplish what I would like to do with these New Zealand fabrics that 
I have shipped into the USA to be sewn into clothing I must pay duty 
rates. Furthermore, to bring these fabrics into USA government clothing 
contracts I must find away around the legal issues of non USA made 
fabrics. That avenue seems to be a great opportunity for NAFTA to open 
its doors to New Zealand and Australia.
    Why? Simply because 80% of the worlds wool that can make good 
outdoor clothing and blankets including fire resistant ones, is raised 
there. The USA production of world wool is 1%. Back in 1901 when 
Portland Woolen Mills was first started the USA produced all the wool 
it needed for our citizenry, close to 300 million pounds annually.
    Wool was the second most important source of funds for our economy 
next to steel. Today we raise a mere 6-7 million pounds of wool. We are 
totally dependent on oil and the fossil fuel science of synthetic 
fibers for all our clothing and outdoor gear. Aramid flame resistant 
clothing will keep you from burning. It is a synthetic fibre. However, 
the heat stress and consequent fatigue will make you seriously ill or 
even kill you. We all know the reality of continuing to depend on oil 
and the countries that produce it. So long as there is grass in America 
there can be sheep and wool to protect our citizenry and our 
firefighters. Globally we can choose to become bigger partners with 
grass growing sheep stations in New Zealand and Australia or keep 
living in the terror of foreign oil.
    Our firefighters can be saved with the present fabrications that 
find New Zealand and Australian firefighters saved from the perils we 
allow our own firefighters. The obstacles for myself and Portland 
Woolen Mills to make that happen require four years of waiting and many 
new acts of global relationship building to cut threw red tapes of 
government policies. Of course it would be easier to just go fishing if 
the whole damn woods wasn't burning up!
    Which brings me to one last point in this testimony. S. 1846 to 
prohibit oil and gas drilling in Finger Lakes National Forest in the 
State of New York.
    Simply and respectfully: YES to prohibit oil and gas drilling.

            Respectfully yours,
                                                      Doug Hoschek.
                                 ______
                                 

                          RESOLUTION NO. 01-01

the resolution of the central oregon area commission on transportation 
 endorsing the improvement of millican/west butte road from reservoir 
      road in crook county to u.s. highway 20 in deschutes county.
    WHEREAS, the cities of Bend and Redmond are experiencing increased 
traffic congestion on U.S. Highway 97;
    WHEREAS, this congestion negatively impacts the transportation 
systems and the quality of life in those communities;
    WHEREAS, the city of Prineville and Crook County have been declared 
economically distressed and improvement of highway access is important 
to enhance economic opportunities;
    WHEREAS, an alternative route has been identified that would reduce 
environmental impacts on Highway 27;
    WHEREAS, the improvement of Millican/West Butte Road is expected to 
ease traffic congestion on Highway 97 and improve economic 
opportunities for Crook County; and
    WHEREAS, Millican Road traverses land owned by the Federal 
Government and managed by the Bureau of Land Management:
    NOW, THEREFORE, this 14th day of June, 2001, the Central Oregon 
Area Transportation Committee resolves that it endorses the improvement 
of Millican/West Butte Road, from Reservoir Road in Crook County to 
U.S. Highway 20 in Deschutes County, and urges the Bureau of Land 
Management to work cooperatively and promptly with representatives of 
local governments to accomplish this project.
                                   Central Oregon Area
                                   Commission on Transportation
                                 ______
                                 
 Statement of State Senator Michael F. Nozzolio, 53rd Senate District, 
                               Albany, NY
    State Senator Michael F. Nozzolio (R-Fayette) said, ``It is my 
strong belief that oil and gas exploration and drilling in the Finger 
Lakes National Forest would severely harm the pristine environment of 
the forest preserve and endanger wildlife and natural resources. The 
environmental risk of drilling far outweighs any potential benefits.
    ``Gas exploration and drilling in the Finger Lakes National Forest 
would not only jeopardize the quality of the environment, but would 
also jeopardize our local tourism industry, which is an important part 
of the local economy. The Finger Lakes National Forest attracts 40,000 
visitors annually and drilling in these lands would have a detrimental 
effect on our communities and our tourism industry, and limit the 
ability of residents and visitors to enjoy this unique environmental 
jewel.
    ``Unlike major Federal preserves in other areas of the Nation, 
there exists private sector alternatives to gas and oil exploration 
outside the borders of this relatively small national forest. With the 
availability and accessibility of these private sector alternatives, 
the Finger Lakes National Forest should be insulated from any gas and 
oil exploration.
    ``I have called upon the United States Forest Service to ban 
drilling in the Finger Lakes National Forest and I commend Senator 
Schumer for helping to keep up the fight on this important issue.''
                                 ______
                                 
                                       New York, NY, June 17, 2002.
Chairman Bingaman,
Ranking Member Murkowski,
Senate Energy and National Resources Committee, Dirksen Senate Office 
        Building, Washington, DC.
    Dear Senators Bingaman and Murkowski: I am writing to express my 
strong support for legislation to permanently ban drilling for oil and 
natural gaff in the Finger Lakes Forest. This is a tiny forest and the 
only national forest we have in New York State. I, and all New Yorkers 
I know, want to preserve this natural treasure for ourselves and for 
future generations. Destroying the Finger Lakes Forest will benefit no 
one but the oil companies. And it will certainly do nothing to make our 
country less dependent on imported oil.
    Please help us protect the Finger Lakes Forest.
            Respectfully yours,
                                                    Pauline Bilsky.
                                 ______
                                 
                                      Bay Shore, NY, June 17, 2002.
Chairman Bingaman,
Ranking Member Murkowski,
Senate Energy and Natural Resources Committee, Dirksen Senate Office 
        Bldg., Washington, DC.
    To Whom It May Concern: Please know that I and my family fully 
support the legislation of a permanent ban on drilling for oil and 
natural gas in the Finger Lakes. I am in support of Senator Schumer's 
bill, S. 1846. I am speaking as a concerned citizen and 
environmentalist of New York State.
            Very truly yours,
                                          Anita Michielini Navarro.
                                 ______
                                 
                                      Albertson, NY, June 17, 2002.
Chairman Bingaman & Senator Murkowski,
Senate Energy & Natural Resources Committee, Dirksen Senate Office 
        Building, Washington, DC.

Re: S. 2450 and S. 1846

    Dear Chairman Bingaman and Senator Murkowski: I am in favor of 
PERMANENTLY banning drilling for oil and natural gas in the Finger 
Lakes and want to express my support for Senator Schumer's and Senator 
Clinton's bills S. 1846 and S. 2450.
    Despite the USFS's contention that there is no purpose for these 
legislations, and despite the fact that they do not want to drill now, 
they want to keep their options open for the future. This is not 
satisfactory. The Finger Lakes forest is a small gem, one of the only 
national forests in NYS.
    Thank you.
            Sincerely,
                                                    Loretta Schorr.
                                 ______
                                 
                                    Canandaigua, NY, June 17, 2002.
Chairman Bingaman and Ranking Member Murkowski,
Senate Energy & Natural Resources Committee, Dirksen Senate Office 
        Building, Washington, DC.
    Gentlemen: I am writing to urge passage of the bill which bans 
drilling for oil and gas in the Finger Lakes National Forest 
permanently.
    Senator Charles Schumer and Senator Hillary Rodham Clinton have my 
firm support as they seek to protect the fragile ecosystem of New 
York's only national forest. The proposed bills (S. 1846 or S. 2450) 
would do just that. Therefore, I ask that your committee do all in its 
power to see that it becomes the law.
    According to the latest figures, about 40,000 people per year enjoy 
these woodlands--an astonishing number when you consider that we are 
talking about only 16,083 acres. They are there in all seasons: 
fishing, hunting, hiking, snowshoeing, camping, or just picnicking and 
enjoying the natural setting. In a time when unspoiled land is 
disappearing at an alarming rate, I would hate to see this changed.
    Even with modern technology, the ``pads'' for wells, roads to 
access and service them, pipelines and rights-of-way to carry the oil 
or gas, will scar the landscape permanently. No matter what the 
promises, there is no way to bring in heavy equipment with a light 
touch!
    Please act to preserve these natural and beautiful acres for our 
children and grandchildren by passing a permanent drilling ban. Future 
generations will thank you.
            Sincerely,
                                                     Fred A. Magle.
                                 ______
                                 
                                      Tonawanda, NY, June 17, 2002.
Hon. Frank Murkowski,
Energy and Natural Resources Committee.

Re: S. 1846

    Dear Senator Murkowski: We hope you can find some way to get 
permanent protection to the national forests and particularity to the 
Finger Lakes National Forest.
    We can see the supplies of oil are obviously dwindling and 
exploration for new areas has moved sideways for the past few years. 
Market conditions obviously pinpoint this reality. It appears that 
there really isn't as much domestic oil as we all thought.
    But the government is not encouraging conservation and current 
policies encourage the false hope of endless supply. National Forests 
and all parks are places that should be permanently removed from the 
possibility of questionable exploitation. Any damage we do to these 
areas is never truly repaired and the supplies of oil are inevitably 
meager.
    We hope you can develop a long range energy policy that is 
dedicated to something besides the bottom line of the fossil fuel 
companies and you are successful in getting this important legislation 
passed.
            Sincerely,
                                           Art (Hap) and Lyn Klien.
                                 ______
                                 
                                               Sierra Club,
                               Saratoga Springs, NY, June 17, 2002.
Chairman Bingaman and Ranking Member Murkowski,
Senate Energy and Natural Resources Committee, Dirksen Senate Office 
        Building, Washington, DC.
    Dear Chairman Bingaman and Ranking Member Murkowski: In New York 
State we have only one National Forest, the tiny Finger Lakes Forest 
outside of Ithaca. There has been expressed interest in this forest by 
the current administration for future oil and gas drilling. We urge you 
to support legislation that would permanently ban drilling for oil and 
gas in this region. Please support the following bills to ensure the 
protection of the Finger Lakes Forest; Senator Schumer's and Senator 
Clinton's bills, S. 1846 and S. 2450.
    If you would like to discuss this in further detail, please contact 
me at (518) 587-9166.
            Sincerely,
                                            Mark Bettinger,
                           Sierra Club Northeast Regional Director.
                                 ______
                                 
                                   Environmental Advocates,
                                         Albany, NY, June 17, 2002.
Hon. Jeff Bingaman,
Senate Energy and Natural Resources Committee, Dirksen Senate Office 
        Building, Washington, DC.
    Dear Senator Bingaman: I am writing to you on behalf of 
Environmental Advocates of New York, a statewide environmental advocacy 
and lobbying organization based in Albany, New York. With thousands of 
individual supporters and over 130 organizational members, 
Environmental Advocates is truly the voice of New York's euvironmental 
community.
    We are strongly supportive of Senator Charles Schumer's bills, S. 
1846 and S. 2450, to prohibit oil and gas drilling in the New York 
Finger Lakes region. As you know, New York boasts only one National 
Forest, which is situated outside of Ithaca. The Finger Lakes Forest 
was the target location for a proposal by President Bush to drill for 
oil and natural gas. The environmental costs of drilling in this area 
are both grave and plentiful.
    The drilling itself would destroy numerous parts of our National 
Forest, and more would suffer in order to transport the resources out 
of the area. In addition, the construction of miles of pipeline and 
roadways would also greatly disturb the natural habitat of the forest. 
The extent of damage cannot be predicted thoroughly, the threshold of 
acceptability would be left far behind.
    Another important consideration is the issue of precedent. By 
definition, America's National Forests are lands protected by the 
government in order to preserve their natural beauty and character, as 
well as provide homes in the wilderness for wildlife. The Finger Lakes 
Forest is no exception, but by allowing the government to drill within 
its boundaries we are permanently devaluing the importance of protected 
lands. We cannot allow such disrespect to escape unnoticed. If we 
cannot protect our National Forests from such a blatant attack as 
drilling now, imagine what will be accepted in the future.
    We urge you to pass this bill and live up to the promise of 
protection for National Forests. Thank you for your time.
            Sincerely,
                                            Val Washington,
                                                Executive Director.
                                 ______
                                 
                                    Stony Brook, NY, June 17, 2002.
Senator Jeff Bingaman,
Senate Energy and Natural Resources Committee, Dirksen Senate Office 
        Building, Washington, DC.
    Dear Senator Bingaman: I am writing this letter to express my 
support of Senator Schumer's bill, S. 1846, and Senator Clinton's bill, 
S. 2450. These bills seek to permanently ban any drilling for natural 
gas or oil in the Finger Lakes National Forest.
    This area consists of 16,176 acres in a beautiful region of New 
York State. While our country does require energy sources, we also 
should balance need with a rapidly diminishing natural beauty of the 
planet. I remember during the Carter years, energy conservation was 
given priority. However, this policy was dropped in later years. I 
believe that we should re-instate these (dropped) tax credits.
            Respectfully,
                                                      Paul M. Hart.
                                 ______
                                 
                                            Town of Hector,
                                        Burdett, NY, June 18, 2002.
Hon. Charles E. Schumer,
U.S. Senate, Dirksen Senate Office Building, Washington, DC.
    Dear Senator Schumer: The Town Board of the Town of Hector is 
opposed to drilling for gas and oil in the Finger Lakes National Forest 
as stated in Resolution #86 passed on July 11, 2001.
    We thank you for your continued support in opposition of drilling 
in the Finger Lakes National Forest.
            Sincerely,
                                       Benjamin R. Dickens,
                                                        Supervisor.

                       town of hector town board
                             Resolution #86

                             July 11, 2001

    WHEREAS, the Town Board of the Town of Hector has been presented 
with a copy of Draft Environmental Impact Statement (DEIS) concerning 
exploration and drilling for oil and gas in the Finger Lakes National 
Forest; and
    WHEREAS, there are 10,950 acres of land in said forest, all of 
which are located in the Town of Hector; and
    WHEREAS, the Draft Environmental Impact Statement (DEIS) contains 
no specific analysis as to how the community and its residents will be 
affected and it is anticipated construction will take 18 to 40 years 
(DEIS Page 2-22); and
    WHEREAS, annual rental rates (DEIS Page 2-5) for Leases are only 
$1.50 per acre, or a fraction thereof, for the first five years. Each 
year thereafter, annual rental rates increase to $2.01 per acre. The 
DEIS does not mention a specific number of acres to be leased, but does 
state the rental fees are paid to the Department of Interior; and
    WHEREAS, town roads in and out of the Finger Lakes National Forest 
will bear increase traffic by up to 30,000 one-way trips by vehicles, 
heavy trucks and equipment (DEIS Page C-5 an D-25). Of somewhat greater 
concern is the deterioration effect of heavy equipment on gravel and 
dirt areas. Local towns will be responsible for road repairs and/or 
maintenance; and
    WHEREAS, Oil and Gas Companies will utilize the existing forest 
road grid network 2 mucks as possible, but it will be necessary to 
construct some new access roads to exploratory drill site (DEIS Page S-
32). These access roads will probably be surfaced with gravel. Hector 
Town Highway Superintendent expressed concern at the Town Board Meeting 
held June 12, 2001 as to access to an the amount of gravel available at 
the present time for use on the existing town roads; and
    WHEREAS, any royalties (DEIS Pages 5-93 and 5-94) will be divided 
as follows. 87.5% to private oil companies; 9.5% to the federal 
government and 3% to the local government. The three percent (3%) 
designated for local government will be divided between the Counties of 
Schuyler and Seneca as exploration and/or drilling could take place in 
both counties. The Draft Environmental Impact Statement is unclear as 
to who would receive any royalty payments or if the Town of Hector will 
receive royalties at all; and
    WHEREAS, the DEIS clearly states that local government finances 
(DEIS Page 5-93) are frequently a concern accompanying oil and gas 
exploration and extraction. Smaller communities with limited tax base 
and obligations to maintain schools, roads and bridges may be impacted 
by increased use of these facilities. Successful development would 
ultimately expand the local tax base, however, the time interval 
between the need for funds and the availability of new projected 
revenues may result in short-run cash flow problems, especially if 
local governments are unable to borrow funds to offset revenue 
shortfalls; and
    WHEREAS, nowhere contained in said Draft Environmental Impact 
Statement is there a plan for a pipeline to deliver oil or gas out of 
said forest, although it does state that the necessary pipeline (DEIS 
Appendix B, Page 28) will be almost six miles long and require a right-
of-way twenty-five to fifty feet wide; and
    WHEREAS, it is estimated that if oil or gas is found, it will not 
be piped out of the Finger Lakes National Forest for an estimated 18 to 
40 years (DEIS Page 2-22) and no royalties will be pad until said oil 
and/or gas is sold; and
    WHEREAS, any and all road maintenance and/or repairs will have to 
be done while said exploration and drilling operations occur and paid 
for at the expense of tax payers as the project goes forth, not 18 to 
40 years from now.
    BE IT RESOLVED, that the Town Board of the Town of Hector is 
opposed to any plan to explore and/or drill for oil and gas in the 
Finger Lakes National Forest. It will not only be devastating to the 
forest itself, the wildlife habitat, possible contamination of 
groundwater, soil erosion and aesthetic disturbances (DEIS Page 5-15/5-
17) and the community in general, it cannot and will not benefit anyone 
except for the oil companies.
    BE IT FURTHER RESOLVED, that the Town Clerk is authorized to send 
copies of this Resolution to:

Mr. Paul Brewster
Forest Supervisor
Finger Lakes National Forest
231 N. Main Street
Rutland, VT 05701
  
Hon. Amo HoughtonNYS Assembly
1110 Longworth House Bldg.
Washington, DC 20515
  
Schuyler County Legislature
Schuyler County Office Bldg.
105 Ninth Street
Watkins Glen, NY 14891
Finger Lakes National Forest
Attn: Oil & Gas Exploration
5218 NYS Route 414
Hector, NY 14841
  
Hon. Hillary R. Clinton
United States Senate
476 Russell Senate Office Bldg.
Washington, DC 20510
  
  
  
  
  
  

Adopted: July 11, 2001

    Vote: Ayes 4, Nays 0, Abstain 2

                    Benjamin R. Dickens, Supervisor; S. David Poyer, 
                            Town Council; Diane L. Carl, Town Council; 
                            A. Irene Brown, Town Council; Sherry 
                            Mangus, Town Council; Alvin White, Town 
                            Council
                                 ______
                                 
                                          Audubon New York,
                                         Albany, NY, June 18, 2002.
Hon. Frank Murkowski,
Senate Energy and Natural Resources Committee, U.S. Senate, Washington, 
        DC.
    Dear Senator: Audubon New York, the state program office of the 
National Audubon Society, strongly supports legislation S. 1846, 
sponsored by Senator Schumer, and S. 2450, sponsored by Senator 
Clinton, to permanently ban energy drilling in the Finger Lakes 
National Forest.
    The Finger Lakes National Forest is an important habitat for birds 
and other wildlife and must not be disturbed by drilling for oil and 
natural gas.
            Sincerely,
                                             Carole Nemore,
                                          Director of Conservation.
                                 ______
                                 
                        Finger Lakes Forest Watch Congress,
                                    Trumansburg, NY, June 18, 2002.
Chairman Bingaman,
Ranking Member Murkowski,
Senate Energy and Natural Resources Committee, Dirksen Senate Office 
        Building, Washington, DC.
    Dear Honorable Senators: We are writing to express support for 
bills S. 1846 and S. 2450, introduced by Senators Schumer and Clinton, 
the intent of which is to permanently ban oil and gas drilling in the 
Finger Lakes National Forest.
    The people of the Finger Lakes Area are overwhelmingly opposed to 
drilling on this land. Last summer (2001), we, the Finger Lakes Forest 
Watch Congress, collected 8,000 signatures from area residents opposed 
to drilling for gas within the borders of the Finger Lakes National 
Forest, the smallest National forest preserve in the country. In 
addition, three county legislative boards (Schuyler, Seneca, Tompkins) 
and two Town Boards (Hector and Lodi) passed resolutions opposed to 
drilling on the grounds that the threat to the local environment, to 
the watersheds upon which we rely for survival and farming (including a 
good portion of the New York State wine industry) and to the tourism 
industry offset any potential economic gains.
    According to the Schuyler County clerk, there are now over 400 
private gas leases recorded in Schuyler County. There are many others 
in the neighboring counties of Seneca and Tompkins. Numerous state 
forest and wildlife management lands have also been leased by New York 
State for natural gas. We are literally surrounded by development from 
the gas industry. The gas that will be obtained from these sources 
should be a sufficient contribution of this area to the national energy 
program and would be obtained without endangering one small piece of 
public land--IF this committee approves S. 1846 and S. 2450.
    The Forest Service formally rejected drilling but kept the option 
open if ``public opinion changes''. This is unlikely. The value of the 
gas that could be extracted from the 16,000 acres of the National 
Forest does not equal the damage that will be done to the Forest, to 
our lives and livelihoods. We are, now and forever, opposed to drilling 
in the Finger Lakes National Forest, and we ask that you support 
Senators Schumer and Clinton in their efforts to preserve this land now 
and for future generations.
            Sincerely,
                                 Steve Wagner and Lawrence Reverby.
                                 ______
                                 
                                     Defenders of Wildlife,
                                     Washington, DC, June 18, 2002.
Chairman Bingaman,
Ranking Member Murkowski,
Senate Energy and Natural Resources Committee, 364 Dirksen Senate 
        Office Building, Washington, DC.
    Dear Chairman Bingaman and Senator Murkowski: We are writing to 
express our strong support for S. 1846 and S. 2450, two bills 
introduced in the Senate to prohibit oil and natural gas drilling in 
the Finger Lakes National Forest (FLNF) in New York. We actively 
opposed the most recent proposal to drill in this forest, and continue 
to believe energy development is inappropriate and unnecessary in this 
small yet important forest.
    The FLNF is the nation's smallest, and New York's only, national 
forest at 16,036 acres. The FLNF is home to two endangered species and 
five at risk species. In a part of the country with little public land, 
the FLNF is a popular recreational destination in upstate New York with 
year long recreational activities including skiing, hunting, camping, 
fishing, and wildlife observation.
    The relatively small size of the FLNF results in concentrated 
wildlife and recreation resources. Activities such as energy 
exploration and development can not be accomplished without a 
substantial disturbance to these concentrated resources. Instead, the 
impacts of such activities are amplified in such a small area, leading 
to dramatic negative impacts. Drilling, blasting, and increased traffic 
will take away from the quiet serenity associated with the forest and 
will disrupt the natural wildlife patterns, making hunting and wildlife 
observation more difficult. Drilling for oil and natural gas would turn 
this popular national forest into another drilling site; a national 
forest of oil pumps and roads, instead of trees and hiking trails.
    The most recent drilling proposal by the United States Forest 
Service would have disrupted approximately 82 percent of the forest, 
roughly 13,204 of the 16,036 acres of the FLNF, and caused direct 
surface damage on over 1/3 of the land. Test holes were to be drilled 
every 110 feet to detonate explosives, each of which causes a 40-foot 
diameter ring of damage. 10 to 15 well pads of approximately 3 acres 
each were going to be construed, with 30 foot wide access roads to each 
of these sites. A 6 mile pipeline with a 25 to 50 feet of right of way 
was to be built. And 38,000 one-way trips by vehicles associated solely 
with this project would have brought noise, traffic, and pollution. An 
even more aggressive alternative by the Forest Service would have 
allowed 61 percent land surface occupancy, roughly twice that of the 
preferred alternative discussed above. The amount of oil and gas 
estimated to be recovered is tiny, as one would expect from such a 
small area.
    Drilling in the small FLNF is totally inappropriate and 
unnecessary, and always will be. Energy exploration is simply not 
appropriate in a forest of this size, with values that are 
overwhelmingly wildlife, recreational, and ecological, in an area 
poorly endowed with public lands. The recent effort to disturb nearly 
the entire forest in pursuit of a small amount of oil and natural gas 
shows that existing legal and regulatory mechanisms are insufficient to 
protect this area from misguided forest managers and self interested 
industries. S. 1846 and S. 2450 are needed to prevent future ill-
advised proposals from ruining this important forest for a small, short 
term gain.
    In a sea of private land, it is not too much to ask that a mere 
16,000 acres be put off-limits to industrial interests for the benefit 
of people and wildlife who recreate and live there. We urge your 
support for Senator Schumer and Senator Clinton's efforts to protect 
the only national forest in their state of New York. Thank you.
            Sincerely,
                                       Rodger Schlickeisen,
                                                         President.

                                 <greek-d>

</pre></body></html>
